<html>
<title> - GULF RESTORATION: A PROGRESS REPORT THREE YEARS AFTER THE DEEPWATER HORIZON DISASTER</title>
<body><pre>[Senate Hearing 113-650]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-650
 
                  GULF RESTORATION: A PROGRESS REPORT
                         THREE YEARS AFTER THE
                       DEEPWATER HORIZON DISASTER

=======================================================================

                                HEARING

                               BEFORE THE
                               
                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 6, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                         U.S. GOVERNMENT PUBLISHING OFFICE
94-681 PDF                   WASHINGTON : 2015                         
   
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="88eff8e7c8ebfdfbfce0ede4f8a6ebe7e5a6">[email&#160;protected]</a>  
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
WILLIAM COWAN, Massachusetts         RON JOHNSON, Wisconsin
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 6, 2013.....................................     1
Statement of Senator Nelson......................................     1
    Prepared statement...........................................    10
Statement of Senator Wicker......................................     8
Statement of Senator Blumenthal..................................    32

                               Witnesses

Hon. Mary Landrieu, U.S. Senator from Louisiana..................     1
    Article dated May 31, 2013 from the Washington Post, Opinion  
      entitled, ``Restoration of the Gulf of Mexico can't wait'' 
      by Bob Graham and William K. Reilly........................     2
    Prepared statement...........................................     6
Lois Schiffer, General Counsel, National Oceanographic and 
  Atmospheric Administration, U.S. Department of Commerce........    11
    Prepared statement...........................................    12
Hon. Rachel Jacobsen, Acting Assistant Secretary for Fish, 
  Wildlife, and Parks, U.S. Department of the Interior...........    20
    Prepared statement...........................................    22
Jeff Trandahl, Executive Director, National Fish and Wildlife 
  Foundation.....................................................    26
    Prepared statement...........................................    27
Trudy D. Fisher, Executive Director, Mississippi Department of 
  Environmental Quality..........................................    36
    Prepared statement...........................................    38
Hon. George Neugent, Mayor, Monroe County, Florida...............    40
    Prepared statement...........................................    42
Eric Draper, Executive Director, Audubon Florida.................    47
    Prepared statement...........................................    48
Stephen Polasky, Fesler-Lampert Professor of Ecological/
  Environmental Economics, University of Minnesota...............    55
    Prepared statement...........................................    57

                                Appendix

Letter dated May 1, 2013 to the Gulf Coast Ecosystem Restoration 
  Council from the National Audubon Society; Coalition to Restore 
  Coastal Louisiana; Environmental Defense Fund; Lake 
  Pontchartrain Basin Foundation and the National Wildlife 
  Federation.....................................................    63
Letter dated July 14, 2013 to the Gulf Coast Ecosystem 
  Restoration Council from the National Audubon Society; 
  Coalition to Restore Coastal Louisiana; Environmental Defense 
  Fund; Lake Pontchartrain Basin Foundation and the National 
  Wildlife Federation............................................    77
Response to written questions submitted to Lois Schiffer by:
    Hon. Bill Nelson.............................................    82
    Hon. Roger F. Wicker.........................................    85
    Hon. Marco Rubio.............................................    87
Response to written questions submitted to Hon. Rachel Jacobson 
  by:
    Hon. Bill Nelson.............................................    89
    Hon. Amy Klobuchar...........................................    90
    Hon. Marco Rubio.............................................    91
Response to written questions submitted to Jeff Trandahl by:
    Hon. Bill Nelson.............................................    92
    Hon. Roger F. Wicker.........................................    93
    Hon. Marco Rubio.............................................    93
Response to written question submitted by Hon. Roger F. Wicker to 
  Trudy D. Fisher................................................    94
Response to written questions submitted to Hon. George Neugent 
  by:
    Hon. Bill Nelson.............................................    94
    Hon. Marco Rubio.............................................    94
Response to written questions submitted by Hon. Bill Nelson to 
  Eric Draper....................................................    96
Response to written question submitted to Dr. Stephen Polasky by:
    Hon. Hon. Bill Nelson........................................    96
    Hon. Roger F. Wicker.........................................    97


                  GULF RESTORATION: A PROGRESS REPORT


                         THREE YEARS AFTER THE


                       DEEPWATER HORIZON DISASTER

                              ----------                              


                         THURSDAY, JUNE 6, 2013

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:02 a.m., in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. The meeting will come to order. And it 
looks like it is very much in order.
    [Laughter.]
    Senator Nelson. We apologize for the late start. We just 
completed three votes. And to accommodate Senator Landrieu, I 
want to forgo any opening statements so that we can accommodate 
her need to get back to the floor.
    I just want to say that if there is one person that is 
responsible for the passage of the RESTORE Act, it is the 
senior Senator from Louisiana. She was relentless. And what you 
learn around this institution is that you don't want to cross 
Mary Landrieu.
    [Laughter.]
    Senator Nelson. And, in that relentlessness, she got across 
to so many others that do not represent states that are on the 
Gulf the necessity for this money to flow in an orderly fashion 
by law and the necessity of restoring the environment and our 
people.
    And so, Senator Landrieu, we want to give you the 
opportunity for the first word.

               STATEMENT OF HON. MARY LANDRIEU, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Landrieu. Well, thank you so much, Chairman Nelson 
and Ranking Member Wicker. It really is a pleasure and truly an 
honor to be asked to testify before this important 
subcommittee.
    I want to thank both of you before I begin my remarks for 
your extraordinary leadership in the passage of the RESTORE 
Act. I thank you for your compliments, Mr. Chairman, but you 
know it would not have happened without strong support from all 
of the Senators from the Gulf Coast. And you, in particular, 
were in a very challenging political environment and yet would 
find the time to step up and join a great coalition of 
Republican and Democratic Senators that made the RESTORE Act 
happen.
    And because of our really unprecedented, in my mind, 
coordinated efforts on the Senate floor to put a bill together 
that five states could agree to, with all of our different 
stakeholders, was absolutely amazing, particularly in the 
context of a Congress that was having difficulty agreeing on 
the time of day.
    And so I am so proud of our work on the RESTORE Act. And 
thank you both for your leadership.
    I wanted to put a couple of things into the record because 
I know the focus is on how this money is being allocated, how 
it is being spent. And I want to start by referring to an 
excellent letter that was posted by our good friends, Bob 
Graham and Bill Reilly, who I want to also give a tremendous 
amount of credit. They served on the Commission at the request 
of the President and produced a foundation report after the 
Gulf Coast oil spill, which laid a foundation for our actions.
    And both of them, one a Democrat, one a Republican, one a 
former EPA administrator, and one a dear colleague and friend 
and supporter of Florida's restoration efforts, as you are, 
Senator Nelson, a real leader for the restoration of the 
Everglades, submit their letter for the record.
    [The information referred to follows:]

               The Washington Post, Opinion--May 31, 2013

              Restoration of the Gulf of Mexico can't wait

                  By Bob Graham and William K. Reilly

    Bob Graham is a former Governor and U.S. Senator from Florida. 
William K. Reilly was administrator of the Environmental Protection 
Agency during the George H.W. Bush administration and is a past 
president of the World Wildlife Fund. They co-chaired the National 
Commission on the Deepwater Horizon Oil Spill and Offshore Drilling.
    Almost daily, some mention is made of the billions of dollars in 
fines and penalties that might come from BP and its contractors in 
resolving the litigation that resulted from the April 2010 explosion of 
the Deepwater Horizon oil rig in the Gulf of Mexico.
    What the American people don't hear about is the unacceptably slow 
progress in repairing the damage to one of the world's most productive 
natural resources. Although oil and gas production is important, the 
United States also depends on the gulf for much of its seafood (half 
the production in the lower 48 states), and many residents along the 
coast depend on a healthy gulf for their livelihoods in fishing, 
recreational industries and tourism.
    The National Commission on the Deepwater Horizon Oil Spill and 
Offshore Drilling, which we co-chaired, recommended that 80 percent of 
the Clean Water Act penalties resulting from the spill be earmarked for 
restoring the gulf's ecosystems. Last year, with bipartisan support, 
Congress passed the RESTORE Act adopting this recommendation. The 
revenue from the spill penalties offers an opportunity to reverse 
decades of destruction.
    The country needs to get started and needs to do it right. So far, 
though, we are not encouraged about either prospect.
    Progress has been slow. Almost two years ago, BP agreed to provide 
$1 billion for early restoration of damaged natural resources--projects 
to be started before final settlement was reached regarding damages. At 
the end of April, only 7 percent of the available funds had been 
committed. A couple of dozen projects have recently been announced for 
consideration, but half of those are focused on recreation rather than 
restoring damaged resources and ecosystems.
    The goal of restoring the gulf's environment has become lost amid 
bureaucratic squabbling. A recent report by the Treasury Department's 
inspector general indicates that Federal agencies can't agree on how 
the RESTORE Act money will be managed. The states are arguing not only 
about how much money each will get but also about how it will be spent. 
Some state and local officials want to use RESTORE Act funds for things 
unrelated to ecosystem restoration--such as building resorts, balancing 
budgets or replacing revenue sources for ongoing expenditures.
    Last month, the Gulf Coast Ecosystem Restoration Council 
established by the RESTORE Act produced a ``Draft Initial Comprehensive 
Plan'' describing the council's goals and the processes it intends to 
follow. This is encouraging, but the report lacks the spending 
allocation plan and the priority list of specific projects that the 
RESTORE Act requires. One thing impeding headway is the fact that, of 
the five states bordering the Gulf of Mexico, only Louisiana and 
Florida have specific proposals for restoration projects.
    To the Commission, the compelling rationale for allocating revenue 
from Clean Water Act fines to restoration of the gulf coast was the 
need to reverse the long-term degradation of the Gulf of Mexico's 
ecosystems. Well before the BP spill, the Federal Government was an 
active partner in depletion of this productive resource, helping in the 
destruction of coastal wetlands to promote shipping, oil and gas 
development, and other economic activities.
    Now the restoration initiative is at risk of falling victim to the 
same absence of thoughtful, coherent planning that allowed the 
degradation of the ecosystems. No clear goals are evident on what the 
restoration efforts should be trying to achieve. There is no process 
for assessing improvements in the health of the gulf, no means for 
ensuring that the projects undertaken are scientifically and 
technically sound, no mechanism for coordinating the many players and 
the several buckets of funding. These are essential elements before 
billions of dollars are expended.
    The Gulf of Mexico has suffered long enough. The revenue from the 
spill penalties offers a once-in-a-lifetime chance to begin reversing 
decades' worth of destruction. The country cannot allow this 
opportunity to be wasted by inadequate planning, bureaucratic 
infighting or shortsighted handouts to special interests.
    Stakeholders also need to look at creative approaches, such as 
those offered by some in the private sector who are willing to invest 
their own money to help speed restoration. One investment partnership 
experienced in wetlands mitigation, for example, has raised funds to 
restore wetlands protecting New Orleans and says it can do this faster 
and at lower cost than government can. It is also willing to accept 
payback after the restored wetlands demonstrate their viability. This 
type of private initiative should be encouraged.
    Every dollar spent conserving habitat, restoring water quality, 
protecting coastal and marine resources, and strengthening community 
resilience will create jobs and return the investment many times over 
for generations to come. Let's put gulf restoration on a solid 
foundation--now.

    Senator Landrieu. I want to particularly underline their 
short paragraph that says, ``The Gulf of Mexico has suffered 
long enough. The revenues from the spill penalties offer a 
once-in-a-lifetime chance to begin reversing decades' worth of 
destruction. The country cannot allow this opportunity to be 
wasted by inadequate planning, bureaucratic infighting, or 
shortsighted handouts to special interests.'' I could not agree 
more.
    Every dollar spent conserving habitat, restoring water 
quality, protecting coastal and marine resources, and 
strengthening the community resilience'' that live along this 
spectacular working coast--I added that----
    [Laughter.]
    Senator Landrieu.--``will create jobs and return the 
investment many times over for generations to come. Let's put 
Gulf restoration on a solid foundation now.''
    I am proud to say that three financing mechanisms that are 
now in place--put in place by this Congress and this 
administration. The National Fish and Wildlife Foundation will 
administer $2.54 billion as a result of criminal settlements 
between BP, Transocean, and the Department of Justice. That is 
under way as we speak.
    The Gulf Coast Ecosystem Restoration Trust Fund, 
established by the RESTORE Act, has $800 million initially as a 
result of Transocean's $1 billion civil settlement and will 
receive significant additional funding once the civil trial is 
complete.
    That trial is still under way in New Orleans. It itself has 
been a tourism boom for our state.
    [Laughter.]
    Senator Landrieu. There are hundreds of lawyers. Some of 
them are here. They have been spending literally years now in 
court. I wish they could have settled out of court, but, 
unfortunately, Mr. Chairman, they weren't able to, so now this 
huge lawsuit is going on. We will not really know the results 
for quite some time. But when the results are in, we will have 
a little bit better idea of the monies that will be allocated 
to our efforts.
    But, prior to that, BP has committed $1 billion to a 
national resource damage assessment through NRDA--as you 
understand the difference between the NRDA penalties and the 
pollution fund--projects along the Gulf Coast, including $370 
million in Louisiana.
    While this is certainly encouraging, it is imperative that 
we establish viable, effective, and accountable distribution 
mechanisms now to ensure that this unprecedented investment is 
targeted at critical projects that contribute to the overall 
recovery of the Gulf Coast.
    With the RESTORE Act--I will go through this quickly--all 
of the penalty money--and it could be significant. It could be 
anywhere from $5.4 billion--an initial $1 billion has already 
been received. But it could be anywhere from $5.4 billion to 
$21 billion, depending on the outcome of the case in New 
Orleans right now under the good, wise direction of Judge Carl 
Barbier.
    When that money is identified, or the penalty, fine, 
Senators, if we had not passed the RESTORE Act, all of that 
money would have come, under previous law, to the Federal 
Treasury. Now, while the Federal Treasury could most certainly 
use some of that money, I think it is important that that money 
be directed, 80 percent of it, back to the Gulf Coast for the 
restoration efforts that we know are so important, not just for 
our states but for the Nation. And that is what we 
accomplished, and that is what will happen once this is over.
    I am going to try to go quickly. I don't want to take too 
much time.
    While Louisiana bore the brunt of the environmental impacts 
from the oil spill, we were also seriously affected by adverse 
economic impacts on tourism, commerce, and other coastal 
industries. To balance these competing needs, we divided, I 
think wisely, the funding into three separate pots in the 
RESTORE Act, decentralized the decisionmaking process to ensure 
that local, state, and Federal stakeholders had a voice in the 
process.
    It was a delicate balance between the Federal Government 
dictating their vision of the coast and our own people 
dictating their vision of the coast. And I think in RESTORE we 
found a balance, and I hope that those administering this will 
seek that same balance.
    Each state gets an equal share, as you know, in pot 1 and 
can use it for environmental restoration, work force 
development, or essential coastal infrastructure projects. In 
Louisiana, 30 percent of the money in this pot will go directly 
to coastal parishes. I insisted on that, Senator Vitter 
supported that effort, so that our local parishes can have some 
of this money to do some things--we have 19 coastal parishes--
to do some things that are very important.
    Pot 2, 30 percent, the Gulf Coast Ecosystem Restoration 
Council recently released their draft comprehensive plan for 
public comment. I am very concerned about the Council's 
consideration of developing supplemental evaluation criteria to 
evaluate proposals and selected projects. The RESTORE Act 
established four explicit criteria that will ensure this 
funding is dedicated to addressing environmental impacts of the 
spill. And I hope and expect the chair of the council, which is 
at Department of Commerce, to ensure this congressionally 
crafted balance is not altered or amended too much through the 
implementation process.
    Pots 1 and 3 can go toward economic or environmental 
recovery. Pot 2 must remain dedicated to environmental recovery 
to preserve the delicate balance Congress struck between these 
competing interests.
    Let me say, if you will bear with me for one more minute, 
Mr. Chairman, if I could, Congress is aware of the competing 
interests, we all represent the competing interests, between 
the oil and gas industry, the fisheries industry, the 
environmental industry, the river coalition of how to manage 
that runoff that comes all the way from Minnesota down the 
Mississippi to create that dead zone in our Gulf, the 
fertilizer plants, refineries. We are not oblivious.
    So we crafted the RESTORE Act, I think it was, if I can 
say, it was masterful, the way we tried to balance, you know, 
the interests and the political interests of our Governors, 
which are from, you know, different political parties than some 
of us are.
    Now, it might not be perfect, but I think we got the 
balance correct. And I really hope that the implementers, which 
is the purpose of this hearing, will follow that good 
direction.
    In addition, let me say--and, Senator, this is where you 
particularly showed tremendous foresight and leadership. We 
establish within this fund the Gulf Coast research, science, 
and technology program.
    You know, in the face of the beauty and strength of Mother 
Nature, it is not wise to not be humble. Let me just say that. 
And science can make us much better leaders, if we would just 
listen to our scientists and to the actual research. We know 
things by faith; we also need to learn to listen to science, as 
well. And we don't spend, in my view, enough money 
understanding this ecosystem. So how can you fix it if you 
don't understand it?
    So you, Senator, led the effort to create this science and 
technology trust fund. We will have more money for science and 
investments in all of our great universities that, if just 
given a little bit of help, can do the research.
    And, finally, I encourage all of you to work with the 
planning committee and groups like the Center for Planning 
Excellence. There are many other nonprofits. This is a little 
Center for Planning Excellence that we created after Katrina 
when we were desperate to learn how to plan our communities 
better, to be more self-sustaining, to be smarter, to have 
better growing plans.
    And from Mississippi, which I am very familiar with the 
Gulf Coast, spent a lot of my childhood on the Gulf Coast of 
Florida, Alabama, and Mississippi, as well as Louisiana--our 
communities could really use some help planning and trying to 
think ahead, as you know, how to sustain our way of life and 
our culture.
    So there are some implementation concerns. I am going to 
submit those for the record.
    Let me just end with, I could not be prouder--I could not 
be prouder of the effort that is under way in this committee 
now to implement an extraordinary, I think, and special piece 
of legislation.
    And while the accident was horrific--we lost 11 men on the 
rigs; their families and communities are still suffering--it is 
a once-in-a-lifetime opportunity to use these penalty monies to 
jumpstart some of these very needed restoration projects, not 
only for the benefit of our five states but the entire nation 
that depends on this extraordinary working coast.
    Thank you very much.
    [The prepared statement of Senator Landrieu follows:]

    Prepared Statement of Hon. Mary L. Landrieu, U.S. Senator from 
                               Louisiana
    I am proud to be able to say today that all three financing 
mechanisms established in the wake of the 2010 oil spill to help 
restore the coast now have funding in place. The National Fish and 
Wildlife Foundation will administer $2.54 billion as a result of the 
criminal settlements between BP, Transocean and the Department of 
Justice. The Gulf Coast Ecosystem Restoration Trust Fund, established 
by the RESTORE Act, will receive $800 million as a result of 
Transocean's $1 billion civil settlement and significant, additional 
funding once the civil trial is complete. BP has committed $1 billion 
to Natural Resource Damage Assessment (NRDA) Early Restoration projects 
along the Gulf Coast including $370 million in Louisiana.
    While this is certainly encouraging, it is imperative that we 
establish viable, effective, and accountable distribution mechanisms 
now to ensure that this unprecedented investment is quickly targeted at 
critical projects that contribute to the overall recovery of the Gulf 
Coast
    We must dedicate Clean Water Act penalties to the Gulf of Mexico. 
Without this bill, every dime collected from Clean Water Act fines 
would have gone to the Federal Government's Oil Spill Liability Trust 
Fund instead of repairing the environmental and economic damage 
inflicted on the Gulf Coast. Thanks to the RESTORE Act, 80 percent of 
the Clean Water Act fines will go to cleaning up this mess, making this 
the largest single investment in environmental restoration in our 
Nation's history.
    The Clean Water Act provides for the collection of between $1,100 
and $4,300 per barrel of oil spilled by the responsible party with a 
finding of 'gross negligence' resulting in the maximum penalty. Based 
on the estimated 4.1 million barrels of oil spilled in the Gulf of 
Mexico, BP could face fines between $4.5 billion and $17.6 billion. 
This funding will allow federally authorized projects like the 
Louisiana Coastal Area (LCA) Program, originally authorized in WRDA 
2007, to get off the drawing board.
    It is important that we recognize the balance between environmental 
and economic impacts. While Louisiana bore the brunt of the 
environmental impacts from the oil spill, we were also seriously 
affected by the related economic impacts on tourism, commerce, and 
other coastal industries. To balance these competing needs, we divided 
the funding into separate pots and decentralized the decision-making 
process to ensure local, state, and Federal stakeholders all had a 
voice in the process.
    Each state gets an equal share under Pot 1 and can use it for 
environmental restoration, workforce development, or essential 
infrastructure projects. In Louisiana, 30 percent of the money in this 
pot will go directly to coastal parishes to ensure locally significant 
projects have a viable funding source.
    The Gulf Coast Ecosystem Restoration Council will administer Pot 2. 
They recently released their Draft Comprehensive Plan for public 
comment, and I am very concerned about the Council's consideration of 
developing supplemental evaluation criteria to evaluate proposals and 
select projects. The RESTORE Act established four explicit criteria 
that will ensure this funding is dedicated to addressing the 
environmental impacts of the spill, and I expect Commerce as Chair of 
the Council to ensure this Congressionally-crafted balance is not 
altered or amended through the implementation process.
    Pending the approval of an expenditure plan, each Gulf Coast state 
will receive additional funds through Pot 3 based on an impact 
allocation formula that they can dedicate to projects that contribute 
to the overall economic and ecological recovery of the Gulf Coast. The 
remaining 5 percent is dedicated to Gulf Coast Research, Science and 
Technology.
    Comprehensive ecosystem restoration planning is another important 
component of the RESTORE Act. The Draft Comprehensive Plan is an 
important first step to rethinking the way we live with water all along 
the Gulf Coast. Since Hurricanes Katrina and Rita devastated coastal 
Louisiana, communities across the coast have embraced land use planning 
as a tool for protecting and preserving our unique way of life. I 
encourage all of you to work with the planning community and groups 
like the Center for Planning Excellence throughout these processes 
(NRDA, NFWF, RESTORE) to ensure that these investments support 
sustainable development and economic activity.
    I do have some serious concerns about the project implementation 
timeline. The Draft Comprehensive Plan does not include either a 
description of the manner in which the funds from the Trust Fund will 
be made available to the Council for project implementation nor a 
project and program priority list as required by the RESTORE Act.
    I am also apprehensive about the procedural delays associated with 
the NRDA processes. While BP has agreed to provide $1 billion for early 
restoration of damaged natural resources through the NRDA process, only 
7 percent of the available funds have been committed, and a an undue 
percentage of the projects under consideration for NRDA fundi g are 
focused on human use and recreation rather than restoring damaged 
resources and ecosystems.
    I look forward to continued work with the Council to ensure that 
the carefully constructed Congressional compromise is protected and 
that the law is implemented in the manner that Congress intended.

    Senator Nelson. Thank you, Senator Landrieu. And, again, it 
is obvious, your leadership, by virtue of what you have just 
said.
    And, indeed, this hearing is focusing on 3 years after the 
disaster and seeing that the law is now implemented according 
to the legislative intent.
    Recently, one of the participants that is not here, but I 
had occasion privately to speak with the Secretary of the 
Treasury. There is a part of the law that is being implemented 
through Treasury. And to ask Jack Lew to get off of dead-center 
and get those requirements that are the responsibility of 
Treasury under way. Likewise, we will be asking the rest of the 
participants today.
    One final item before I turn to our colleague. I spoke with 
some LSU professors who, shortly after the disaster, had 
pointed out by studying a little fish called a killifish that 
roots around in the sediment in the bays and the estuaries, and 
they compared what was happening to that little fish in the 
food chain.
    And in the bays, like Barataria, that were so affected by 
the oil spill, compared with that same little fish in other 
bays that did not have much oil, there was all the difference 
in the world in the reproduction, in the growth, indeed in the 
appearance of that little critter in the food chain.
    And if that were true, then we are going to have to be very 
concerned about the future effects not only of the oil that was 
spilled there but the oil that is still out there.
    So let me turn to my colleague.
    And you certainly can be excused, Senator Landrieu, if you 
need to get back to the floor.
    Senator Wicker, for your opening comments.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Well, thank you, Mr. Chairman.
    And thank you, Senator Landrieu, for your leadership. And 
we do wish you well in the statement that you have to make on 
the floor soon. So you are certainly----
    Senator Landrieu. Thank you. I am going to slip out. If I 
could just thank you both.
    Let me just respond, yes, I am very concerned about the 
effects of the oil, and, you know, we don't have enough science 
about the dispersement and the effects. And this funding, 
Senator, will really help us find our way forward, because we 
have to figure out a way to mine the natural resources that are 
so important for the economic development and strength of this 
Nation.
    And oil and gas is an important natural resource for us and 
is really fueling a great manufacturing renaissance in our 
country, particularly with natural gas. A lot of that is 
discovered, as you know, in the Gulf.
    But I think, with these resources appropriately applied, we 
can even make the drilling operations that are essential safer, 
minimize the environmental impact, and set a model for the 
whole world. Because all over the world, in places off the 
coast of Africa, South America, you know, Argentina, et cetera, 
et cetera, there are drilling operations.
    If we can do it right and learn how to do it right in the 
Gulf, in the greatest democracy in the world with the strongest 
environmental laws and the greatest innovation of our industry, 
what a blessing this will be to the world. I mean, that is what 
this is really about. It is not just about the people in 
Louisiana, Mississippi, Texas, and Alabama. It is really giving 
a path forward for a planet that is in desperate need of these 
notions and ideas.
    So thank you all very much. It has been a pleasure. And I 
do have to go back to the floor. Thank you.
    Senator Wicker. Thank you very much, Senator Landrieu.
    And it happens that the three of us represent Gulf Coast 
states. I think the importance that Senator Landrieu pointed 
out of this issue across the country and around the world is 
one of the reasons, Mr. Chair, why we had such great support 
from California, from the East Coast, and from all over the 
great heartland of America for the RESTORE Act, because it is 
not only fair but it is very forward-thinking and important.
    So thank you for holding this important hearing.
    And we are going to get to our panel very, very soon.
    Today, we discuss the progress of restoration of the Gulf 
following the Deepwater disaster. Our focus is on reviewing the 
restoration efforts that have been made to date, as well as 
reviewing and identifying remaining challenges.
    The Gulf Coast region is vital to our Nation and our 
economy, providing valuable resources, including abundant 
seafood, and recreational activities. More than 22 million 
Americans lives in Gulf Coastal counties, working in crucial 
U.S. industries such as shipping, commercial seafood, tourism, 
and oil and gas production. The Gulf is one of the most diverse 
environments in the world and harbors more than 15,000 species 
of sea life.
    Unfortunately, the ecological health of the region has 
already been suffering due to the loss of critical wetland 
habitats, the erosion of barrier islands, fishery disasters, 
water-quality degradation, and significant coastal land loss. 
The Deepwater Horizon oil spill amplified these issues and 
drastically added to the challenges facing this delicate 
ecosystem and the economy of the region.
    Some of the more visible impacts of the spill include the 
damage to the fishing industry and the more than 8,000 injured 
or dead waterfowl, sea turtles, and marine mammals found over 
the course of 6 months following the spill. The 2010 spill was 
the largest in U.S. history, and the full extent of the 
environmental damage will not be established for years to come, 
as the Chairman just pointed out.
    Federal, state, local, and private entities have worked 
together to spearhead recovery efforts. The result has been an 
unprecedented allocation of funds that will be available to 
assist in the revitalization of the region's environment and 
economy. These restoration funds include the National Fish and 
Wildlife Foundation's Gulf Environmental Benefit Fund, natural 
resource damage assessment funds, and the RESTORE Act's Gulf 
Coast Restoration Trust Fund.
    I am pleased that my home state of Mississippi is committed 
to making full recovery happen and taking aggressive steps to 
protect the future livelihood of Gulf Coast residents. 
Mississippi has organized state efforts by creating GoCoast 
2020 to serve as the official advisory body for the allocation 
of funds under the RESTORE Act.
    GoCoast 2020 has identified projects in eight key areas 
related to recovery. The proposed projects would protect the 
environment, help spur needed job creation, and increase vital 
economic opportunities. In implementing the RESTORE Act, 
Mississippi has identified as the center of excellence the 
Center for Gulf Studies.
    The Committee needs to monitor recovery efforts and ensure 
funds are being used in an efficient and responsible manner. A 
successful recovery depends on coordination and communication, 
and we hope this hearing will facilitate these needs.
    I want to thank our witnesses for testifying today. We have 
two distinguished panels. We look forward to hearing their 
views on the progress of the Gulf Coast recovery and the 
challenges we are facing.
    In particular, on a matter of personal privilege, I want to 
welcome Mississippi's Director of the Department of 
Environmental Quality, Trudy Fisher, who will be testifying in 
the second panel.
    She has served as the agency's director since 2007 and has 
been a tremendous asset to Mississippi and the Gulf region. As 
a matter of fact, after the Deepwater Horizon oil spill, she 
could probably have been chosen citizen of the year, her 
efforts have been so invaluable to our state. She is 
Mississippi's trustee for natural resources under the Oil 
Pollution Act and is tasked with leading Mississippi's recovery 
from the Deepwater Horizon spill.
    So thank you, Trudy, for being here and being on the second 
panel.
    Thank you, Mr. Chairman, for your leadership and this 
hearing.
    Senator Nelson. If I could ask the panel to come on up.
    I will insert my remarks in the record.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Three years ago, we were in the middle of the worst man-made 
environmental disaster in our Nation's history--the explosion of the 
Deepwater Horizon oil platform.
    Then, a little under a year ago, Congress passed the RESTORE Act, 
which redirects the Clean Water Act civil penalties back to the Gulf 
Coast States. I was proud to help author and vote for that legislation.
    While the planning framework was underway for RESTORE over the last 
year, both BP and Transocean settled their criminal cases under the 
Clean Water Act with the U.S. Government, which will lead to over two 
and half billion dollars in restoration projects for the Gulf through 
the National Fish and Wildlife Foundation.
    And even before that, BP released one billion dollars in early 
restoration money for natural resources damages in April 2011.
    However, three years later, the Gulf has seen only 7 percent of the 
early restoration monies, and we still don't have a concrete timeframe 
for money to be disbursed through RESTORE, the National Fish and 
Wildlife Federation, or through the final Natural Resource Damages 
Assessment.
    My top priorities for restoring the gulf are to ensure that we have 
sufficient science dedicated to restoring the ecosystem and that 
restoration projects are funded on a much timelier basis than in the 
last 3 years. Simply put, the Gulf can't wait.
    In today's hearing I'm interested in learning how the various 
Federal and local stakeholders view a restored gulf and how you are 
working together to ensure this process runs more efficiently.
    To me, a restored gulf is one in which clean water is free from 
harmful algae blooms and free from tar mats, is home to oyster reefs 
and fish habitat and sea grass beds, where charters ferry tourists from 
hotels to pristine beaches and then on out to the productive fishing 
spots.
    With regard to RESTORE, I am also interested in learning more about 
the how the Council plans to narrow the proposed project list into a 
concrete plan. Without a specific list of projects, how can we be 
certain the money is going to be spent on ecosystem driven projects?
    One of the lessons we learned--and we learned it too late--is that 
we do not have sufficient understanding of the gulf ecosystem. We know 
that one-third of our domestic seafood comes from the gulf waters but 
we did not have a clear picture on the biological status of two-thirds 
of the federally managed fish stocks that call the gulf home, so it is 
important that some of these fines go toward dedicated, long-term 
science about the gulf ecosystem.
    I'd like to thank today's witnesses and others who have been 
working to design plans and projects that will lead to a healthy and 
restored Gulf of Mexico. I greatly appreciate the amount of time and 
energy you have spent trying to get it right. Thank you again to our 
witnesses and especially to Senator Landrieu, who deserves the highest 
praises for her work to get this legislation passed. I look forward to 
hearing your testimony.

    Senator Nelson. And we will insert each of your remarks, 
your written testimony, into the record, and if you could give 
us a summary.
    We will hear first from Mrs. Lois Schiffer, who is General 
Counsel of the National Oceanographic and Atmospheric 
Administration. And she will discuss Commerce's role as the 
Federal Chair of the Council.
    Rachel Jacobsen, Principal Deputy Assistant Secretary for 
Fish, Wildlife, and Parks in the Department of the Interior, 
will discuss the priorities for the Interior Department for 
Gulf Coast restoration.
    And Jeff Trandahl, Executive Director of National Fish and 
Wildlife Foundation, will discuss the foundation's plans for 
allocating the criminal fines from the Deepwater Horizon 
disaster on the ecosystem restoration and land acquisition 
projects.
    So we will start with you, Ms. Schiffer.

          STATEMENT OF LOIS SCHIFFER, GENERAL COUNSEL,

  NATIONAL OCEANOGRAPHIC AND ATMOSPHERIC ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Ms. Schiffer. Good morning, Chairman Nelson, Ranking Member 
Wicker, and members of the Committee. My name is Lois Schiffer, 
and I am the General Counsel of NOAA.
    I would like to take a moment to acknowledge with sadness 
the passing of your colleague, Senator Lautenberg. I had the 
honor to meet and work with him. He was a pioneer of efforts to 
protect our environment, and he is a great tribute to the U.S. 
Senate.
    Thank you for the opportunity to testify today about NOAA's 
role in the important subject of Gulf Coast environmental and 
economic restoration following the Deepwater Horizon/BP oil 
spill.
    The Gulf Coast region is vital to our nation's environment 
and economy. Even before the 2010 spill, its ecosystems and 
economy were impaired by years of environmental problems, 
natural disasters, and resulting economic difficulties. Jobs 
and the environment go hand-in-glove here. The task of 
restoration is vast, and the approach is complex.
    Today, I will focus on three components of the restoration 
process: the three approaches that must now be coordinated to 
advance restoration; the natural resource damage assessment and 
restoration under the Oil Pollution Act, which I will call 
NRDA, including early restoration; and the terrific progress of 
the science program that NOAA is charged with developing under 
Section 1604 of the RESTORE Act.
    First, in the wake of the Deepwater spill, three 
overarching approaches to restoration exist. NOAA is working 
with our co-trustee states and Federal agencies on NRDA, which 
requires those who cause oil spills to restore injured natural 
resources to the condition they were in at the time of the 
spill and compensate for lost use.
    Second, the 2012 RESTORE Act, which you have heard about 
from Senator Landrieu so eloquently, provides that 80 percent 
of civil penalties under the Clean Water Act be returned to the 
Gulf to be spent under five different components, with a focus 
on ecosystem restoration, economic recovery, tourism promotion, 
and science.
    And, third, the National Fish and Wildlife Foundation is 
administering $2.55 billion for restoration, as provided in 
criminal plea agreements with Transocean and BP. For NRDA and 
RESTORE, the amount of funding is the subject of ongoing 
litigation and may not be known for some time. Our opportunity 
and our challenge are to use all of these funds wisely to 
restore the Gulf. Coordination across these funds and 
approaches is essential.
    Second, NOAA has a significant role in NRDA. The process 
includes a science-based assessment of the injury to resources 
caused by the spill. And I think, Senator Nelson, your 
discussion about the killifish is an indication of how 
difficult that assessment is.
    NOAA works closely with the Department of the Interior, 
with the five states, and now with two additional Federal 
trustees. And it began the assessment as soon as the spill 
began, and that assessment is ongoing. Because of the complex 
ecosystem services these ecosystems provide and the injuries 
caused by the release of oil and its response, it takes time.
    NOAA regulations specifically provide for participation by 
the responsible parties at the Federal agencies' discretion. 
Based on the assessment, the trustees have begun to develop a 
comprehensive restoration plan to restore, rehabilitate, 
replace, or acquire the equivalent of injured resources and 
services and to compensate for lost use. Public involvement is 
important, and we began seeking it for this plan in 2011.
    For the Deepwater spill, we have also tried the bold 
innovation of entering a framework agreement with BP, under 
which it provides $1 billion toward implementation of early 
restoration projects.
    The first two phases of the projects--10 projects for $71 
million--have been through a complete process and are under 
way. Thirty-one proposed projects, valued at approximately $585 
million for phase 3, were announced in the Federal Register on 
May 6. And a Federal Register notice this week seeks public 
comment on a component of that program.
    The trustee council, with BP, has worked long and hard to 
implement the novel idea of early restoration at this scale, 
and we are making steady progress.
    Third, NOAA is charged with establishing a Gulf Coast 
science program with 2.5 percent of the RESTORE funds plus 
certain interest. NOAA has made great progress here. We have 
and continue to engage broadly with partners and stakeholders 
in the Gulf, including the Gulf States Marine Fisheries 
Commission, the Gulf of Mexico Fisheries Council, academia, 
NGO's, and industry.
    I am going to highlight three features of the science 
program as my conclusion. Its purpose is to achieve an 
integrative, holistic understanding of the Gulf of Mexico 
ecosystem, and that understanding will be a catalyst to 
bringing together the full range of science as it develops 
across all of these different pots of money and components.
    The program has several guiding principles, examples of 
which are in my written testimony, that emphasize approaches to 
provide useful information that improves understanding and 
management of the ecosystem.
    And, finally, the NOAA science program is working with the 
state centers of excellence as they are identified so that 
Congress's vision in the two science programs is synergistic.
    Thank you for the opportunity to discuss NOAA's role in the 
Gulf of Mexico restoration. I welcome any questions and look 
forward to working with you further on this important effort.
    [The prepared statement of Ms. Schiffer follows:]

Prepared Statement of Lois Schiffer, General Counsel, National Oceanic 
      and Atmospheric Administration, U.S. Department of Commerce
Introduction
    Good morning Chairman Nelson, Ranking Member Wicker, and Members of 
the Committee. My name is Lois Schiffer, and I am the General Counsel 
at the National Oceanic and Atmospheric Administration (NOAA), within 
the Department of Commerce (DOC). Thank you for inviting NOAA to 
testify before you today on the NOAA's role in restoring the Gulf of 
Mexico's environment and economy following the Deepwater Horizon oil 
spill.
Background of Restoration Opportunities, Including Importance of 
        Science to Inform Those Opportunities
    The Gulf Coast region is vital to our Nation and our economy, 
providing valuable energy resources, abundant seafood, extraordinary 
beaches and recreational activities and a rich cultural heritage. A 
strong and vibrant ecosystem is key to the Gulf's future. Even before 
the Deepwater Horizon oil spill of 2010, the ecosystems and economy of 
the Gulf Coast region (Gulf) were impaired by years of environmental 
problems, natural events, and resulting economic difficulties. In 
response to the oil spill and building on prior efforts to help ensure 
the long-term restoration and recovery of the Gulf Coast region, 
several large scale restoration efforts have begun including work under 
the Natural Resources Damage Assessment process; the Resources and 
Ecosystems Sustainability, Tourist Opportunities, and Revived Economies 
of the Gulf Coast States Act of 2012 (the RESTORE Act), and projects 
through the National Fish and Wildlife Foundation. The Oil Pollution 
Act of 1990 (33 U.S.C. 2701 et seq.) requires companies spilling oil to 
restore the affected natural resources to the condition they were in at 
the time of the spill and compensate for lost use of those resources. 
Almost immediately after the oil spill, the natural resource trustees 
began the natural resource damage assessment process as an important 
step. In addition, Congress enacted and President Obama signed the 
RESTORE Act, which dedicates 80 percent of any civil and administrative 
penalties paid under the Clean Water Act, after the date of enactment, 
by responsible parties in connection with the Deepwater Horizon oil 
spill to the Gulf Coast Restoration Trust Fund for ecosystem 
restoration, economic recovery, and tourism promotion in the Gulf Coast 
region. A third source of restoration funding has been provided to the 
National Fish and Wildlife Foundation (NFWF), under the criminal pleas 
by BP and by Transocean, for expenditure on Gulf restoration projects.
    Each of these categories of funding stems from a set of conditions 
and requirements, and each is under the management of a specified and 
unique set of governance arrangements. The total amount of funds that 
may ultimately be available for restoration under the Natural Resource 
Damage Assessment and process, and under the RESTORE Act, remains 
uncertain at this time. Both the NRDA restoration and the RESTORE Act 
civil penalties are the subject of ongoing litigation. We recognize the 
importance of coordination across these Gulf restoration initiatives 
and will work closely with our partners to advance common goals, reduce 
duplication, and maximize the benefits to the Gulf Coast region. 
Federal, State, and local agencies, academic institutions, 
environmental organizations, and many other partners are actively 
working to plan and execute significant science and restoration 
pursuant to the specific authorities that guide each process. It is 
NOAA's view that all of this restoration and the entire region will 
benefit from collaborative work towards a science-based approach that 
focuses on the overall long-term health, prosperity, and resilience of 
the Gulf Coast region.
    At NOAA, we have worked to stand up the NOAA Gulf Coast Ecosystem 
Restoration Science Program provided for in the RESTORE Act, and to use 
that as a basis to create collaboration and consultation among the 
scientists working on the other restoration components as well. This 
cooperation is non-binding and collaborative and is only one piece of 
the larger science coordination puzzle which will need to take place 
across all of the various scientific entities to share information and 
ideas and, to the extent possible and practical, harmonize activities 
and investments to achieve the best results. This coordinated science 
approach provides a sound foundation to support all the restoration 
efforts. Using this science approach as a model, we are also working to 
develop voluntary collaboration among the management entities, 
understanding that must be done in a way that respects the authority, 
responsibilities, and standards of each entity (Natural Resources 
Trustee Council, Gulf Coast Ecosystem Restoration Council, NFWF, 
science programs) and is done in a manner that expedites rather than 
slows each process.
    Effective restoration will be achieved most effectively if science 
is the foundation on which all of the approaches build. The importance 
of science is recognized by the requirements for assessment in the Oil 
Pollution Act and regulations that establish the NRDA process. Further, 
the NOAA Gulf Coast Ecosystem Restoration Science Program, described 
later in my testimony, and the State Centers of Excellence program, are 
both provided for under the RESTORE Act. The criminal pleas noted above 
also fund the National Academy of Sciences Gulf Program. Indeed, a 
strong investment in science is important as support for all of the 
restoration planning, implementation, and monitoring.
NOAA's Natural Resource Damage Assessment Role
    NOAA has several critical roles mandated by the Oil Pollution Act 
(OPA). For example, from the moment of the Deepwater Horizon spill, 
NOAA had responsibility under the Act for cooperating on the response. 
One of NOAA's most important roles under the OPA and implementing 
regulations is that of a natural resource trustee. As a trustee, NOAA, 
along with our co-trustees, is charged with conducting a Natural 
Resource Damage Assessment (NRDA) to assess the natural resources and 
the damage to them caused by the oil spill and the response, as well as 
the value of the lost use of those resources until they are restored. 
This is an injury to the public, and the public availability of those 
resources, and is in addition to any individual injury caused by the 
spill. In conjunction with assessment of the injury, the OPA requires 
development of a Restoration Plan, developed with public review and 
input. The NRDA process involves resolution of a claim for funding the 
restoration plan that is either paid by those causing the spill or 
submitted as a claim to a Federal court for adjudication. The essence 
of the process is to identify the injury to trust resources caused by 
the spill, to determine the type and amount of restoration and 
rehabilitation needed to restore the resources to their pre-spill state 
or provide equivalent alternative resources, and to compensate for lost 
use by seeking that funding from those who caused the spill. Inherent 
in this process is the need to assess the injuries to natural resources 
that are caused by the oil spill itself, as well as those caused by 
actions carried out as part of the oil spill response. According to 
NOAA's regulations implementing the OPA, injury is determined relative 
to baseline, which is ``the condition of the natural resources and 
services that would have existed had the incident not occurred'' (15 
C.F.R. Sec. 990.30). For restoration, OPA requires the trustees to 
restore, rehabilitate, replace, or acquire the equivalent of the 
injured natural resources and services (33 U.S.C. 2706, see also 15 
C.F.R. Sec. 990.30) and in doing so there must be a nexus between the 
types and magnitude of the injury and the restoration.
    NRDA permits the trustees to recover not only for the injury to 
natural resources and services provided by the natural resources, but 
also for the public's lost uses of those resources, such as 
recreational fishing, recreational boating, hunting, and swimming, and 
the protections that effectively functioning marshes provide to the 
ecosystem. The goal is to assess the injury, and develop and implement 
a restoration plan that compensates the public for all of the 
ecological and human use loss injuries.
    In general, stewardship of the Nation's natural resources is shared 
among several Federal agencies, states, and federally recognized Indian 
tribes. NOAA, acting on behalf of the Secretary of Commerce, is the 
lead Federal trustee for many of the Nation's coastal and marine 
resources.
    The Deepwater Horizon NRDA Trustees (Trustees) are the trustee 
agencies from the states of Florida, Alabama, Mississippi, Louisiana 
and Texas; and the Department of the Interior (DOI), U.S. Environmental 
Protection Agency (EPA), NOAA, and U.S. Department of Agriculture 
(USDA). These nine entities (5 states and 4 Federal agencies) have 
formed a Trustee Council that has worked cooperatively since shortly 
after the Deepwater Horizon spill to assess compensable injuries caused 
by the spill, and to develop a restoration plan to restore affected 
Gulf resources, compensate for lost uses including lost human uses, and 
to implement those plans. We note that two of the Federal agencies--EPA 
and USDA--were added by Executive Order 13626 of September 10, 2012, 
and have joined the cooperative efforts since that time.
    NRDA regulations explicitly seek participation in the assessment 
and restoration planning by responsible parties and the Trustees to 
facilitate the restoration of natural resources and their services 
injured or lost by oil spills (15 C.F.R. Sec. 990.14(c)(1); 15 C.F.R. 
Sec. 990.440(d)). The nature and extent of participation in restoration 
planning is left to the discretion of the Trustees (15 C.F.R. 
Sec. 990.14(d)). OPA also encourages compensation of injured natural 
resources in the form of restoration, with public involvement in 
determining the types and magnitude of the restoration (33 U.S.C. 
2706(c)(5)). Indeed, public involvement is an important component of 
the Oil Pollution Act and of the National Environment Policy Act (NEPA) 
Environmental Assessment and Environmental Impact Statement processes 
that work together to inform decisions about restoration plan 
developing and implementation.
    Assessing injury to natural resources in this context is difficult. 
Understanding complex ecosystems, the services these ecosystems 
provide, and the injuries caused by the release of oil and the response 
takes time--often years. The time of year the resource was injured, the 
type/source of oil, the amount and duration of the release, and the 
nature and extent of clean-up are among the many diverse factors that 
affect how quickly injury to resources can be assessed and restoration 
and recovery planning and implementation can occur. The OPA requires 
that the trustees be able to demonstrate connections between the 
release of the oil, exposure of the resources to the oil, and, finally, 
a causal connection between exposure and resource injury. Exposure and 
its effects on the resource can be direct and/or indirect. For example, 
the health of a dolphin might be adversely affected by being directly 
exposed to the oil in the water. It can also be exposed and affected by 
eating prey that becomes contaminated by the oil. But if the oil also 
adversely affects dolphin prey and causes a decrease in prey, then the 
dolphins can be affected by this indirect route as well.
    In addition, because the Natural Resource Damage Assessment forms 
the basis for a Restoration Plan that may be litigated, an especially 
careful level of scientific rigor is required for the studies that are 
to demonstrate these connections in order to ensure that our studies 
will be accepted by a court as evidence in the case. For all of these 
reasons, the assessment and the restoration plan based on it may take a 
number of years to complete and even more time to implement. We note, 
for example, that the implementation of the restoration plan for the 
Exxon Valdez oil spill that occurred in 1989 is still ongoing. The NRDA 
process requires an objective, scientifically rigorous, and cost-
effective assessment of injuries--and development of a restoration plan 
with public input that assures that harm to the public's resources is 
fully addressed.
Early Restoration
    In April 2011, the Natural Resource Trustees announced an agreement 
under which BP would provide $1 billion toward implementation of early 
restoration projects. This agreement is called the Framework Agreement 
for Early Restoration Addressing Injuries Resulting from the Deepwater 
Horizon Oil Spill (Framework Agreement). A separate agreement among the 
Trustees allocated that $1 billion as such: the five state trustees, 
DOI, and NOAA each receive $100 million for funding early restoration 
projects pertaining to their primary trust resources. The remaining 
$300 million is to be used to fund additional state-proposed 
restoration projects as selected by NOAA and DOI. All projects must be 
approved by the Trustee Council. The Framework Agreement represents an 
initial step toward fulfilling BP's obligation to fund the complete 
restoration of injured natural resources and compensate for lost use of 
those resources.
    The Trustees' key objective in pursuing early restoration is to 
achieve tangible recovery of natural resources and natural resource 
services for the public's benefit while the longer-term injury and 
damage assessment is under way. As with the more complete assessment 
and restoration planning process, a restoration plan with opportunity 
for public input must accompany project selection.
Phase I and Phase II Early Restoration
    The first early restoration plan, the Phase I Early Restoration 
Plan & Environmental Assessment (Phase I ERP/EA), was presented for 
public review and comment in December 2011 and finalized by the 
Trustees in April 2012. The eight projects included in the Phase I ERP/
EA are now being implemented, and collectively will provide marsh 
creation, coastal dune habitat improvements, near-shore artificial reef 
creation, and oyster cultch restoration, as well as the construction 
and enhancement of boat ramps to compensate for lost recreational use 
of resources. The total estimated cost for the Phase I ERP/EA is $62 
million.
    The trustees presented the Phase II Early Restoration Plan & 
Environmental Review (Phase II ERP/ER) for public review and comment in 
November 2012 and finalized it in December 2012. The Phase II ERP/ER 
projects, of which there are two, will help restore nesting habitats 
for beach-nesting birds and sea turtles harmed as a result of spill 
response activities. The total estimated cost for these two projects is 
$9 million.
Next Steps for Early Restoration
    The Trustees have spent substantial time working on Phase III of 
the Early Restoration Plan, and are proposing additional restoration 
projects in an upcoming Phase III Draft Early Restoration Plan (Phase 
III DERP). Further, the Trustees are developing a Programmatic 
Environmental Impact Statement (PEIS) under the auspices of the 
National Environmental Policy Act (NEPA) to evaluate the environmental 
effects of early restoration project types, as well as the early 
restoration projects that the Trustees intend to propose in the 
upcoming Phase III Restoration Plan. Examples of early restoration 
project types include: create and improve wetlands; protect shorelines 
and reduce erosion; restore barrier islands and beaches; restore 
submerged aquatic vegetation; restore and protect fish, oysters, birds 
and sea turtles; restore and protect the water column; enhance public 
access to natural resources for recreational use; and promote 
environmental and cultural stewardship.
    At this time, the early restoration projects that the Trustees are 
evaluating for Phase III of early restoration include the proposed list 
of projects announced by the Trustees in the Federal Register on May 6, 
2013 (78 FR 26319-26323). Additional proposed early restoration 
projects may be added. The Trustees also are currently engaged in a 
restoration scoping process to ensure that important issues are 
considered early in the decision making process. This scoping includes 
several important steps, such as (1) identifying the concerns of the 
affected public and Federal agencies, states, and Indian tribes; (2) 
involving the public in the decision making process; (3) facilitating 
efficient early restoration planning and environmental review; and (4) 
defining the issues and alternatives that will be examined in detail. 
The Trustees invite public comments regarding the scope, content, and 
any significant issues the Trustees should consider in the PEIS.\1\
---------------------------------------------------------------------------
    \1\ 78 FR 33431 (June 4, 2013)
---------------------------------------------------------------------------
The RESTORE Act
    As we noted above, the Deepwater Horizon NRDA and Restoration 
Planning process is occurring concurrently with other restoration 
efforts, including those initiated by the RESTORE Act. The RESTORE Act 
provides for planning and resources for a regional approach to the 
long-term health of the valuable natural ecosystems and economy of the 
Gulf Coast region. The RESTORE Act establishes five categories of 
funding.
RESTORE Act Gulf Coast Ecosystem Restoration Science, Observation, 
        Monitoring, and Technology Program
    As required by the RESTORE Act, NOAA established a Gulf Coast 
Ecosystem Restoration Science, Observation, Monitoring, and Technology 
Program, abbreviated as the NOAA Gulf Coast Ecosystem Restoration 
Science Program, in January 2013. The Program will receive 2.5 percent 
of the funds, plus 25 percent of the interest, from the Gulf Coast 
Restoration Trust Fund.
    The Program NOAA has developed seeks to achieve an integrative, 
holistic understanding of the Gulf of Mexico ecosystem and support, to 
the maximum extent practicable, restoration efforts and the long-term 
sustainability of the ecosystem, including its fish stocks, habitats, 
and fishing industries. The Program has been established within NOAA 
and includes engagement with its partners and stakeholders in the Gulf, 
including the Gulf States Marine Fisheries Commission (Commission) and 
the Gulf of Mexico Fisheries Management Council (FMC). During program 
implementation, we will continue regular consultation with the 
Commission and FMC, as required by the Act, and pursue engagement 
activities with academia, non-governmental organizations (NGOs), 
industry, and other partners and stakeholders. As one of several 
science programs supporting Gulf of Mexico science, NOAA is actively 
engaging and coordinating with other initiatives, such as the Gulf of 
Mexico Research Initiative, the Centers for Excellence developed under 
the RESTORE Act, the Gulf of Mexico Program at the National Academy of 
Sciences,, and the Gulf Environmental Benefit Fund at the National Fish 
and Wildlife Foundation, as well as with existing regional 
collaborative groups and research programs, such as the Gulf of Mexico 
Alliance (GOMA) and the Gulf of Mexico Research Initiative (GOMRI).
NOAA Science Program Background
    Shortly after the RESTORE Act was passed, a development team led by 
senior executives from the National Marine Fisheries Service, National 
Ocean Service, Office of Oceanic and Atmospheric Research, and USFWS 
was convened to develop a framework for this new program. The 
development team worked diligently across NOAA, with the USFWS, and 
with key stakeholders including the Gulf of Mexico Fishery Management 
Council, the Gulf States Marine Fisheries Commission, the five Gulf 
States, Federal partners, academic institutions, non-profit 
organizations and other entities across the Gulf region to solicit 
guidance in designing the program. The result is a program that will 
consider the entirety and connectivity of the ecosystem in the Gulf of 
Mexico; integrate and build on existing research, monitoring, and 
modeling efforts and plans; leverage existing partnerships already 
established among federal, state, and academic entities and with NGOs, 
and develop new partnerships as appropriate; and avoid duplication with 
ongoing activities in the Gulf of Mexico.
Program Engagement and Coordination
    To be successful, the Gulf Coast Ecosystem Restoration Science 
Program must harness the expertise of the scientific community in the 
Gulf of Mexico and beyond, and link it to the region's pressing science 
needs. An engagement process that connects researchers, resource 
managers, and resource users and allows their collective knowledge to 
inform the direction of the Program is required. NOAA, working with our 
USFWS partners, initiated this engagement process early in the program 
development phase and has continued it as we move to early stages of 
implementation. NOAA and FWS have already had over 100 meetings with 
stakeholders including representatives from the Commission, the FMC, 
universities, Federal agencies, and non-governmental organizations. 
These meetings shaped the Program's current framework and continued 
engagement over the coming months will inform the Program's goals and 
priorities.
    It is important to keep in mind that this Program is one of several 
recently created research programs focused on increasing our 
understanding of the Gulf of Mexico. Others include the Gulf of Mexico 
Program at the National Academies, the Gulf of Mexico Research 
Initiative, and the State Centers of Excellence also authorized in the 
RESTORE Act. These programs will add their activities to the existing 
Federal and non-federal research programs already active in the Gulf of 
Mexico. NOAA is actively engaging and coordinating with these other new 
initiatives as well as existing research programs. This includes 
engaging with the Gulf of Mexico University Research Collaborative, 
which has assembled a group of organizations funded as a result of 
Deepwater Horizon to discuss science planning efforts and coordination, 
as well as discussing coordination mechanisms across Federal agencies 
with on-going scientific activities in the Gulf.
    While the categories of restoration and science RESTORE addresses 
will encompass those undertaken by NRDA, both will be undertaken in a 
fully-coordinated manner. Those projects that have been already funded 
through NRDA will be excluded from potential funding in the Gulf Coast 
Ecosystem Restoration Science Program, and vice versa.
Program Framework
    The purpose of the NOAA Gulf Coast Ecosystem Restoration Science 
Program is to achieve an integrative, holistic understanding of the 
Gulf of Mexico ecosystem, as well as to support (to the maximum extent 
practicable) restoration efforts and the long-term sustainability of 
the ecosystem, including its fish stocks, habitats, and fishing 
industries.
    The Program is being developed with several guiding principles in 
mind, including:

  <bullet> Requiring an ecosystem approach, considering the entirety 
        and connectivity of the system;

  <bullet> Integrating and building on existing research, monitoring, 
        and modeling efforts and plans (e.g., NRDA science, Gulf of 
        Mexico States' Centers of Excellence, Gulf of Mexico Research 
        Initiative, Gulf Coast Ecosystem Restoration Strategy and 
        associated Science Needs Assessment);

  <bullet> Leveraging partnerships established among federal, state, 
        academics, and NGOs, and develop new partnerships as 
        appropriate;

  <bullet> Working within a management and policy framework developed 
        with other entities in the Gulf, including USFWS, the 
        Commission, and FMC; and

  <bullet> Designing a scalable and modular approach that adapts to 
        funding availability, defines the unique roles and 
        responsibilities of NOAA and avoids duplication with federal, 
        state, academic, and NGO activities or NRDA science efforts.

    The Program's emphasis is on conducting and synthesizing science, 
observations, and monitoring to provide useful information that 
improves understanding and management of the Gulf of Mexico ecosystem, 
enhances restoration projects, and supports sustainable fisheries.
Program Focus Areas
    To address the broad science categories articulated in the RESTORE 
Act (marine and estuarine research; marine and estuarine ecosystem 
monitoring and ocean observation; data collection and stock 
assessments; pilot programs for fishery independent data and reduction 
of exploitation of spawning aggregations; cooperative research), NOAA 
first consulted the numerous documents developed in recent years that 
identify a wide range of science needs for the Gulf of Mexico, 
including the Gulf Coast Ecosystem Restoration Task Force's Gulf of 
Mexico Ecosystem Science Assessment and Needs (April 2012). Many of 
these reports were produced with extensive stakeholder input and in 
consultation with resource managers throughout the Gulf States. Based 
on review of these documents, and in response to Section 1604 of the 
Act, NOAA has initially identified the following goals, which are still 
considered draft pending input from the science community in the Gulf 
of Mexico:

  <bullet> Support Healthy, Diverse and Resilient Coastal Habitats

  <bullet> Support Healthy, Diverse and Sustainable Living Coastal and 
        Marine Resources

  <bullet> Support Sustainably Managed Fisheries

  <bullet> Support Healthy and Well-managed Offshore Environments

  <bullet> Support Healthy, Sustainable, and Resilient Coastal 
        Communities able to adapt to a changing environment

    Additionally, four focus areas have been identified by NOAA to 
ensure that the research, observations, science, and technology are 
coordinated, complement existing and future efforts (e.g., NRDA 
science, RESTORE Council), and address the critical knowledge needs 
facing the Gulf of Mexico ecosystem restoration and management in an 
integrated and holistic manner. These focus areas are:

  <bullet> Periodic ``State of health'' assessments for the Gulf, 
        incorporating environmental, socio-economic, and human well-
        being information

  <bullet> Integrated analysis and synthesis of data--Synthesis and 
        analysis of existing and new data to understand 
        interconnections, inform ecosystem perspective, and produce 
        policy-relevant information

  <bullet> Ecosystem processes, functioning and connectivity through 
        integrative field/laboratory efforts to provide foundational 
        information to support restoration planning and implementation 
        and fisheries science

  <bullet> Holistic approaches to observing and monitoring that 
        encompass the next generation of observing and monitoring 
        technologies, including those for fisheries and other natural 
        resources, and data integration tools focused on the observing 
        needs in the Gulf of Mexico
Program Organization and Next Steps
    NOAA has decided to house the Program within the National Ocean 
Service's National Center for Coastal Ocean Science (NCCOS). NCCOS's 
experience running grant programs focused on pressing coastal and ocean 
issues, its experience working in the Gulf of Mexico, and its 
demonstrated ability to transfer the results of researchers to resource 
managers make it a logical home for the Program. An Executive Oversight 
Board and Advisory Working Group established under NOAA's Science 
Advisory Board will keep the program connected to other research 
programs within NOAA and the larger science community. A Gulf-based 
director for the Program will keep the Program grounded in the region.
    Development of the Program will be guided by application of the 
language of the Act to the science needs of the region as described by 
resource managers, researchers, residents, and other stakeholders. 
Given that the amount of funds to be made available and the science 
priorities of other programs established under the Act have yet to be 
defined, NOAA envisions that its science investments will evolve over 
time, adapting to changing information and knowledge. As noted 
previously, considerable work to identify science needs has been 
conducted in the region and provides an opportune starting point to 
frame an investment strategy. With additional engagement of partners in 
the region, NOAA will develop a science plan that seeks to achieve a 
holistic understanding of the Gulf of Mexico ecosystem that will 
contribute significantly to the science needed for the long-term 
sustainability of the Gulf of Mexico ecosystem, including its 
fisheries, and help inform restoration and management efforts.
    NOAA is following a series of steps to implement the Program 
including:

  <bullet> Conducting a review and assessment of science needs to 
        support sustainability of the Gulf of Mexico ecosystem that 
        have been determined previously;

  <bullet> Developing a Science Plan framework that describes the 
        program and lists a set of draft Goals for consideration to 
        assist engagement with partners and stakeholders;

  <bullet> Engaging partners to identify and prioritize ecosystem and 
        management science requirements and gaps, including but not 
        limited to coordination with other Trust Fund recipients;

  <bullet> Identifying strategic early investments to assist the 
        integration and synthesis of science priorities and to address 
        known priority gaps;

  <bullet> Conducting competitive processes for issuing awards for 
        addressing the science needs;

  <bullet> Continuing refinement of Science plan in coordination with 
        partners through the life of the Program.

    The Gulf Coast Ecosystem Restoration Science Program represents an 
opportunity and capacity to help integrate the disparate science 
efforts across the Gulf into something that will advance overall 
understanding of the Gulf of Mexico as an integrated ecosystem--not 
business as usual. The program will contribute to the science needed 
for the long-term sustainability of the Gulf of Mexico ecosystem, 
including its fisheries, and help inform restoration and management 
efforts. NOAA, with USFWS, has established a program with appropriate 
oversight, coordination and engagement mechanisms to help ensure 
maximum leveraging of resources to meet overall science needs and 
reduce duplication of effort. This includes explicit efforts to connect 
with the State Centers of Excellence and other science components of 
RESTORE, the National Academies of Science Gulf Program, NRDA, and 
exiting Federal and state science and technology programs. NOAA is 
working with stakeholders and our partners to ensure that this program 
meets the objectives identified by Congress and to carefully coordinate 
our efforts with other science programs to obtain the best, most 
valuable science for the funding that has been dedicated to the Gulf 
Coast Ecosystem Restoration Science Program.
The Gulf Coast Ecosystem Restoration Council
    The following section describing the Gulf Coast Ecosystem 
Restoration Council is being submitted on behalf of the Department of 
Commerce.
    The Department of Commerce recognizes that a strong and vibrant 
ecosystem is the key to the Gulf's future. We also recognize this 
unique and unprecedented opportunity to implement a coordinated Gulf 
region-wide restoration effort in a way that restores and protects the 
Gulf Coast environment, reinvigorates local economies, and creates jobs 
in the Gulf region; these actions will ultimately help to ensure the 
long-term environmental health and economic prosperity of the Gulf 
Coast region.
    The Commerce Department recognizes that the RESTORE Act builds upon 
the foundation and the goals set by the Administration of restoring the 
Gulf Coast ecosystem and economy to a stronger place than before the 
Deepwater Horizon oil spill. Our goal and commitment is to ensure the 
long-term improvement and restoration of the Gulf Coast and its unique 
ecosystems. Under the RESTORE Act, we will focus on restoration that 
complements the ongoing NRDA process and other efforts. The RESTORE Act 
establishes the Gulf Coast Ecosystem Restoration Council (the Council) 
as an independent entity in the Federal Government to help restore the 
ecosystem and economy of the Gulf Coast region by developing and 
overseeing implementation of a Comprehensive Plan and carrying out 
other responsibilities.
    The Commerce Department is honored to have been recommended by the 
Gulf Coast States and selected by the President to serve as Chair. We 
believe the Department is uniquely positioned to lead this effort 
because we bring together a diverse range of expertise and experience 
from across our bureaus, including NOAA's expertise in science-based 
natural resource restoration, The Economic Development Administration 
(EDA)'s expertise in sustainable economic development, and 
International Trade Administration (ITA)'s expertise in travel and 
tourism promotion, to help implement the integrated approach to Gulf 
restoration envisioned by the RESTORE Act.
    Under the Department's leadership, the Council has been working to 
ensure that it is ready to move efficiently and effectively to 
implement a restoration plan once funds become available. Since its 
establishment, the Council has convened and established basic 
processes; assembled a transition staff; released The Path Forward to 
Restoring the Gulf Coast: A Proposed Comprehensive Plan \2\ describing 
the Council's path to developing its restoration plan; hosted public 
listening sessions in all five Gulf Coast States with over 1,500 
individuals in attendance to gather early input on the plan; and 
recently selected an Executive Director. As soon as funding becomes 
available, the Council intends to establish an office in the Gulf Coast 
region. Additionally, the Council has been addressing important issues 
upfront to help ensure that we do not cause unnecessary delays down the 
road. This includes addressing environmental compliance considerations 
and working to ensure regulatory processes associated with restoration 
projects are effective and efficient.
---------------------------------------------------------------------------
    \2\ 78 FR 32237 (May 29, 2013)
---------------------------------------------------------------------------
    While the Council faces several challenges, including uncertainty 
surrounding the ultimate amount and timing of funding that may be 
available and no current dedicated funding to operate, the Council has 
been able to make significant progress in a short time. The Council 
recently released its Draft Initial Comprehensive Plan (Draft Plan) and 
Draft Programmatic Environmental Assessment for public comment. The 
Draft Plan establishes overarching restoration goals for the Gulf Coast 
region; provides details about how the Council will solicit, evaluate, 
and fund projects and programs for ecosystem restoration in the Gulf 
Coast region; outlines the process for the development, review, and 
approval of State Expenditure Plans; and highlights the Council's next 
steps. The Council expects to release a Final Plan this summer. The 
Council will continue to build more detail into the Plan and its 
associated processes as existing uncertainties are resolved, ultimately 
leading to a comprehensive, region-wide, multi-objective restoration 
plan over time.
Conclusion
    Thank you again, Chairman Nelson and Members of the Committee, for 
the opportunity to discussion NOAA's role in Gulf of Mexico 
restoration. I appreciate the Committee's time and attention, welcome 
any questions, and look forward to working with you further on this 
important effort.

    Senator Nelson. OK.
    And one of the things we want to emphasize here is that we 
want you to pay attention to the law. Remember what Senator 
Landrieu said; this thing was a balancing of competing 
interests. And what we want to guard against is an 
administrative agency going off on their own and adopting rules 
that do not follow the legislative intent and specifics of the 
law.
    Ms. Jacobsen?

      STATEMENT OF HON. RACHEL JACOBSEN, ACTING ASSISTANT

            SECRETARY FOR FISH, WILDLIFE, AND PARKS,

                U.S. DEPARTMENT OF THE INTERIOR

    Ms. Jacobsen. Thank you, Chairman Nelson, Senator Wicker, 
Senator Blumenthal. I am Rachel Jacobsen, Principal Deputy 
Assistant Secretary for Fish, Wildlife and Parks at the 
Department of the Interior.
    I appreciate the opportunity to appear before the Committee 
today to testify on Interior's involvement in implementing 
comprehensive, meaningful, and long-lasting restoration of the 
Gulf of Mexico ecosystem using the funding obtained as a result 
of the Deepwater Horizon oil spill. I will summarize my 
testimony here and submit my entire statement for the record.
    The natural resources in the Gulf region support a 
multibillion-dollar economic engine that employs more than 8 
million people, produces more than half of America's domestic 
crude oil and natural gas, and accounts for the majority of the 
Nation's annual shrimp and oyster harvest. Hunting, fishing, 
bird watching, and other wildlife-dependent recreational 
activities contribute more than $25 billion annually to the 
region's economy.
    As the steward of an extensive network of natural resources 
within the Gulf of Mexico, the Department of the Interior 
understands fully the national significance of the Gulf 
ecosystem. We manage roughly 3.5 million acres in the Gulf 
region and 45 national wildlife refuges, 8 national parks, 
spanning from Brownsville, Texas, to the Florida Keys.
    These lands support an array of biologically diverse 
habitats, including barrier islands, coastal marshes and 
estuaries, wetlands and beaches, all of which provide important 
habitat for millions of migratory birds as well as fish and 
marine species such as the Gulf sturgeon and Kemp's Ridley sea 
turtles. They also supply tremendous recreational 
opportunities, including boating, fishing, swimming, camping, 
hiking, and hunting. Many of our barrier islands serve as the 
first line of defense against storm surges and rising sea 
levels.
    The explosion of the Deepwater Horizon drilling rig and the 
resulting oil spill dealt a devastating blow to this region. 
Given the spill's enormity, duration, depth, and complexity, 
the long-term injuries to natural resources caused by the spill 
are not yet fully evaluated, but we do know that the impacts 
were widespread and extensive.
    Full restoration of these critically important resources 
will be a massive and lengthy undertaking. However, Interior 
fully recognizes, without hesitation, that the time to begin 
restoration is now.
    The Federal and state governments are working 
collaboratively to address injuries to natural resources 
resulting from the spill. And I want to particularly address 
our colleagues from Florida and Mississippi as part of that 
collaboration, including Trudy Fisher, who is here today. We 
have a terrific working relationship with all of our 
colleagues.
    In our capacity as trustees under the Oil Pollution Act's 
natural resource damage provisions, we are undertaking the 
largest and most complex damage assessment ever initiated. But 
we are not waiting until that damage assessment is completed to 
begin restoration. On the one year anniversary of the spill, we 
secured from BP $1 billion to fund restoration work now, prior 
to the completion of our assessment and prior to obtaining the 
full measure of damages through litigation.
    As a direct result of this early funding, the trustees, 
with stakeholder input, have already begun to deliver 
restoration projects which would otherwise be years in the 
offing. To date, the trustees have completed the planning 
required by law on 10 projects, totally $71 million, and have 
scheduled public hearings this summer, just in a couple weeks' 
time, on the planning efforts for additional suites of 
projects, totaling close to $600 million.
    Every single one of these projects required full agreement 
among all five states, the Federal agencies, and BP and were 
subjected to extensive negotiations. Importantly, by law, no 
project can be included in the final restoration plan or 
implemented without public input.
    These early restoration projects will be spread across the 
Gulf region and will restore marshes, barrier islands, dunes, 
oyster reefs, and bird and turtle habitat. They will also 
enhance access to recreational and other human-use 
opportunities that were lost or diminished as a result of the 
spill. And we will not stop until the entire billion is 
obligated.
    It is important to note that our early restoration efforts 
in no way affect our ongoing assessment work or our ability to 
recover from BP the full measure of damages needed for complete 
restoration.
    Turning to the RESTORE Act, passage of the RESTORE Act 
provided a much-needed additional source of funding to help 
make the Gulf whole. The RESTORE Act established the Gulf Coast 
Ecosystem Restoration Council to help ensure that actions to 
benefit both the environment and the economy of this important 
region will be fully coordinated.
    Interior is working with our fellow council members to 
implement the provisions of the RESTORE Act as Congress 
intended. With the recent publication of the draft initial 
comprehensive plan, the council stated clearly our intention to 
use our 30 percent portion of RESTORE dollars to fund 
ecological projects.
    The Council explicitly recognizes that ecosystem 
restoration also revitalizes the region's economy by giving 
people desirable places to live, work, and play and by 
providing resiliency through natural buffers that can help 
protect against storm and sea level rises.
    In sum, we are faced with an unprecedented opportunity to 
bring about comprehensive, meaningful, long-lasting restoration 
to this vital ecosystem. We have a responsibility to the public 
to ensure that we make wise investments that are well-
coordinated across the spectrum through all funding streams.
    Interior will be a full and committed partner in these 
efforts. All along, we must ensure that the residents of the 
region and all stakeholders, including tribes, are fully 
engaged in these efforts.
    Thank you again for this opportunity to testify before the 
Committee. I would be happy to answer any questions you may 
have.
    [The prepared statement of Ms. Jacobsen follows:]

   Prepared Statement of Rachel Jacobson, Principal Deputy Assistant 
 Secretary for Fish and Wildlife and Parks, Department of the Interior
    Senator Nelson, Senator Wicker and Members of the Committee, I am 
Rachel Jacobson, Principal Deputy Assistant Secretary for Fish and 
Wildlife and Parks, at the Department of the Interior. I appreciate the 
opportunity to appear before the Committee today to testify on the 
Department of the Interior's (Interior) involvement in Gulf of Mexico 
restoration following the Deepwater Horizon oil spill (spill).
    My testimony provides an overview of the actions we are taking to 
restore the Gulf Coast region with our Federal and state partners by 
participating in the work of the Gulf Coast Ecosystem Restoration 
Council (Council) established under the RESTORE Act. I am also going to 
summarize our efforts to develop and implement a Natural Resource 
Damages Assessment (NRDA) case, required under the Oil Pollution Act 
(OPA), through the NRDA Trustee Council; this Council includes 
representatives of the five Gulf Coast States and four Federal agencies 
including Interior, the Department of Commerce's National Oceanic and 
Atmospheric Administration (NOAA), the Environmental Protection Agency 
(EPA) and U.S. Department of Agriculture (USDA). Lastly, I will 
summarize our efforts to implement early restoration projects using the 
$1 billion upfront commitment the Natural Resource Trustees secured 
with BP. This landmark agreement allows for restoration work to begin 
prior to the completion of damage assessment activities and prior to 
obtaining damages through a comprehensive settlement or through 
litigation. This early restoration agreement in no way affects our 
ongoing assessment work or our ability to recover from BP the full 
measure of natural resource damages needed to restore the Gulf 
resources injured by the spill. As a direct result, the Trustees, with 
sustained stakeholder engagement, have been able to begin delivering 
much needed and meaningful restoration projects in the Gulf Coast 
region which would otherwise be years in the offing.
    Generally, with respect to the implementation of the RESTORE Act, 
we are in the very early stages of setting up the process and 
infrastructure for what will be a long-term program to restore the 
resources of the Gulf of Mexico and Gulf Coast region. The RESTORE Act 
carries forward the strategic planning and recommendations of the 
President's Gulf Coast Ecosystem Restoration Task Force and additional 
establishes the Gulf Coast Ecosystem Restoration Council, which is 
chaired by the Department of Commerce, as a mechanism to ensure that 
actions will be taken to benefit both the environment and economy of 
this important region. The Federal members of the Council are 
implementing the RESTORE Act with existing resources, notwithstanding 
the budgeting challenges associated with the FY 2013 sequester.
    The RESTORE Act complements Interior's long-standing collaborative 
efforts with the Gulf Coast States to address some of their most 
difficult resource management issues, including the loss of coastal 
wetlands. We have been collaborating with Gulf Coast States through the 
Coastal Wetlands Planning Protection and Restoration Act Task Force, 
the Coastal Impact Assistance Program, and the Mississippi River/Gulf 
of Mexico Watershed Nutrient Task Force (known as the Hypoxia Task 
Force), to name a few. We are continuing to work on these projects 
while ensuring that they are well coordinated with our new Gulf 
restoration efforts through the RESTORE Act and the NRDA case.
    The Department of the Interior has extensive natural and cultural 
resource responsibilities and numerous land management units within the 
Gulf of Mexico region that are critical to the long-term health, 
economy and resiliency of Gulf Coast communities, and the Nation. We 
manage roughly 3.5 million acres in the Gulf region, on 45 national 
wildlife refuges and eight national parks from Brownsville, Texas to 
the Florida Keys. These lands support an array of culturally and 
biologically diverse habitats, including barrier islands, coastal 
marshes and estuaries, wetlands and beaches which collectively provide 
important habitat for millions of migratory birds as well as fish and 
marine species such as the Gulf sturgeon and Kemp's ridley sea turtles. 
The Gulf Coast region is home to 135 federally protected species, 98 of 
which are endangered and most of which are under Interior's 
jurisdiction.
    The natural resources in the five Gulf States support a multi-
billion dollar economic engine that employs more than 8 million people, 
produces more than half of America's domestic crude oil and natural 
gas, and accounts for the majority of the Nation's annual shrimp and 
oyster harvest. Hunting, fishing, bird watching and other wildlife-
dependent recreation contribute more than $25 billion annually to the 
region's economy.
    But over the last century, climate change, sea level rise, coastal 
land subsidence habitat conversion and fragmentation, decreasing water 
quality and quantity, and invasive species have altered this 
historically productive system and diminished the natural resources of 
the Gulf of Mexico coastal ecosystem. These impacts are evidenced by 
the ongoing losses of Louisiana's coastal wetlands. Every half-hour, 
another wetlands area the size of a football field disappears into the 
sea, taking with it nature's best storm protection buffer and water 
filter. Every year, we see expanding ``dead zones'' as sediments, 
nutrients and other pollutants migrate down the Mississippi River as 
wetlands at the top of the watershed are being drained and converted to 
agriculture at unprecedented rates and agriculture soil erosion takes 
its toll. In Florida, excessive nutrients entering the Gulf from the 
Caloosahatchee River create massive algal blooms to the detriment of 
coastal fisheries. Recent hurricanes and the Deepwater Horizon oil 
spill exacerbated these impacts. In order to achieve a healthy Gulf of 
Mexico and Gulf Coast ecosystem, Interior supports the funding of 
effective conservation measures throughout the Gulf Coast region as 
critical to both the health of the environment and that of the regional 
economy.
Implementation of the RESTORE Act and Interior's Role as a Member of 
        the Gulf Coast Ecosystem Restoration Council
    The unprecedented magnitude of the Deepwater Horizon disaster 
created a unique opportunity for approaching the restoration of the 
Gulf of Mexico through a more effective comprehensive, and coordinated 
intergovernmental restoration effort. As one of the Federal members of 
the Gulf Coast Ecosystem Restoration Council (Council), Interior 
encourages the Council and its members to make a well-coordinated, 
ecosystem-level restoration our top priority. The Council just released 
for public comment its first draft Initial Comprehensive Plan and we 
look forward to finalizing that document this summer. The Initial 
Comprehensive Plan contains goals and objectives to address ecosystem 
restoration in the Gulf Coast region and outlines a process by which 
the Council will consider projects for funding. The Plan incorporates 
the strategy, projects, and programs recommended by the President's 
Gulf Coast Ecosystem Restoration Task Force. The Initial Comprehensive 
Plan will also serve as a guide for the Gulf Coast States as they 
develop individual spending plans required for the expenditure of the 
30 percent portion of RESTORE Act funds that are allocated to States 
based upon a formula that considers the impacts of the Deepwater 
Horizon oil spill.
    Because of the limited funds now available in the Gulf Coast 
Restoration Trust Fund, and due to the uncertainty of when additional 
amounts will be deposited into the Trust Fund, the Council elected to 
defer the statutory requirement for development of both a 10-year 
funding strategy and a three-year project list. In the meantime, the 
Council will seek public comment on our goals and objectives, as well 
as criteria by which the Council will evaluate projects.
    The draft Initial Comprehensive Plan is based upon the findings and 
recommendations of the President's Gulf Coast Ecosystem Restoration 
Task Force. The draft Plan sets forth five overarching restoration 
goals, as well as a series of objectives that address the long-term 
environmental restoration needs of the Gulf.
    The restoration goals identified by the Council include:

  <bullet> Restore and conserve habitat;

  <bullet> Restore water quality;

  <bullet> Replenish and protect living coastal and marine resources;

  <bullet> Enhance community resilience; and

  <bullet> Restore and revitalize the Gulf Economy.

    The Council's restoration goals are further amplified by a series 
of objectives that will guide the selection of projects. Interior fully 
supports the goals and objectives identified in the Initial 
Comprehensive Plan. We believe that by focusing the Council's 
investments in projects that restore and conserve habitat, restore 
water quality and replenish and protect living coastal and marine 
resources we will be enhancing community resilience and revitalizing 
the Gulf economy and promoting job creation.
    For our part, Interior is promoting projects that reflect input 
from, and collaboration and planning with the Gulf Coast States and 
local communities, other Federal agencies, Landscape Conservation 
Cooperatives, tribes, and non-governmental organizations. We will also 
seek to prioritize projects that promote leveraging of funds and 
expanded opportunities for youth conservation corps and veterans.
    Interior's contributions to the Council's priority project list for 
restoring the Gulf of Mexico are being organized around the following 
six principles: linking our existing network of conservation lands with 
other Federal and state conservation lands; restoring wetlands and 
aquatic ecosystems; restoring fresh water flow to support healthy 
coastal estuaries; protecting coastal and estuarine habitat; conserving 
forests and prairies; and managing lands and waters for sustainable 
populations of fish and wildlife.
    We have been working closely with many organizations and 
individuals who have been working on these issues for decades and have 
an abiding interest in restoring the Gulf Coast. These organizations 
and individuals are bringing innovative ideas to the table for projects 
that may be funded through the various funding streams. We are also 
working within Interior with bureaus that have resources or other 
responsibilities in the Gulf, including the U.S. Fish and Wildlife 
Service (FWS), National Park Service, U.S. Geological Survey (USGS), 
and Bureau of Ocean Energy Management, to help identify projects that 
will assist us in achieving our goals.
    As the Initial Comprehensive Plan is further developed, the Council 
will evaluate the restoration projects that further the plan's goals 
and objectives. Project selection will take into account the 
availability of funds. The Council will also need to consider other 
restoration actions that will be underway through NRDA recoveries under 
OPA and projects funded by the National Fish and Wildlife Foundation 
pursuant to two criminal plea agreements resulting from the Deepwater 
Horizon oil spill.
    Interior, along with the Department of Commerce, is also working 
closely with the Department of Treasury on the development of the 
regulations to establish the Gulf Coast Restoration Trust Fund. We 
anticipate that those regulations will be published soon for public 
comment.
    As prescribed by the RESTORE Act, Interior, through the FWS and 
USGS is also assisting NOAA in the development and implementation of 
the Gulf Coast Ecosystem Restoration Science, Observation, Monitoring 
and Technology Program. In partnership with NOAA, Interior has 
identified science and monitoring priorities to support, protect and 
restore trust resources. To support these priorities, we plan to build 
upon existing research, monitoring and modeling efforts and support 
database development in order to achieve a better level of organization 
and standardization across the Gulf watershed.
Natural Resource Damage Assessment
    In the three years since the Deepwater Horizon oil spill, Interior, 
together with our co-trustee agencies in the Federal and state 
governments, has made significant progress to address injuries to 
natural resources resulting from the spill. The progress made by the 
Trustees is a direct result of an extraordinary level of collaboration 
and cooperation among the Federal Trustee agencies and the five Gulf 
States.
    Through the NRDA process, natural resource trustees focus on 
identifying injured natural resources, determining the extent of the 
injuries, recovering damages from those responsible, and restoring the 
resources injured by the spill. Ultimately, the goal of the natural 
resource damage assessment is full compensation on behalf of the public 
from those responsible in order to restore the natural resources and 
services that were lost as a result of the spill.
    The ongoing natural resource damage assessment for the Deepwater 
Horizon oil spill is the largest and most complex ever initiated. For 
our part, Interior employs many Gulf resource managers and scientists 
outstanding in their field and we remain steadfast in our commitment to 
complete the injury assessment in both a timely and cost effective 
manner. An accurate assessment of the injury will be essential to fully 
understanding the level of restoration required to restore the Gulf 
ecosystem back to pre-spill conditions.
    On behalf of the NRDA Trustee Council, Interior and NOAA are 
currently leading roughly 95 percent of the assessment studies that are 
under various stages of completion. For our part, Interior is 
overseeing over 60 studies to evaluate injuries to our trust resources 
such as endangered sea turtles, Gulf sturgeon, migratory birds, 
manatees, habitat for endangered species, and oiled beaches and 
wetlands on our National Park System Units and National Wildlife 
Refuges.
Early Restoration
    At the same time the NRDA Trustee Council has been fully immersed 
in the injury assessment, we also have begun restoring the Gulf Coast 
with the $1 billion provided by BP pursuant to the agreement known as 
Framework for Early Restoration Addressing Injuries Resulting from the 
Deepwater Horizon Oil Spill, commonly called the Framework Agreement.
    The Framework Agreement was adopted in April 2011, one year after 
the spill, when the Natural Resource Trustees and BP agreed that it was 
important to begin restoring the Gulf prior to either completion of the 
natural resource damage assessment or receipt of the full amount of 
NRDA recovery funds expected from BP. Under the terms of the Framework 
Agreement, the Trustees and BP have worked together to identify 
projects for the purpose of providing ``meaningful benefits to 
accelerate restoration in the Gulf as quickly as practicable.'' Early 
restoration of the Gulf is imperative.
    It is important to note, however, that early restoration is not 
intended to provide the full restoration resulting from the spill, nor 
is it intended to fully satisfy the Natural Resource Trustees' claims 
against BP. This is why the damage assessment continues unabated.
    Although we are implementing these projects early before any of the 
other NRDA activities are complete, the projects are nonetheless 
subject to the requirements of OPA and its implementing regulations, 
and as such, must be published in OPA restoration plans. Interior is 
leading the planning effort required under OPA to implement these early 
restoration projects. Thus far, the so-called Phase I and Phase II 
Early Restoration Plans, announced on April 18, 2012 and November 8, 
2012 respectively, together include 10 projects with estimated costs of 
approximately $71 million. On May 6, 2013, the NRDA Trustee Council 
announced our intent to propose a Phase III plan for another suite of 
potential restoration projects totaling approximately $600 million. We 
are working continuously to identify more early restoration projects 
until the entire $1 billion is fully obligated. As part of that effort, 
just this week we published a notice in the Federal Register seeking 
public input (78 FR 33431 on June 4, 2013), and announced a schedule of 
public hearings in each Gulf state that will take place in the coming 
weeks to seek public input on all early restoration projects.
    The Phase I projects that are underway will restore primary dune 
habitat in Alabama and Florida, coastal marshes in Alabama and 
Louisiana, oyster habitat in Mississippi and Louisiana, nearshore reefs 
in Mississippi and will provide enhanced recreational access in 
Florida. The Phase II projects will enhance sea turtle nesting habitat 
and protect beach nesting bird habitat.
    An additional $600 million will be used for Phase III projects in 
Texas, Louisiana, Mississippi, Alabama, and Florida. These projects are 
intended to focus on restoration of marshes, barrier islands, dunes, 
and near shore marine environments. This suite of projects will also 
include several projects to enhance access to recreational and other 
human-use opportunities across the Gulf Coast region.
    This most recent group of projects--includes approximately $15 
million in funding to address natural resource injuries at Gulf Islands 
National Seashore, a National Park Unit, and $72 million to address 
natural resource injuries at Breton National Wildlife Refuge which 
supplies critical breeding habitat for the brown pelican.
    Throughout this process we have remained committed to engaging the 
public in the early restoration effort. The Trustees have sought the 
public's input during early restoration planning through a variety of 
means, including requests for project proposals via public meetings and 
the web. In developing the first two early restoration plans, the NRDA 
Trustee Council held a total of 13 public meetings before finally 
selecting projects for inclusion in plans for Phases I and II. Our 
commitment to seeking robust public input as we plan for future early 
restoration projects is unqualified.
    We have a unique responsibility to ensure we make wise investments 
that bring meaningful, long-lasting restoration to this vital 
ecosystem. Through continued cooperation with our fellow Federal and 
state agencies, Interior supports restoration of the natural resources 
that were injured by the Deepwater Horizon oil spill, as well as 
comprehensive restoration of the Gulf Coast region while ensuring the 
residents of the region, tribes and other stakeholders and interest 
groups are fully engaged in these efforts. As strong and supportive 
members of the Gulf Coast Ecosystem Restoration Council, we are working 
with our fellow Council members to implement the provisions of the 
RESTORE Act as Congress intended.
    Senator Nelson and Members of the Committee, thank you for the 
opportunity to testify today. I will be happy to answer any questions 
you may have.

    Senator Nelson. Mr. Trandahl, tell us about the criminal 
fines that your foundation has received. What are you going to 
use it for?

 STATEMENT OF JEFF TRANDAHL, EXECUTIVE DIRECTOR, NATIONAL FISH 
                    AND WILDLIFE FOUNDATION

    Mr. Trandahl. Yes. Thank you, Mr. Chairman and Senator 
Wicker and Senator Blumenthal. I appreciate the opportunity to 
appear today.
    As you may recall or may know, the foundation was actually 
created in 1984 by Congress. Congress established us in order 
for us to create public-private partnerships and do 
conservation around the country. We have been investing in the 
Gulf for about 20 years through the foundation and have done 
everything from working with fishermen to create economic 
vitality to protecting bird species throughout.
    When the spill occurred, the foundation quickly reacted and 
got involved in all five states in order to protect wildlife 
resources but also to deal with those ecosystems that actually 
weren't directly impacted in order to make them as robust as 
possible so that once we got to this place of recovery that we 
would actually have the ability to hopefully recover much more 
rapidly within the Gulf.
    As you may be aware, as well, we deal with a lot of 
mitigation funds at the foundation. Currently, I operate 
criminal funds of roughly 160 different accounts today. I have 
been at the foundation since leaving the Hill for seven and a 
half years, and we have run through literally several hundred.
    Now, this one is a little different, in the fact that it is 
so large in scope, because we are dealing with the largest 
criminal settlement in history. At the same time, it is very 
much within the capacity of the foundation, in terms of being 
able to move that money.
    The goals of the monies coming to the foundation is not for 
the foundation to dictate the objectives or the projects, 
necessarily, that would be funded. Our goal at the foundation 
is to be as effective, as efficient, and also as impactful on 
the ground as possible, and to turn to our state partners in 
order to identify what the priorities are, and then, as the 
plea sets out, to consult with my two Federal partners, NOAA 
and Fish and Wildlife Service, to make certain that those are 
overarching objectives within the Gulf, and then to move to my 
board for approval.
    The thing to know is the BP settlement did put--and 
Transocean--put $2.54 billion into the foundation. Now, those 
dollars come to the foundation from Transocean over a 2-year 
period, but the monies from BP come in over a 5-year period. We 
are only 3 months in from the money coming into the foundation, 
and that payment schedule is a hockey stick payment, where we 
will see the vast majority of the money in the fifth year.
    The last 6 months, we have been working with the individual 
states and our Federal partners to talk through where they see 
the priorities and to develop unique systems in order for our 
foundation to be able to move forward the priorities, the 
grant-making, and the contracting as rapidly as possible.
    I must say, we have been incredibly impressed with all five 
states. Trudy Fisher has done an outstanding job with 
Mississippi and working with our team in order to prepare 
Mississippi to come forward with a project list. Florida, Nick 
Wiley and Mimi Drew, continue to meet with us, as well. And, 
again, we are meeting in the next few weeks in order to make 
certain that they are ready to go.
    We anticipate within a month that all five states will be 
giving us their first list of priorities, and then the process 
of consultation with NOAA and Fish and Wildlife Service will 
begin.
    I always use the analogy that we are testing the plumbing 
in a new house. I would say probably none of us wish we were 
here, because of the oil spill, the loss of life, and the 
economic damage. At the same time, we sit here trying to make 
the best of a situation, and we are trying to get money on the 
ground as quickly as possible. We will rely very much on the 
states to help guide this prioritization and the individual 
project lists themselves.
    And, at this time, I have to say that I think we are in a 
very good place to see action happen by the end of the year and 
monies literally be on the ground and work commencing on these 
project lists. But I am a little premature in saying that, for 
the simple fact that we are a few weeks out yet from receiving 
the project list requests from the states.
    Thank you, sir.
    [The prepared statement of Mr. Trandahl follows:]

Prepared Statement of Jeff Trandahl, Executive Director, National Fish 
                        and Wildlife Foundation
    Thank you for the opportunity to testify on behalf of the National 
Fish and Wildlife Foundation (NFWF) and our work to restore and protect 
the natural resources of the Gulf of Mexico region. NFWF was 
established by Congress in 1984 to foster public-private partnerships 
to conserve fish, wildlife, and their habitats. For almost 30 years, 
NFWF has developed a successful model of coordinating and leveraging 
public and private funds to address the most significant threats to 
fish and wildlife populations.
    As one of the Nation's largest conservation funders, NFWF currently 
works with 14 Federal agencies, numerous state agencies, private 
partners, and our local grantees to implement on-the-ground and in-the-
water conservation projects in all 50 states and internationally. 
NFWF's work helps to create and sustain abundant wildlife species and 
natural habitats that serve as both a source of enjoyment for all 
Americans and also an important driver of our Nation's economic health. 
Key elements of our approach include: (1) leverage, (2) efficiency, (3) 
partnerships, (4) transparency, and (5) measurable outcomes.
    Since its inception, NFWF has leveraged nearly $576 million in 
Federal funds into more than $2 billion for conservation. In FY 2012, 
NFWF supported a total of 505 projects. We used $42.6 million in 
Federal funds to generate an additional $149.5 million in private funds 
and grantee matching funds for a total investment of more than $192 
million.
    NFWF is governed by a 30-member Board of Directors that includes 
the Director of the U.S. Fish and Wildlife Service, the Administrator 
of the National Oceanic and Atmospheric Administration, and 28 private 
citizens, including several from states bordering the Gulf of Mexico.
NFWF's Response in the Gulf
    Over two decades prior to the Deepwater Horizon oil spill, NFWF had 
invested more than $128 million to support over 500 fish and wildlife 
habitat projects in the Gulf region. These projects were supported with 
Federal funds and private contributions from NFWF's corporate partners. 
In response to the oil spill, NFWF's experience in the Gulf region 
allowed us to take a leadership role in coordinating immediate efforts 
to minimize the impact of the oil spill on threatened fish, wildlife, 
and habitats and to bolster local wildlife populations to ensure their 
long-term survival.
    NFWF immediately took action and has been working with government 
agencies, non-governmental organizations, private foundations, 
individuals, and corporations to protect and restore Gulf Coast fish, 
wildlife, and habitats impacted by the oil spill. NFWF launched the 
Recovered Oil Fund for Wildlife in 2010, funded with proceeds from BP's 
share of net revenue from the sale of oil recovered from the Deepwater 
Horizon site, and leveraged by working closely with some of our other 
corporate partners. For example, NFWF engaged Walmart to secure a 
commitment of $2.25 million for NFWF-funded conservation projects on 
the Gulf coast and also worked with FedEx during the summer of 2010 to 
facilitate the transfer of 25,000 endangered sea turtle eggs from the 
Gulf coast to the Atlantic coast--one of the largest wildlife 
relocations in history.
    To date, NFWF has invested $22.9 million from the Recovered Oil 
Fund for Wildlife and other funding sources to bolster species and 
habitats affected by the spill, notably shorebirds, waterfowl, marsh 
birds, oysters, sea turtles, marine mammals and various fish species.
    In other ongoing collaborations that directly benefit the Gulf, 
NFWF works with Southern Company on the Power of Flight Bird 
Conservation Fund, which protects birds through habitat and species 
restoration and environmental education; Shell Oil Company through the 
Shell Marine Habitat Program, which supports conservation of species 
and habitats; and the ConocoPhillips SPIRIT of Conservation Migratory 
Bird Program, which conserves threatened birds and their habitats 
around the world.
    To implement wildlife and habitat projects in the Gulf region, NFWF 
has worked with diverse partners including Ducks Unlimited, The 
National Audubon Society, The Nature Conservancy, Sea Turtle 
Conservancy, Florida Wildlife Federation, Louisiana Wildlife and 
Fisheries Foundation, Alabama Wildlife Federation, Wildlife 
Mississippi, Texas Rice Industry Coalition for the Environment, U.S. 
Fish & Wildlife Service, Natural Resources Conservation Service, other 
Federal and state agencies, and other conservation organizations.
    Overall, NFWF's collaborative projects in the Gulf have resulted 
in:

  <bullet> creation of 500,000 acres of wetland habitat on agricultural 
        lands to benefit migratory waterfowl and shorebirds;

  <bullet> relocation of 25,000 sea turtle eggs in a collaborative 
        partnership with FedEx and Federal and state resource agency 
        partners;

  <bullet> protection of critical migratory bird nesting sites on 30 
        islands and beaches;

  <bullet> enhancement of 14 wildlife rescue facilities to treat 
        injured marine mammals and sea turtles;

  <bullet> restoration of 3.5 miles of oyster reef; and

  <bullet> reduction in by-catch of sea turtles as well as valuable 
        recreational and commercial fish (bluefin tuna and red snapper) 
        by providing over 500 Gulf fishermen with special equipment.
BP and Transocean Criminal Settlements
    In early 2013, the United States District Court for the Eastern 
District of Louisiana approved two plea agreements resolving certain 
criminal charges against BP and Transocean arising from the 2010 
Deepwater Horizon oil spill. The plea agreements designate NFWF as the 
recipient of $2.394 billion from BP and $150 million from Transocean to 
be used for projects to ``remedy harm and eliminate or reduce the risk 
of future harm to Gulf Coast natural resources.''
    The requirements for BP and Transocean to pay these funds, as well 
as the usage restrictions applicable to the funds, were entered in 
Court orders that are enforceable as special conditions of probation. 
NFWF must look strictly to the plea agreements and these Court-ordered 
probationary conditions in determining how to properly administer the 
funds.
    According to the plea agreements, the BP funds will be paid to NFWF 
over a 5-year period and the Transocean funds will be paid to NFWF over 
a 2-year period beginning in 2013.
    The plea agreements require:

  <bullet> 50 percent of the funding to be allocated for barrier island 
        restoration and river diversion projects in Louisiana;

  <bullet> remaining funds to be allocated by formula for natural 
        resource remediation projects in the states of AL, FL, MS (28 
        percent each) and Texas (16 percent); and

  <bullet> consultation with the Gulf state resource agencies, as well 
        as the National Oceanic and Atmospheric Administration (NOAA) 
        and the U.S. Fish and Wildlife Service (FWS), to identify 
        projects.
NFWF Gulf Environmental Benefit Fund
    NFWF has a long track record of successfully managing funds arising 
from legal and regulatory proceedings that are designated to benefit 
natural resources. In the case of the BP and Transocean criminal funds, 
NFWF will carry out this function through its newly established Gulf 
Environmental Benefit Fund (Gulf Fund). As directed by the two plea 
agreements, NFWF will administer a total of $2.544 billion to fund 
projects benefitting the natural resources of the Gulf Coast that were 
impacted by the spill.
Purposes
    The underlying plea agreements specify a narrow purpose for the 
Louisiana-designated funds as compared to the purpose designated for 
funds in the other four states. In Louisiana, the funds may be used 
only ``to create or restore barrier islands off the coast of Louisiana 
and/or to implement river diversion projects on the Mississippi and/or 
Atchafalaya Rivers for the purpose of creating, preserving, and 
restoring coastal habitat.'' Selection of projects must take into 
consideration Louisiana's Coastal Master Plan, as well as the Louisiana 
Coastal Area Mississippi River Hydrodynamic and Delta Management Study.
    In the other four states, the funds must be used ``to conduct or 
fund projects to remedy harm to resources where there has been injury 
to, or destruction of, loss of, or loss of use of those resources 
resulting from the Macondo oil spill.''
Consultation and Project Selection
    As required by the plea agreements, NFWF has begun consulting with 
natural resource management agencies in each of the five Gulf States 
and with NOAA and FWS on the identification and prioritization of 
appropriate projects. All of the agencies with whom NFWF is consulting 
serve on both the Deepwater Horizon Natural Resource Damage Assessment 
Trustee Council and the RESTORE Council, and their input will be the 
primary means through which project selection under NFWF's Gulf Fund 
will be coordinated with similar activities under the NRDA and RESTORE 
programs.
    The specific state resource agencies with whom NFWF is consulting 
are: the Alabama Department of Conservation and Natural Resources, 
Florida Fish & Wildlife Conservation Commission, Florida Department of 
Environmental Protection, Louisiana Coastal Protection and Restoration 
Authority (CPRA), Mississippi Department of Environmental Quality, 
Texas Parks and Wildlife Department, Texas Commission on Environmental 
Quality, and Texas General Land Office.
    NFWF will work to develop consensus among the state and Federal 
agencies in identifying projects that meet the conditions of the plea 
agreements and that maximize benefits for Gulf coast natural resources. 
When our state and Federal agency partners suggest projects that 
provide regional benefits, such as those crossing state boundaries or 
even potentially Gulf-wide, NFWF will work to facilitate inter-agency 
agreement on project design and funding strategies. However, even in 
the absence of consensus, NFWF retains sole responsibility and 
authority under the plea agreements to make final project funding 
decisions.
    In addition to the primary criteria for project selection set forth 
in the plea agreements, NFWF will seek to identify and prioritize 
projects that also meet the following criteria:

  <bullet> advance priorities in natural resource management plans, 
        such as those called for under RESTORE;

  <bullet> are cost-effective and maximize environmental benefits;

  <bullet> are science-based; and

  <bullet> produce measureable and meaningful outcomes for natural 
        resources.

    As it does in its other conservation grant making, NFWF's decision-
making will rely on strong, science-based evidence and the technical 
input from state and Federal resource agencies. In the aftermath of the 
oil spill, public agencies, universities, and other organizations have 
conducted, and continue to conduct, extensive research to improve the 
understanding of the Gulf of Mexico ecosystem and efforts needed to 
restore critical natural resources, enhance its resiliency and improve 
management. As this information becomes available, it will be used to 
further inform our decision-making.
    The Gulf states are establishing websites where the public can 
suggest a project for consideration or learn more about the process 
each state has established, or will establish, for identifying priority 
Gulf coast restoration projects, including those that may be candidates 
for funding through the Gulf Fund. As appropriate, deadlines may be set 
for project solicitations in individual states and this information 
will be provided on the state websites.
Payment Schedule
    Over the next five years, the Gulf Fund will receive a total of 
$1.272 billion for projects in Louisiana, $356 million each for 
projects in Alabama, Florida, and Mississippi, and $203 million for 
projects in Texas.
    In accordance with the terms of the two plea agreements, payments 
into the Gulf Fund will occur over a five-year period in the case of BP 
and over a two-year period in the case of Transocean. More than half of 
the funding will arrive in years four and five. As payments are 
received, NFWF will segregate funds into accounts by state and plea 
agreement in accordance with the formula established by the plea 
agreements and will begin obligating the funds after the required 
consultations with state and Federal resource agencies.
    As of May 2013, NFWF has received initial payments totaling $158 
million. NFWF currently is conducting intensive consultation with state 
and Federal resource agencies in order to identify the first slate of 
projects to receive funding. NFWF anticipates announcing the obligation 
of at least a portion of these funds to initial projects in the Fall of 
2013.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Conclusion
    As we move forward with the implementation of the Gulf Fund, we 
will continue to work with our state and Federal partners to identify 
high priority projects that meet the requirements of the pleas and 
provide long-term restoration benefits to the Gulf of Mexico region. As 
stated, we are utilizing existing planning and prioritization efforts 
such as those required by RESTORE to deliver the funds without creating 
new and duplicative processes. Accountability and transparency are 
essential to the process and we are committed to obligating the funds 
entrusted to us in a timely and responsible manner.
    As required by the pleas, NFWF will report annually to Congress, as 
well as to the Court and Department of Justice, on its activities with 
regard to the Gulf Fund. This will include a list and descriptions of 
projects and the funding required for them.
    We look forward to continued input from key stakeholders, both 
public and private, to ensure the success of the Gulf Fund and its 
associated restoration projects.

    Senator Nelson. As I turn to Senator Wicker for his 
questions, be thinking about and address how you are not going 
to double up and how you are going to coordinate with the 
Department of Commerce as they coordinate the council in making 
the decision on their projects, since your projects are going 
to come out of a different pot of money----
    Mr. Trandahl. Yes.
    Senator Nelson.--and that is the pot of money that comes 
from the criminal fund.
    Senator Wicker?
    Senator Wicker. Thank you very much. And I must say, after 
this testimony by the first panel, I have a great deal of 
confidence that this is going to be administered by some very 
talented and thoughtful public servants.
    Professor Schiffer, let me ask, you said it is going to 
take time. And you mentioned, I think, ten early restoration 
projects that are already under way. How is that going so far, 
and what is the nature of these 10 early projects?
    Ms. Schiffer. That is an excellent question, Senator 
Wicker.
    The ten projects which were identified by states and 
Federal agencies and then went through a process of restoration 
planning and opportunity for public comment include projects 
that are for marsh restoration, for some dune restoration 
projects. And there is a boardwalk, I believe, in Florida which 
is to compensate for the lost use of some of the beaches in 
Florida.
    I would be pleased to provide you with a complete list, 
Senator Wicker, but that gives you some sense of the flavor of 
the projects.
    Senator Wicker. All right.
    And, Secretary Jacobsen, when do you think the natural 
resource damage assessment will be fully completed?
    Ms. Jacobsen. That is an excellent question, Senator 
Wicker.
    The studies that are ongoing right now, and there are many, 
many, many of them, are very complex. As we get the data, and 
we are still collecting a lot of the data, we must analyze it, 
we must assess it, we must evaluate it. And we are moving as 
quickly as possible.
    Of course, part of the issue with the damage assessment 
activities is funding. And, thus far, we have obtained our 
funding from two sources, either cooperatively through BP, 
which of course involves a layer of negotiations there, or by 
presenting our needs to the Coast Guard's Oil Spill Liability 
Trust Fund. They can also front the money for some of those 
studies.
    So I would be careful to give you any exact timeframe for 
when that damage assessment would be completed. But, given that 
it is the largest and most complex undertaking, it is probably 
at least a couple of years away, I would say.
    Senator Wicker. Do you have adequate funding for the 
assessment?
    Ms. Jacobsen. As of now, we do have adequate funding, in 
large part because, as I said, BP has provided the money and 
the Coast Guard fund has also helped us with the residual 
funding we need for other studies.
    Senator Wicker. Thank you.
    Mr. Trandahl, not every project will be selected.
    Mr. Trandahl. Right.
    Senator Wicker. Let me just ask that you work with the 
states, and if they are non-selected for certain projects, get 
back to them----
    Mr. Trandahl. Oh, absolutely.
    Senator Wicker.--with a ``no'' answer, too. And maybe work 
with us on other approaches. Is that fair?
    Mr. Trandahl. Oh, that is more than fair. And I will jump 
in here with a coordination response, as well----
    Senator Wicker. Please.
    Mr. Trandahl.--or give you a little information.
    As we develop project lists, it is not as if we would 
expect the state to just give us a final list. This is a bit of 
sausage-making. We will have our Federal partners and the 
states literally at a table with us as we are developing sort 
of the final list before it would ever travel up to our 
foundation board.
    And in doing that, we are all going to be very honest and 
very direct, as these folks have all been with each other over 
the last two and a half years. Literally, everyone sitting at 
the table is attempting to get to the best and the fastest 
possible outcomes, in terms of getting this money on the ground 
and getting projects funded.
    Because we are dealing with three different funding pools 
that have three different governing documents--these two, NRDA, 
and RESTORE has statutory guidance; and in the case of the 
foundation, we are guided by the plea--what we are doing, we 
are sort of the last to the table, which has advantages and 
disadvantages. The advantage is that----
    Senator Wicker. Much like testifying last.
    Mr. Trandahl. Yes, well----
    [Laughter.]
    Mr. Trandahl. And it is interesting, because, you know, 
NOAA and Department of Commerce and Department of the Interior 
and Fish and Wildlife Service have literally been engaged in 
these conversations with the states for two and a half years. 
And, in many ways, the individual states and I are able to take 
advantage of that, because they are also balancing which pools 
of money can effectively fund which projects and when.
    So it is identifying the right funding area and then 
sequencing correctly and then making certain that we are not 
duplicating or contradicting in any way what we are all 
attempting to do here.
    Now, literally, those conversations are going to become 
very intense with all this over the next month here, because we 
just have been able to finalize sort of the operating structure 
that our board will be working under and our staff will be 
working under, along with the individual states.
    Senator Wicker. Well, thank you very much.
    And thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator Wicker.
    Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Senator Nelson.
    And thank you for convening this very important hearing, 
which is of great interest to me, although Connecticut is 
located fairly far from the Gulf, because all of our states 
that are involved in importing or exporting oil or gasoline 
products potentially are at risk of this kind of disaster.
    In fact, a little-known fact is that Connecticut's sixth-
largest export is, in fact, oil. $185 million in oil leaves the 
Port of New London every year. And we are the fifth-largest 
importer and exporter in dealing with gasoline and oil products 
in Connecticut.
    So I think all of our states that are on the coast have a 
stake in the great work that you have done. And I want to join 
in Senator Wicker's observation, that I have increased 
confidence, in light of the testimony that I have heard and 
read, that these projects are being handled in a very 
thoughtful and deliberate way.
    I have a question that I think goes to the heart of what 
lessons we can learn from the responses that came in the wake 
of the Gulf oil disaster. And it goes to the point that has 
been made here about the use of criminal restitution money as 
part of the settlement.
    And I wonder whether there are increased possibilities for 
the use of money from other such environmental prosecutions in 
environmental protection projects. I know that the National 
Fish and Wildlife Foundation has a very longstanding record, 
even though it is an organization that has been in existence 
only since 1984, but in leveraging public dollars to gain more 
private dollars. I think the numbers are $576 million that has 
been received from the Federal Government to leverage about $2 
billion in private monies.
    Mr. Trandahl. Right.
    Senator Blumenthal. And criminal restitution funds could 
help in leveraging those amounts.
    And I know that, Professor Schiffer, you have been involved 
in enforcing the environmental laws in the Department of 
Justice, and so you have an experience in this area.
    Let me begin with you, Mr. Trandahl, whether you think that 
perhaps the Federal courts ought to be encouraged to devote 
more monies to the National Fish and Wildlife Foundation 
because you have a proven track record, you are a public-
private partnership, and you have accomplished great work in 
more than 500 projects, I think, just this year alone----
    Mr. Trandahl. Right.
    Senator Blumenthal.--involving exactly the same kinds of 
objectives and goals that are involved in the Gulf.
    Mr. Trandahl. And, Senator, it is quite ironic, actually, 
because Rachel and I actually worked together at the foundation 
earlier, and Rachel was actually the attorney at the foundation 
that was responsible for helping us to create a strategy to do 
exactly what you are talking about, which was to work with the 
Department of Justice and the U.S. Attorneys in order to create 
a simple mechanism for them to be able to deposit funds at the 
foundation that we could leverage with other resources in order 
to do good conservation.
    And the reason we embarked on that effort is a lot of these 
monies were falling into the Treasury or into special accounts, 
and the Federal Government really did not have the FTEs in 
order to be able to turn around and put the money back on the 
ground.
    So you had a broken environmental situation, you had a very 
frustrated community, you had a company that had gone through a 
prosecution and a settlement potentially. And suddenly there 
wasn't action and activity happening on the ground to sort of 
move everybody beyond the incident and get the environment to a 
much better place.
    So, literally, I asked Rachel to leave the Department of 
Justice and come over to the foundation so we could sweep 
together a strategy that would work. And what we have seen is a 
very dramatic shift at the Department of Justice and with the 
U.S. Attorneys' offices in order to use the foundation and 
really be able to build and create, honestly, the situation 
that we could use this mechanism with these Gulf moneys.
    Senator Blumenthal. Is that happening quickly and fully 
enough?
    Mr. Trandahl. It is happening very rapidly. And I would say 
the confidence at the Department of Justice for them to allow 
us to use such a large fund here shows that it is highly 
endorsed within the U.S. Attorneys and the DOJ and the 
preferred method.
    Senator Blumenthal. Let me ask Professor Schiffer, how do 
you feel about how that--I know you haven't been in the 
Department of Justice for a while, but what is your impression?
    Ms. Schiffer. Well, speaking with my NOAA hat, because we 
do have enforcement responsibilities at NOAA, as well, for a 
range of natural resource laws, we have been in discussions 
with the Department of Justice about how for criminal cases 
that we refer to the department we may be able to use some of 
the money for restitution under the standards of the Department 
of Justice, and we certainly would actively support that.
    Senator Blumenthal. Well, I would be interested in any more 
facts or suggestions that any of the folks here this morning 
may have in that regard. Because I know that enforcers, whether 
U.S. Attorneys or Department of Justice attorneys, across the 
country are often looking for places or organizations that can 
use this support in a constructive way to serve the goals that 
restitution is supposed to serve. And I think the more that we 
can make the Department of Justice aware and responsive to 
these concerns, using the Gulf experience as a model, the 
better a lot of the conservation and environmental protection 
goals will be served.
    So thank you for your testimony this morning.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator.
    Ms. Schiffer, I wouldn't be concerned if you or Kathy 
Sullivan were going to be the Chair of this Gulf Coast council, 
but that is still to be determined by the new Secretary of 
Commerce. And I want to make sure that you convey and this 
record reflects that we are going to insist in the 
implementation of the law that the legislative intent is 
followed.
    For example, there is a part of the law that says that 
money will go into a separate pot to try to help the fish. Now, 
that is a simplified way of saying that part of our problem of 
knowing what to do under the Magnuson-Stevens Act on whether or 
not a fish population has been overfished is the fact that we 
are making decisions on out-of-date, old data, 6 and 7 years 
old.
    And so this senator specifically put a pot coming out of 
the RESTORE Act there for money to do up-to-date assessments of 
the fish populations so that we can make correct decisions, 
which ultimately affects the long-term health of not only the 
Gulf but the waters off of Senator Blumenthal's state.
    Now, there is another pot of money for centers of 
excellence. And with regard to the four states of the Gulf, 
they left it up to their state government to set up their 
centers of excellence. But with regard to the Florida pot of 
money under the centers of excellence--and I will read and want 
the record to reflect what the statute says. Quote, ``A 
consortium of public and private research institutions within 
the state, which shall include the Florida Department of 
Environmental Protection and the Florida Fish and Wildlife 
Conservation Commission, for that Gulf Coast state.''
    I couldn't put an earmark in it, but I could define it so 
that it specifically was going to go to the one unique research 
institution in the state of Florida, called the Florida 
Institute of Oceanography, which is a 20 private and public 
university consortium in Florida dedicated to research on the 
health of the Gulf and on the health of all waters around the 
state.
    And so, as we are looking to the long-term health of the 
Gulf, which is one of the most important things, not only that 
we prevent disasters like this, but what do we know about what 
is happening to the Gulf and all that oil that is out there 
still sloshing around, maybe down at 5,000 feet, and the 
indicators by the two LSU professors on the killifish. What are 
the long-term effects on the Gulf?
    Now, the big part of the money, of course, is going in 
those three pots, basically for the environmental, ecological, 
as well as the people's interest. And often what we find is 
that the environmental interest is also the people's interest 
because of what brings, for example, in a state like mine and 
Senator Wicker's, people to the Gulf to enjoy it, as people to 
enjoy their vacations and the wonderful natural environment.
    Now, having said this little speech, I said it for a 
purpose: that I want you to convey, and I will do so likewise 
in the confirmation process of the new Secretary of Commerce, 
that we expect the intent of the law to be carried out and not 
somebody to suddenly get off on their own and decide, well, it 
is going to go to what they want. Because I bring you back to 
Senator Landrieu's opening statement. This was a balancing of 
the interests in trying to restore the Gulf and its people. And 
I want you to convey that, please, to the Department of 
Commerce.
    As I said, Professor, if you were running it, having just 
heard my speech, or if Kathy Sullivan were running it, whom I 
have a great deal of personal confidence in, I wouldn't worry. 
But I don't know who is going to be the designated hitter. And 
so I want you to convey this.
    Ms. Schiffer. Senator, I am pleased to convey back the 
thoughtful comments that you have made to the Department of 
Commerce, which has been designated as the Chair of the RESTORE 
Council.
    I might also note as to, you have been talking about both 
of the science programs that were so thoughtfully made part of 
the RESTORE Act, as well. And for the NOAA science program that 
we have paid particular attention to, we have taken very 
seriously the intentions of the--and the legislative intent of 
the statute and have made great strides in implementing that 
program to act as a catalyst for taking science that is 
developed across all of these different pots of money to try to 
bring it together to better understand the ecosystems of the 
Gulf.
    Senator Nelson. OK.
    What we want to do, mindful of the time, we want to go on 
to the second panel. I want to thank you all for your 
contributions. We are going to stay in close touch with you 
over the course of the years. Thank you for your public 
service.
    And I invite the second panel to please come up.
    And so, as they are being seated, we welcome Mrs. Trudy 
Fisher, the Executive Director of the Mississippi Department of 
Environmental Quality. And she will discuss Mississippi's 
priorities for RESTORE and NRDA.
    We welcome George Neugent, who is the Mayor of Monroe 
County. Monroe, by the way, is the Florida Keys. And he will 
discuss the ongoing planning process in the Gulf consortium of 
counties.
    We welcome Eric Draper, the State Director of the Florida 
Audubon. And he will discuss Audubon's role in early 
restoration.
    And we welcome Dr. Stephen Polasky, who is Professor of 
Environmental Economics at the University of Minnesota, who 
will discuss the economic benefits from the ecosystem 
restoration. And he has done research on this very subject.
    Now, I am going to limit you all to 5 minutes apiece, being 
mindful of the time. Your written testimony will be entered in 
the record.
    And so we will start with you, Ms. Fisher.

 STATEMENT OF TRUDY D. FISHER, EXECUTIVE DIRECTOR, MISSISSIPPI 
              DEPARTMENT OF ENVIRONMENTAL QUALITY

    Ms. Fisher. Thank you. Good morning, Senator Nelson, 
Senator Wicker. Thank you for your kind comments and your 
opening remarks, Senator Wicker.
    I appreciate the opportunity to be here this morning on 
behalf of the state of Mississippi. My name is Trudy Fisher, 
and I serve as the Executive Director of the Mississippi 
Department of Environmental Quality.
    We are responsible for administering the state 
environmental programs and the Federal environmental programs 
administered by the Environmental Protection Agency and 
delegated to the states. In addition, our agency is a first 
responder to manmade and natural disasters. As Executive 
Director, I serve as Mississippi's trustee under the Oil 
Pollution Act.
    Our emergency response to the Deepwater Horizon oil spill 
and our responsibilities as a trustee and trustee agency began 
very shortly after April 20, 2010. Since that time, we have 
been very actively engaged in the NRDA assessment process on 
behalf of our state through the Trustee Council. I currently 
have the privilege of serving as Chair of the Trustee Council.
    I also have the privilege of serving as Governor Phil 
Bryant's designee on the RESTORE Council, and we are the lead 
agency for coordination of monies flowing through court 
decrees, including the sums administered by the National Fish 
and Wildlife Foundation's Gulf Beneficial Use Fund.
    The prior panel and my colleagues set the stage very well 
for my comments, and I want to focus, Senator Nelson, on how 
the process is working in our state on how we are coordinating 
these three restoration funds and a little insight on the 
workings of the two councils and how we are making progress.
    Though profoundly basic, the most important factor in our 
effort going forward with these multiple funding sources is 
that we get it right. Getting it right means taking the 
necessary time, with an appropriate sense of urgency, to 
consider and resolve important issues and questions, most of 
which have never been addressed before or have never been 
addressed before on this scale. The word ``unprecedented'' has 
become a common modifier since April 2010, first in describing 
the spill and then in describing the challenges and 
opportunities that lie before us.
    The energy we all share for tangible results must be 
tempered with the overriding goal of getting it right--getting 
it right through a science-based, transparent, collaborative 
approach. ``Right'' in this context means based on science, 
made in the full context of the concerns and reasonable 
expectations of our public, our local elected officials, NGO's, 
tribes, state and our Federal elected officials.
    Coordination and collaboration among the Gulf states and 
our Federal agencies have been essential to the degree of 
success we have had to date and is essential to the success we 
will continue to have. For well over 30 months, state and 
Federal trustees and staff have sat together monthly working 
through the NRDA process to assess injuries and to implement 
the early restoration framework agreement. As a result, strong 
bonds of shared understanding and effort have been formed and 
strengthened. Many of these relationships are replicated in the 
membership on the RESTORE Council.
    Our newest funding partner in the restoration effort, the 
National Fish and Wildlife Foundation, offers the third leg to 
a critical integration of resources to leverage results in all 
five Gulf states.
    I cannot overestimate the importance of this shared 
approach. It has fostered greater understanding across 
geopolitical boundaries, promoted a more holistic view of our 
Gulf, and created an interlocked path to restoration.
    Though not seamless or without challenge, both of the 
councils have produced tangible work results to date. Now, like 
all joint efforts, they work best when everyone has common 
goals and objectives. Whether it is NRDA or RESTORE Council, 
the biggest challenges arise when a member state or Federal 
agency acts out of a singular interest rather than a common 
interest or strays from or stretches a basic reading of Federal 
law.
    A second compelling component in getting this effort right 
is our willingness to make decisions. We have got to be 
prepared to make decisions to make progress. As one of our 
Federal partners has observed, we cannot afford to let great be 
the enemy of good. Many of the questions which face us in this 
effort are unique and of first impression. We have to be ready 
to wrestle with them, make decisions, and move forward.
    In closing, I would like to focus on two discrete issues, 
one related to our understanding of the spill and the other 
related to the RESTORE Act.
    The Deepwater Horizon oil spill had unprecedented impact on 
the environment and on the laws upon which address these 
events. It has revolutionized our science, innovated our 
approach to restoration, and stretched our thinking around the 
best ways to leverage the three funding sources we have before 
us.
    The nature of this spill also brings into focus the lost 
human-use elements of the Oil Pollution Act on a scale never 
before seen in environmental law. Simply put, as you heard from 
the prior panel, people could not walk out to the end of a pier 
and go fishing, get in their personal boat, take a sunset 
cruise, and listen to the sounds of nature, jump in a kayak, 
pull out their pair of binoculars, and go bird watching, enjoy 
the beaches of Florida, go swimming, or engage in similar 
activities of enjoying our environment because of the oil 
spill.
    Restoration projects which address these human-use losses 
do not diminish restoration of our ecosystem or our natural 
resource injuries, which are very significant. Restoration 
projects which address human-use losses make restoration 
complete, promoting both the use and appreciation of the whole 
range of natural resources across the Gulf environment.
    My final comment concerns the Draft Initial Comprehensive 
Plan produced by the RESTORE Council the last few weeks, out 
for public comment. Public meetings began in the Gulf states 
earlier last week and will continue through the middle of this 
month. Public interest in the work of the RESTORE Council has 
been robust, just as we had all hoped, and we anticipate 
substantial comment. It is essential that we thoroughly review 
and consider the comments as we finalize the plan in keeping 
with the RESTORE Act.
    As a state representative, I view the Act as an innovative 
and bold congressional statement on the importance of the five 
Gulf states in the thinking, planning, and action in restoring 
our Gulf. Much of what I have said about collaboration and 
decisionmaking will be important as we move forward from a 
draft plan to a final plan and, likewise, as the RESTORE 
Council considers the many other issues that we are facing.
    We remain anxious to see the Treasury regulations. And, 
Senator Nelson, thank you for your comments at the beginning of 
this hearing.
    We remain committed to Congress's vision of the RESTORE Act 
to create a meaningful state and Federal partnership in our 
efforts. While much remains to be done, this model marks a 
clear path to legacy-level results on behalf of the Gulf of 
Mexico, our Gulf Coast, and its people.
    Thank you, Senator Nelson.
    Thank you, Senator Wicker.
    [The prepared statement of Ms. Fisher follows:]

      Prepared Statement of Trudy D. Fisher, Executive Director, 
            Mississippi Department of Environmental Quality
    Good morning Senator Nelson and Senator Wicker, and Members of the 
Committee. Thank you for the opportunity to testify on behalf of the 
State of Mississippi on environmental restoration following the 2010 
Deepwater Horizon oil spill and the successes and challenges in 
implementing the Resources and Ecosystems Sustainability, Tourist 
Opportunities, and Revived Economies of the Gulf Coast Act of 2012 
(RESTORE Act).
    My name is Trudy D. Fisher and I have served as the Executive 
Director of the Mississippi Department of Environmental Quality for 
over six years. Our agency is responsible for state environmental 
programs as well as most of the Federal environmental programs 
delegated to the states by the Environmental Protection Agency. In 
addition, MDEQ serves as a ``first responder'' for man-made and natural 
disasters. As Executive Director, I serve as Mississippi's Trustee 
under the Oil Pollution Act. Our emergency response to the Deepwater 
Horizon oil spill and responsibilities as a Trustee and Trustee agency 
began very shortly after April 20, 2010. Since that time, I have been 
actively engaged in the Natural Resources Damages Assessment (NRDA) 
process on behalf of the State, through the NRDA Deepwater Horizon 
Trustee Council comprised of the five Gulf States and the four Federal 
trustees. I currently serve as Chair of the Council. I also serve as 
Governor Phil Bryant's designee on the RESTORE Council and MDEQ is the 
lead agency for coordination of monies flowing through court decrees, 
including the sums administered by the National Fish and Wildlife 
Foundation's (NFWF) Gulf Beneficial Use Fund.
    The prior panel set the stage well for my comments. I will not 
spend time focusing on the different restoration efforts; rather, I 
will focus on our state's perspective on putting these restoration 
pieces together.
    Though profoundly basic, the most important factor in our effort 
going forward with multiple funding sources is that we ``get it 
right''. Getting it right means taking the necessary time to consider 
and resolve important issues and questions, most of which have never 
been addressed before or have never been addressed in an effort of this 
scale. The word ``unprecedented'' has become a common modifier since 
April of 2010, first in describing the spill and now in describing the 
challenges and opportunities which lie before us. The energy we all 
share for tangible results must be tempered with the overriding goal of 
``getting things right'' through a science based, transparent, 
collaborative approach. ``Right'' in this context means decisions based 
on the law, based on science, and made in the full context of the 
concerns and expectations of our public, NGOs, Tribes, state and 
Federal elected and appointed officials. At the same time, the five 
Gulf States and the Federal agencies are interpreting laws for the 
first time or applying existing laws for the first time in a situation 
of previously unexperienced magnitude and complexity.
    Coordination and collaboration among the Gulf States and Federal 
agencies are essential to any degree of success we have. For well over 
thirty (30) months, state and Federal trustees and staff have sat 
together monthly working through the NRDA process to assess damages to 
the natural resources of the Gulf Region. As a result, strong bonds of 
shared understanding and effort have been formed and strengthened. Many 
of these relationships are replicated in the membership of the RESTORE 
Council. Our newest funding partner in the restoration effort, the 
National Fish and Wildlife Foundation, offers the third leg to a 
critical integration of resources to leverage results in all five Gulf 
States. I cannot overestimate the importance of this shared approach. 
It has fostered greater understanding across geopolitical boundaries, 
promoted a more holistic view of the Gulf, and created an interlocked 
path to restoration. Though not seamless or without challenge, both of 
the Councils have produced tangible work results to date. Like all 
joint endeavors, they work best when everyone has common goals and 
objectives. Whether it is NRDA or RESTORE Council, the biggest 
challenges arise when a member state or Federal agency acts out of a 
singular interest rather than the common interest, or strays from or 
stretches basic reading of Federal law.
    A second compelling component in getting this effort right is our 
willingness to make decisions. We must be prepared to make decisions to 
make progress. As one of our Federal partners has observed in many of 
our meetings, ``we cannot afford to let great be the enemy of good.'' 
While many of the questions which face us in this effort are unique and 
of first impression, we must wrestle with them, apply our best 
thinking, and move forward. While all of our decisions must be based 
upon law and best available science, we must find practical answers to 
the questions of restoration, make decisions, and move forward.
    I would like to focus on two discrete issues, one related to our 
understanding of the spill and our response and the other related to 
the RESTORE Act.
    The Deepwater Horizon Oil Spill had unprecedented impact on the 
environment and on the laws which address such events. It has 
revolutionized our science, innovated our approach to restoration and 
stretched our thinking around the best ways to leverage multiple 
federal/state efforts. The nature of this spill also brings into focus 
the ``lost human use'' elements of the Oil Pollution Act on a scale 
heretofore unseen in environmental law. Simply put, people could not 
walk out to the end of a pier and go fishing, use personal boats to go 
take a sunset ride and listen to the sounds of nature, jump in a kayak, 
pull out a pair of binoculars and go bird watching, enjoy the beach, go 
swimming, or engage in similar activities of enjoyable use because of 
the BP oil spill. Restoration projects which address these losses do 
not diminish restoration of our natural resource injuries, which are 
very significant. They make the restoration complete, promoting both 
the use and appreciation of the whole range of natural resources across 
the Gulf environment.
    My final comment concerns The Draft Initial Comprehensive Plan 
prepared by the Restore Council released last week for public comment. 
Public meetings began in the Gulf States earlier this week and will 
continue through the middle of this month. Public interest in the work 
of the RESTORE Council has been robust and we anticipate substantial 
comment. It is essential that we thoroughly review and consider the 
comments as we finalize the Plan in keeping with the RESTORE Act. As a 
state representative, I view this Act as an innovative and bold 
Congressional statement on the importance of the five Gulf States in 
the thinking, planning, and actions which will restore the Gulf. Much 
of what I have said about collaboration and decision making will be 
important as we move forward from a draft plan to a final plan. We are 
going to have to coordinate our efforts as a Council, collaborate and 
make decisions. We remain anxious to see the Treasury regulations and 
we remain committed to Congress' vision of the RESTORE Act to create a 
meaningful state and Federal partnership in our efforts. While much 
remains to be done and many challenges still exist, this model marks a 
clear path to legacy level results on behalf of the Gulf of Mexico, our 
Gulf Coast and its people.
    Thank you again, Mr. Chairman and Members of the Committee, for the 
opportunity to discuss MDEQ's role in the Gulf of Mexico and our Gulf 
Coast restoration. I appreciate the Committee's time and attention, 
welcome any questions, and look forward to working with you further on 
this important effort.

    Senator Nelson. Thank you.
    Mayor Neugent?

           STATEMENT OF HON. GEORGE NEUGENT, MAYOR, 
                     MONROE COUNTY, FLORIDA

    Mr. Neugent. Thank you very much, Senator Wicker and 
Senator Nelson, for hosting this meeting. Thank you for the 
opportunity to provide testimony to the Senate Committee on 
Commerce, Science, and Transportation.
    And thank you, Senator Nelson, for your participation in 
designing the unique and effective model of the RESTORE Act for 
the state of Florida and for the long-term environmental and 
economic recovery of the Gulf Coast following the tragic and 
avoidable Deepwater Horizon catastrophe.
    I am the proud son of a father who, like so many that 
greatest generation produced, worked his whole life for the 
Texas Company, which became Texaco. I, too, like my father, 
worked in drilling and exploration for oil and gas off the 
coast of Louisiana. As a former oil hand, I truly understand 
the national significance of our energy resources. However, as 
one who now calls the southernmost out islands of the 
continental United States home, I am keenly aware of the 
potential damage that the uncontrolled release of oil can do to 
the environment.
    Senators, a very strong message must be sent to those who 
would attempt to cut corners to save a buck while recklessly 
risking tragedy for others. And when events like Deepwater 
Horizon occur, the parties must be held responsible, both 
civilly and criminally, with prejudice for all damages they 
create.
    Having lived my life on the Gulf of Mexico in both 
Louisiana and now Florida, I reflected on what I should say 
today. I was reminded how much the Gulf has been a part of my 
life. As a young boy going out to Terrebonne Bay to fish 
speckled trout and redfish with my dad and then sailing with my 
son from then-home, called Houma, Louisiana, to my now-home, 
the Florida Keys, 28 years ago.
    Whether you live on Galveston Bay and Terrebonne Parish, 
Biloxi, Mobile Bay, or the Florida Keys, every community 
depends on good water quality and a healthy marine ecosystem 
for their future existence. Let me be very clear: Our economy 
is a wholly owned subsidiary of the environment.
    National tragedies create unity. The 3-year-old Deepwater 
Horizon tragedy gives us an opportunity to reevaluate our 
efforts for marine conservation in the Gulf. While the full 
impact of the spill on the Gulf's diverse ecosystem will not be 
known for years to come, scientists tell us that spills of this 
magnitude will have profound, unknown effects for years to 
come. Such effects in Gulf coastal habitats are greatly 
exacerbated by decades of industrial-produced degradation of 
water quality.
    Reckless activity exhibited by Deepwater Horizon had 
immediate and devastating effects on Florida panhandle 
economies. It is important to note Florida's degree of coastal 
vulnerability. With almost 770 miles of coastline on the Gulf 
of Mexico, we compose almost half of the combined coastlines of 
the five Gulf states. And although we are the only Gulf state 
that does not allow drilling and the only one that does not 
receive revenues, Florida is nevertheless exposed to the 
devastating effects of oil spills in the Gulf.
    And it is because of this admitted negligence by BP and 
others that the RESTORE Act is so critically important to 
Florida. Implementation of the RESTORE Act in my state is 
unique in two key areas. Number one, resources from what we 
call the local allocation will flow directly to 23 individual 
Gulf Coast counties. This allows Florida's communities at the 
local level to determine the investments needed for 
environmental and economic recovery.
    Number two, RESTORE also creates and forms the Gulf 
Consortium as a local consortia of political subdivisions 
directed under the act to develop the state expenditure plan. 
Florida's 23 Gulf Coast counties came together to legally form 
the Gulf Consortium and facilitate the development of the 
coordinated state plan that would enhance Florida's recovery 
through the prudent investment of 30 percent of the funds 
distributed.
    This part of the RESTORE Act gave Florida a distinct 
opportunity to create a partnership between local governments 
and the state to oversee the money coming to Florida and ensure 
a coordinated approach to identifying and funding projects that 
are the most beneficial to our environment and economy.
    To achieve this, the consortium is working with Florida's 
Governor and state agencies through a memorandum of 
understanding to advance common goals, reduce duplication, and 
maximize benefits to the Gulf Coast region. This multi-
jurisdictional collaboration in the development of the state 
expenditure plan meets the spirit and intent of the RESTORE Act 
and underscores the commitment by the state, its local 
government, and its citizens to work together, not as silos but 
as a partner, for the full benefit of the entire coastline.
    While we have accomplished much, there is still much to be 
done. The consortium is ready to implement formal guidance from 
the U.S. Department of Treasury, which is critical in our 
ability to move forward with development of a comprehensive 
restoration plan.
    The consortium has made requests to Treasury that include: 
acknowledging the Gulf consortium as the consortia of local 
political subdivision, as specified in the RESTORE Act, and 
allowing for funds to be expended in the establishment of the 
consortium and planning costs allowed to be reimbursed.
    Establishing the Gulf Consortium has required sacrifice and 
trust. We now stand ready to use the resources made available 
through the RESTORE Act to rebuild the Gulf Coast for the 
future of our families, who were tragically impacted and who 
depend on a healthy environment and economy.
    On behalf of the 23 Gulf counties bordering the Gulf of 
Mexico and the Gulf Consortium and the fabulous Florida Keys, I 
would like to thank Senator Wicker and especially my senator, 
Senator Nelson, for convening this hearing and for stimulating 
thoughtful dialogue that can lead to collaborative and 
productive implementation of the RESTORE Act.
    [The prepared statement of Mr. Neugent follows:]

   Prepared Statement of Mayor George Neugent, Monroe County, Florida
Introduction
    Thank you for the opportunity to provide testimony to the Senate 
Committee on Commerce, Science, and Transportation. We appreciate 
Chairman Jay Rockefeller calling this hearing and Senator Bill Nelson's 
continued focus on effective implementation of the Resources and 
Ecosystems Sustainability, Tourism Opportunities and Revived Economies 
(RESTORE) Act toward the full and long-term economic and environmental 
recovery of the Gulf Coast following the Deep Water Horizon oil spill.
    My name is George Neugent, and I appear before the Committee in my 
capacity as the Mayor of Monroe County, Florida, and as a member of the 
Executive Committee of the Gulf Consortium. While I have lived in the 
Florida Keys for more than 27 years and owned a small business there 
for many of those years, I was born and raised in Houma, Louisiana, and 
spent my early professional career in the petroleum industry addressing 
oil well fires and working on safety issues. My years living in the 
Florida Keys have been dedicated to the protection of the quality of 
our waters, serving for 14 years on the Florida Keys National Marine 
Sanctuary Advisory Council, and for more than a decade on the National 
Marine Sanctuary's Water Quality Protection Program Steering Committee. 
During my four-term tenure as County Commissioner, Monroe County has 
neared the completion of a $900 million federally and state-mandated 
wastewater treatment infrastructure project spanning the entire island 
chain.
    As a businessman, I understand the national importance of our oil 
resources, yet as a man who calls these environmentally-sensitive coral 
islands home, I am keenly aware of the need to guard against these 
types of disasters, protect and restore our natural resources and hold 
the appropriate parties responsible for the future of this country.
    As with so many of our fellow coastal communities, the environment 
and the economy in the Florida Keys are inextricably linked. The unique 
marine ecosystem of the Florida Keys supports more than 6,000 species 
of fish, invertebrates and plants, including the largest documented sea 
grass bed in the world, and the only living coral reef in the 
continental United States. This unrivaled ecosystem provides the 
ecological foundation for a fisheries and tourism-based economy that 
generates more than 70,000 jobs and $6 billion in economic activity 
annually.
    The Keys' waters provide critical spawning habitats to a multitude 
of recreational and commercial migratory, endemic, coastal and pelagic 
finfish and shellfish, and unparalleled support to fisheries and 
essential habitats throughout the Gulf of Mexico. According to the U.S. 
Army Corps of Engineers, Monroe County's near shore waters alone 
provide habitat for 80 percent of the fish species in the United 
States. Most commercially valuable fish species depend on our near 
shore waters during their development. Key West, Florida, is the fifth 
most valuable port in the Gulf of Mexico, and the 20th most valuable 
commercial fishing port in the entire nation. In addition, the Florida 
Keys is the global center of recreational and sport fishing, with the 
highest number of recognized International Game Fish Association all 
tackle, saltwater line class, and saltwater fly rod ``World Record Game 
Fish'' records. Recreational fishing in the Florida Keys generates $740 
million in economic activity.
    Protecting and restoring the Gulf of Mexico's resources is 
important not only for the environment, but also for the local, state 
and regional economies. Because of the RESTORE Act, we have an 
unparalleled opportunity to impact the environment and the coastal 
communities of the entire Gulf region for decades to come.
Deepwater Horizon Oil Spill and Impacts to Florida
    On April 20, 2010 the explosion of the Deepwater Horizon Oil Rig 
resulted in more than 206 million gallons of oil, or 4.9 million 
barrels, spilling into the Gulf of Mexico for 84 consecutive days.
    According to the Congressional Research Service, at the height of 
operations more than 47,000 personnel responded to the spill, which 
ultimately resulted in more than 1,100 linear miles of oiling including 
shoreline along Florida's panhandle. While cleanup efforts were 
extensive, it is estimated that more than 100 million gallons of oil 
remain in some form in the Gulf of Mexico. In Monroe County, it may be 
decades before the effects of the oil spill on the commercial and 
recreational fisheries of Florida Bay are fully known.
    Immediately following the Deepwater Horizon tragedy, Florida's 
emergency response teams were required to operate under the Oil 
Pollution Act (OPA) of 1990, rather than the tried and true Federal 
Stafford Act, which is used for the response and recovery of natural 
disasters.
    The emergency management system established by OPA was constrained 
by a unified command structure that was established outside of Florida 
entirely. To compound matters, communication from Unified Command was 
limited and rarely consistent from day to day. This left counties and 
parishes across five states with inadequate information and concerned 
that any preparation and response efforts would be too little too late. 
Because of limited communication from Unified Command, local 
communities were forced to expend significant financial resources 
preparing for a potential event that could neither be quantified nor 
predicted.
    However, the good news in all of this tragedy was that it brought 
community and elected leaders across Florida's counties and the five 
Gulf states together. This bridging of elected and community leaders 
across Florida is now serving us well during the implementation of the 
RESTORE Act.
The RESTORE Act
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    During the Deepwater Horizon crisis, counties, parishes and five 
states joined together to provide an enhanced and cooperative response. 
Across geographical and political boundaries, our local communities, 
state agencies and elected leaders have remained in close collaboration 
to advocate collectively for a full and fair recovery. Because of the 
leadership in congress and communities across five states, in July 
2012, the RESTORE Act was enacted. The Act directs 80 percent of any 
administrative and civil Clean Water Act penalty revenue into a newly 
created trust fund to support environmental and economic restoration 
projects in the Gulf States.
    The RESTORE Act establishes several allocations to various levels 
of government. Fine monies under the RESTORE Act are divided into five 
allocations. The first allocation provides an even split of 35 percent 
to each of the five states. Unlike Texas, Alabama, Mississippi and 
Louisiana where the funds are allocated to the state, in Florida, this 
allocation is distributed directly to those coastal counties impacted 
by the Deepwater Horizon disaster. The second allocation of 30 percent 
of fine monies is directed to the Gulf Coast Ecosystem Restoration 
Council to implement the comprehensive recovery plan, which is under 
development. A third 30 percent goes to each state according to a 
distribution formula. Again, Florida is unique in that this allocation 
is directed through the RESTORE Act to a ``local consortia of political 
subdivisions.'' The final two allocations direct 2.5 percent to Gulf 
Coast Ecosystem Restoration Science, Observation, Monitoring and 
Technology and 2.5 percent to Centers of Excellence.
The RESTORE Act in Florida
    Implementation of the RESTORE Act in Florida is unique in two key 
areas. First, resources from the first allocation (35 percent of the 
Clean Water Act civil penalties distributed to the Gulf Coast States in 
equal shares) will flow directly to 23 individual Gulf Coast counties 
rather than through the state legislature or the governor. This allows 
Florida's communities at the local level to determine the investments 
needed for environmental and economic recovery.
    Unlike the other states, the RESTORE Act divides the Florida share 
of this allocation into two portions:

  <bullet> 25 percent of Florida's share directed to 15 non-
        disproportionately affected counties under a formula based on 
        distance to the Deepwater Horizon event, population and sales 
        tax collections.

  <bullet> 75 percent of Florida's share directed to Eight 
        Disproportionately Affected Counties along Florida's panhandle 
        (Wakulla, Franklin, Gulf, Santa Rosa, Bay, Okaloosa, Walton and 
        Escambia), with no formula specified.

    Since a formula for the Eight Disproportionately Affected Counties 
was not included in the RESTORE Act, these counties joined together as 
a committee to develop a distribution that treats each county in a fair 
and proportionate manner. The formula determined by the eight counties 
distributes 20 percent of the funds equally among the eight counties. 
The remaining 80 percent is distributed based on oiled shoreline, per 
capita sales tax collections, population and distance from the 
Deepwater Horizon oil rig. The formula has been approved by the Boards 
of County Commissioners of each of the eight counties and now awaits 
review and endorsement by the U.S. Department of the Treasury.
    The RESTORE Act requires public input as Florida's 23 Gulf Coast 
counties develop their individual restoration plans under the first 
allocation. Most of the counties, including Monroe County, have 
convened local advisory committees to evaluate and recommend projects 
for funding under the local allocation to the Board of County 
Commissioners.
The Gulf Consortium
    The second unique feature of RESTORE in Florida is the formation of 
the Gulf Consortium as the ``local consortia of political 
subdivisions'' directed under the Act to develop the State Expenditure 
Plan--a comprehensive economic and environmental restoration plan for 
Florida's Gulf Coast. Florida's 23 gulf coast counties came together to 
officially form the Gulf Consortium and facilitate the development of a 
coordinated state plan that would enhance Florida's recovery through 
the prudent investment of 30 percent of the funds. This part of the 
RESTORE Act gave Florida a distinct opportunity to create a partnership 
between local governments and the state to oversee the money coming to 
Florida and ensure it is used to fund the projects that are the most 
beneficial to our state.
    Formed through Inter-local Agreement under Chapter 163, Florida 
Statutes, the Gulf Consortium is a public entity that operates fully 
under Florida's extensive sunshine laws. It adheres to Florida's public 
records and public meeting requirements and recognizes the importance 
of public participation by ensuring that all meetings are publicly 
noticed and there is ample time for citizens to address the consortium 
and provide input and feedback for full consideration. Like a state 
agency, the Consortium will provide reports to the Florida Auditor 
General and Florida's Chief Financial Officer. This state oversight is 
in addition to any rules issued by the U.S. Treasury for Federal 
reporting and auditing requirements.
    The Gulf Consortium is comprised of one county commissioner from 
each of the 23 gulf coast counties. This guarantees each county, from 
Escambia in the panhandle to the Florida Keys, a role and a voice in 
the state's recovery efforts. The formal collaboration of 23 separate 
government entities--more than 115 elected officials representing 6 
million people--recognizes that Florida and the Gulf Coast should not 
just survive this tragedy, but maximize resources and apply lessons 
learned to best benefit the state's environment and economy.
    The Gulf Consortium is also working with Florida's Governor, state 
agencies and other restoration partners to advance common goals, reduce 
duplication, and maximize benefits to the Gulf Coast region. To this 
end, the Consortium and the State developed a Memorandum of 
Understanding to further our collective objectives of maximizing 
efficiencies and revenue opportunities under the RESTORE Act. This 
Memorandum, now approved by the Gulf Consortium and awaiting the 
Governor's signature, provides the Governor with six ex-officio, non-
voting appointees to the Consortium representing diverse interests to 
provide input and guidance to the Consortium on policies and criteria 
used to determine projects, activities and programs for inclusion in 
the State Expenditure Plan.
    Our collaboration with the state of Florida also provides for a 
Technical Working Group comprised of appropriate state agencies to 
review and provide input on projects considered for the State 
Expenditure Plan during its development. The Consortium, in conjunction 
with the Technical Working Group, will develop criteria for the 
submission and selection of projects. At a minimum, the selection of 
projects will include:

  <bullet> A review for consistency with the applicable laws and rules;

  <bullet> Prioritization based on criteria established by the 
        Consortium;

  <bullet> Consideration of public comments;

  <bullet> Approval by an affirmative vote of at least a majority of 
        the Consortium Directors present at a duly noticed public 
        meeting of the Consortium; and

  <bullet> State agency involvement, input and review in the 
        development of a comprehensive restoration plan.

    Involvement of Florida's Governor in the development and approval 
of the State Expenditure Plan meets the spirit and intent of the 
RESTORE Act and underscores the commitment by the state, its local 
governments and its citizens to work together, not as silos, but as 
partners for the full benefit of the entire coastline.
    Such collaboration takes time. Bringing 23 counties and the state 
of Florida together so that political and practical considerations are 
addressed is not easy. But building the right foundation--which we have 
now done--will allow us to better serve our citizens and, most 
importantly, invest these critical dollars in a collaborative, 
transparent and quality way.
Opportunities and Challenges for the Gulf Consortium
    The Gulf Consortium was formed to promote a recovery effort that is 
economically efficient and devoid of bureaucracy. Local input is 
imperative to this process. As a county commissioner, it is my duty to 
advocate for the issues that are most important to my community, and my 
constituents will hold me accountable for my decisions.
    Since the establishment of the Gulf Consortium, we have hosted 
monthly public meetings, receiving public input from non-governmental 
organizations and citizens and sharing science and data on the full 
ranging impacts of the oil disaster, along with project and 
programmatic approaches to recovering our environment and economy.
    Over the coming months, the Consortium will develop procurement 
rules and decision making protocols to develop the State Expenditure 
Plan, and while many challenges exist with so many interests, regions 
and entities, we are coalesced around the common goal of full 
environmental and economic restoration for the state of Florida.
    To enhance the integration of plans created under the different 
RESTORE allocations, the Consortium is also coordinating its efforts 
with those of the individual local governments and the Gulf Coast 
Ecosystem Restoration Council. Advisory committees are being created in 
most Gulf Coast counties. Local projects ad priorities are being 
presented to the members of the Gulf Consortium for consideration as 
the Consortium develops the State Expenditure Plan. In addition, the 
Consortium is fully participating in the public process associated with 
the Council's Comprehensive Plan, a draft of which was recently 
published.
    By taking a coordinated and collaborative approach, we can prevent 
the duplication of effort and eliminate waste. With all of the right 
partners at the table, we can maximize our investments so that as 
projects are determined for the Federal Council allocation, Natural 
Resource Damage Assessment (NRDA) process, State Expenditure Plan and 
individual counties, we can leverage available resources so that more 
projects are completed and recovery becomes a coordinated and 
thoughtful investment that will pay dividends well into the future.
Support from Federal Government
    While much has been accomplished administratively, there remains a 
lot more work ahead. The Consortium is awaiting formal guidance from 
the U.S. Department of the Treasury, which is critical in our ability 
to move forward with development of the State Expenditure Plan. The 
Consortium has made specific requests regarding Treasury rules, 
including:

  <bullet> Acknowledging the Gulf Consortium as the ``consortia of 
        local political subdivisions'' as specified in the RESTORE Act;

  <bullet> Allowing for funds expended in the establishment of the Gulf 
        Consortium and development of the State Expenditure Plan to be 
        reimbursed;

  <bullet> Ensuring new rules solidify what is already in the RESTORE 
        Act that state allocations and expenditures be distributed 
        directly to the appropriate county; and

  <bullet> Accepting the formulas and methodologies adopted by the 
        eight disproportionately affected counties regarding those 
        funds appropriated directly to our local communities.

    Finally, the projects undertaken will require local and state 
permitting, and some will also be required to meet Federal regulations. 
We ask for your support in eliminating bureaucratic barriers and 
streamlining these Federal requirements so that projects can advance 
quickly and recovery can be completed in a timely manner.
Conclusion
    National tragedies create unity. It is what makes America great--we 
put aside political and cultural differences and join around one common 
good.
    In Florida, we are all too familiar with response and recovery. 
Hurricanes are common; we are prepared and respond and recover quickly 
and effectively. The Deepwater Horizon Oil disaster was different. 
Response and recovery was in the hands of others. Preparations were not 
as extensive and were instead replaced with fear--fear of the sheer 
magnitude of the disaster and fear of the unknown. What are the long-
term environmental and economic implications of spilling 206 million 
gallons of oil in such a valuable ecosystem?
    Unlike our seamless response to hurricanes, the response to 
Deepwater Horizon was bumpy and disorganized. Yet now three years 
later, response is history and recovery remains. In the last three 
years, tourism has returned and our communities are rebounding. Yet 
questions still linger, tar balls continue to wash ashore and 
restitution is ongoing.
    It is because of this that the RESTORE Act is so critically 
important to the Gulf Coast states and Florida. I would be remiss if I 
let another moment go by without giving our sincere appreciation to 
congress for passing the RESTORE Act and ensuring that those 
communities directly impacted by the oil tragedy are able to use these 
resources to ensure a full environmental and economic recovery. Thank 
you.
    The RESTORE Act brings tremendous opportunity to Florida, and with 
that opportunity there is great responsibility. It is rare that local 
elected officials are able to make large investments in their 
communities; rare that we are able to take resources and consider 
state, regional and local projects to recover from tragedy while 
investing in the future.
    It is because of the opportunity created by the RESTORE Act that 
Florida has taken the unique approach of forming the Gulf Consortium. 
Instead of 23 separate decision makers or 1 executive direction, we 
have developed a team. This team represents 6 million diverse 
Floridians. Politics remain sidelined.
    The foundation we have built did not come easily. It required 
sacrifice and trust. But now the Gulf Consortium is ready to move 
forward and use the resources made available through the RESTORE Act to 
rebuild the Gulf Coast for the future of our families that depend on a 
healthy environment and economy.
Close
    Senator Nelson and committee members, Monroe County and the Gulf 
Consortium would like to thank you for convening this hearing and for 
stimulating thoughtful dialogue that can lead to cooperative and 
productive implementation of the Federal RESTORE Act. We appreciate the 
invitation extended to Florida's coastal counties to provide our 
perspective on this important issue, and we look forward to our 
continued collaboration.

    Senator Nelson. Thank you, Mr. Mayor.
    Mr. Draper?

 STATEMENT OF ERIC DRAPER, EXECUTIVE DIRECTOR, AUDUBON FLORIDA

    Mr. Draper. Thank you, Presiding Member Nelson and members 
of the Committee, and thanks for the opportunity to speak.
    I am Eric Draper, Director of Audubon Florida, which is the 
state program of the National Audubon Society, which has more 
than a million members across the country, long history of 
working to protect the Gulf of Mexico, at a very personal 
level, as you would know, Senator Nelson, my backyard swimming 
hole and yours.
    I am pleased to be here today and particularly with you 
chairing the Committee. You are, of course, a champion of our 
Florida Everglades. And without your work and Senator 
Landrieu's, we would not have the RESTORE Act, which is so 
important to restoring the Gulf.
    Few people can forget the images from a few years ago of 
birds struggling in an oily muck of waste oil. Thousands of 
birds died, but even more died from the actual cleanup efforts. 
The unintentional activity on the beaches during nesting season 
led to the destruction of a number of bird colonies, which is 
one of the reasons why it is so important that we work hard to 
maintain a diversity of nesting sites for shorebirds. And we 
will talk about that some today.
    Some of the impacts from the spill were apparent 
immediately. We won't know the full long-term impacts and the 
effect of the trickling up in the food chain. Senator, you 
mentioned the killifish, certainly a bird prey fish also, and 
we are very concerned about what is happening in the food chain 
there.
    Yet the Gulf's environment suffers not just from what 
happened with the Gulf oil spill but suffers from habitat 
alteration, erosion, and a number of other threats, including 
the loss of freshwater flowing from our rivers into our 
estuarine areas.
    So when the disaster struck, one of the things that was 
just amazing is the number of volunteers that showed up. We at 
Audubon got over 30,000 volunteers who asked to go out and 
clean beaches and oiled birds. And, of course, the cleanup 
itself was controlled by BP with their contractors. But the 
crisis did create a network of people who are working even 
today to restore the beaches. It is that great outpouring of 
volunteer activity that really makes me excited about the 
future of Gulf cleanup.
    The NRDA process, natural resource damage assessment 
process, did allow for some early investment of funds. My 
organization, Audubon Florida, was on the receiving end of some 
of those funds. And we are now using those NRDA funds to manage 
19 different bird nesting sites throughout the panhandle of 
Florida. And I can tell you that on Memorial Day weekend it 
really mattered that we had a group of bird stewards out there 
helping to protect those nesting colonies from overeager 
beachgoers.
    We want to recognize also the National Fish and Wildlife 
Foundation that took some funds from the oil skimmed from the 
water during the cleanup. Some of those funds were granted to 
Audubon to buy at that time the privately owned Lanark Reef, 
which is the most important brown pelican nesting site on 
Florida's Gulf Coast. And that is now owned by National Audubon 
Society and managed for the benefit of those same brown 
pelicans that we saw in those awful pictures before.
    NFWF is also responsible for distributing funds from the 
settlement under the criminal litigation. And we commend the 
foundation for working so closely with Nick Wiley, the director 
of the Fish and Wildlife Conservation Commission, in setting 
priorities for the state of Florida.
    We thought the Gulf Coast Ecosystem Restoration Task Force 
did a good job at setting priorities, and we are glad to see 
that those priorities are being followed by the council: 
restoring habitat, water quality, replenish and protect our 
living coastal systems, and enhanced community resilience.
    The Council has done a good job of holding public hearings. 
We have worked very hard to turn people out for those public 
hearings. There was one just the other night in Pensacola that 
was so well attended, and I think that people really enjoyed 
the experience of being able to make recommendations.
    It is very important that the Council not only continue to 
hold that very public and transparent process but I think also 
call upon their willing partners in the nonprofit community. We 
have a lot that we can offer to the Council and a lot that we 
can do to help bring forth the success of the program.
    I also want to commend Commissioner Neugent for the way 
that the consortium has moved forward. He described the 
consortium, and of course that consortium will help dictate the 
use of 30 percent of the funds that are coming to Florida. 
Governor Scott is appointing some members to that consortium 
also, and we expect that consortium to make the environment a 
strong focus of what they do.
    Audubon is working closely with our environmental 
colleagues in Florida, the Wildlife Federation, the Nature 
Conservancy, the Ocean Conservancy, to support recovery 
efforts.
    And we do have a vision that we would like to share, which 
is to treat the Gulf as an entire ecosystem and not a series of 
fragmented pieces that are cut up by state lines or by county 
lines. We think that by that approach we will best be able to 
help the environment.
    And in Florida, as you very well know and have said so many 
times, the environment really is the economy in Florida. You 
just can't mistake that.
    So, on behalf of the Audubon family and our Gulf-based 
members and conservation colleagues, I greatly appreciate you 
inviting me here today. And thank you very much for having me 
here.
    [The prepared statement of Mr. Draper follows:]

 Prepared Statement of Eric Draper, Executive Director, Audubon Florida
    Chairman Rockefeller, Ranking Member Thune, Presiding Member Nelson 
and Members of the Committee:

    Thank you for the opportunity to testify regarding the progress on 
Gulf restoration three years after the Deepwater Horizon oil spill. I 
am Eric Draper, Executive Director of Audubon Florida, the State office 
of the National Audubon Society. With more than 450 chapters across the 
country including 44 in Florida, and more than one million members, 
volunteers and supporters, Audubon has a long history of involvement in 
protecting and restoring the Gulf of Mexico and its coasts.
(A). Impacts of the Deepwater Horizon oil spill in Florida and 
        throughout the Gulf
    Few images are as iconic of the 2010 BP Deepwater Horizon disaster 
as that of birds struggling against oily muck. We now know that 
thousands of birds from dozens of species succumbed to the chemical mix 
during the months when the oil flowed unabated. Many thousands more no 
doubt have been and will continue to be adversely affected. These 
birds, and the Gulf of Mexico's ecosystems, not only were heavily 
impacted by the oil spill, but also have experienced decades of neglect 
and degradation. Available habitats for the birds in the Gulf have 
declined precipitously. Human alteration of the landscape, sea level 
rise, subsidence, reductions in water quality and habitat mismanagement 
have all contributed to a growing crisis.
    In 2010 as the spill occurred, the Florida Legislature was holding 
hearings on a repeal of a longstanding prohibition on drilling in state 
waters. Today, along the western Florida panhandle, erosion events are 
still uncovering oil mats on beaches.
    When recovery efforts got under way in Florida, areas marked with 
postings to protect nesting birds were mistaken as landing zones for 
helicopters or deposition areas for the Coast Guard for storing boom. 
Booms to protect the shoreline broke free and affected marshes on 
shore. These circumstances exacerbated the problems for wildlife 
already caused by the spill. Patrols searching for oil unintentionally 
caused seagrass bed scarring and beaches that previously prohibited 
driving to protect wildlife suddenly had frequent vehicular traffic 
used for monitoring and clean-up efforts. These impacts were made even 
more severe because the spill took place during the nesting season for 
Brown Pelicans, American Oystercatchers, Least Terns, Royal Terns, 
Laughing Gulls, Wilson's and Snowy Plovers and other shorebirds and 
water birds, as well as marine turtles. There existed a heightened risk 
that response to the spill would wreak havoc on nesting areas.
    While some impacts were apparent immediately, we won't know the 
full long-term impacts of the spill for some time, as the effects 
continue to trickle up through the food web. Monitoring the long term 
impacts can be particularly difficult with regard to birds that span 
the hemisphere through migration because the point in their lifecycle 
when effects will be manifested cannot be determined with certainty. As 
a result, much of the conservation work that needs to be done must help 
buffer these populations, addressing the threats we do understand to 
help weather the impacts we can't anticipate or reliably predict.
    The impacts of the Deepwater Horizon oil spill extended to 
Florida's economy, including the tourism and fisheries industries. 
Florida's economic sustainability relies on its $67 billion tourism 
economy \1\, $5.2 billion wildlife viewing economy \2\, and over 
160,000 boating, fish and wildlife-related jobs \3\, Florida fishermen 
catch more than 84 percent of the Nation's supply of grouper, pompano, 
mullet, stone crab, pink shrimp, spiny lobsters and Spanish mackerel, a 
haul totaling more than $200 million annually.\4\ The impact to this 
industry from the oil spill was severe but restoration of Gulf 
ecosystems would likely maintain and enhance current fisheries 
production.\5\ Tourism is at the heart of Florida's economy and images 
of oiled beaches caused a downturn in visitor rates throughout the 
state at the time of the spill and immediately after. A 2011 survey 
conducted by Dun & Bradstreet indicated that the oil spill in the Gulf 
of Mexico had the potential to impact 7.3 million businesses throughout 
Alabama, Florida, Louisiana, Mississippi, and Texas, affecting 34.4 
million employees and $5.2 trillion in sales volume.\6\
---------------------------------------------------------------------------
    \1\ Gulf Coast Ecosystem Restoration Task Force--Appendix B.
    \2\ Florida Fish and Wildlife Conservation Commission (http://
floridabirdingtrail.com/images/pages/wv_economics_report.pdf).
    \3\ National Marine Fisheries Service (www.st.nmfs.noaa.gov/st5/
publication/econ/2008/gulf_ALL_econ.pdf).
    \4\ Gulf oil spill's effects still has seafood industry nervous. 
Craig Pittman, Tampa Bay Times, 4/13/13.
    \5\ Harold F. Upton. The Deepwater Horizon Oil Spill and the Gulf 
of Mexico Fishing Industry. Congressional Research Service. February 
17, 2011.
    \6\ Dun & Bradstreet 2011.
---------------------------------------------------------------------------
(B). Audubon's impact during the Deepwater Horizon oil spill
    When the news of the Deepwater Horizon oil spill became public, 
more than 35,000 people contacted Audubon to volunteer to help clean 
oil off the beaches, monitor beaches for additional oil, and to act as 
bird stewards. While the cleanup was conducted through contractors and 
volunteers were not used, these volunteers did help transport injured 
wildlife and monitor cleanup activities. This eagerness to lend support 
in a time of crisis has created a network bird habitat stewards who 
have continued this work and are strong advocates of restoring the Gulf 
ecosystems. In addition to organizing volunteers, Audubon Florida 
drafted protocols for protecting beach nesting birds and other fragile 
natural resources while undertaking clean-up efforts, which were 
subsequently distributed by the Florida Fish and Wildlife Conservation 
Commission.\7\ The guidelines included the need to leave natural debris 
undisturbed and to use only approved access points.
---------------------------------------------------------------------------
    \7\ http://audubonoffloridanews.org/
index.php?s=safe+tips+for+beach+cleaning&submit.x=0&submit.y=0 (Last 
visited June 3, 2013).
---------------------------------------------------------------------------
(C). Remedies Underway Since the Deepwater Horizon Oil Spill
(1). Natural Resources Damages Assessment
    The Oil Pollution Act authorizes certain Federal agencies, states, 
and Indian tribes--collectively known as natural resource trustees--to 
evaluate the impacts of oil spills, ship groundings, and hazardous 
substance releases on natural resources. After this analysis takes 
place, a workplan is developed to determine restoration activities that 
best benefit the impacted natural resources and in this case, economic 
damages. In Florida, early ecosystem restoration projects have included 
many projects, the most significant of which for conservation have been 
coastal bird management and projects to protect sea turtles. Projects 
to improve the economy and make the coast more resilient have included 
boat ramps and sand dune restoration. Audubon Florida was the 
successful bidder on the Natural Resources Damages Assessment (NRDA) 
project to help manage coastal bird habitat at 19 sites in the Florida 
Panhandle, including posting protected areas for beach nesting birds, 
monitoring, surveying and stewarding these vulnerable sites. 
Stewardship is Audubon's signature management tool for these beach-
dependent species wherein volunteers chaperone colonies on busy warm 
weather weekends, literally intercepting beachgoers before they disturb 
nesting birds, resulting in the death of chicks or eggs and ultimately 
colony failure. This project is slated to span 5 years and has a 
rigorous deliverable schedule. Audubon Florida is contracting with the 
Florida Fish and Wildlife Conservation Commission and Florida 
Department of Environmental Protection to use NRDA funds to monitor and 
manage shorebird nesting sites along Northwest Florida. Audubon's 
biologists work with public lands managers and with volunteers to 
collect data and recommend approaches to stewarding nesting sites. 
These actions help to recover bird habitat that was affected by the 
spill. During the recent Memorial Day weekend the presence of shorebird 
stewards limited, but did not stop all of the damage caused to 
shorebird colonies by human intrusion.
(2). Gulf Ecosystem Restoration Task Force
    The Gulf Ecosystem Restoration Task Force (Task Force) was created 
by Executive Order 13554.\8\ In December 2011, the Task Force released 
its Gulf of Mexico Regional Ecosystem Restoration Strategy.\9\ The 
strategy focused on projects grounded in science that emphasized the 
increasing the resiliency of the Gulf through collaboration among state 
and Federal task force members. Audubon supported the work done by the 
Task Force under the leadership of its Executive Director John 
Hankinson as a scientifically sound and comprehensive approach to Gulf 
restoration. The task force set four overarching goals for Gulf Coast 
restoration and within those goals specified actions requiring 
immediate attention. The Strategy provided a foundation for 
partnerships of communities, states and Federal agencies:
---------------------------------------------------------------------------
    \8\ Executive Order 13554 (President Obama). Establishing the Gulf 
Coast Ecosystem Restoration Task Force. October 5, 2010.
    \9\ http://www.epa.gov/gcertf/pdfs/GulfCoastReport_Full_12-04_508-
1.pdf (Last visited June 4, 2013).

---------------------------------------------------------------------------
  <bullet> Restore and conserve habitat

  <bullet> Restore water quality

  <bullet> Replenish and protect living coastal and marine resources

  <bullet> Enhance community resilience

    The task force's leadership created an essential foundation for the 
important planning work now being undertaken by the RESTORE council 
governing disbursal of key funding from the RESTORE Act.
(3). Funding through the National Fish and Wildlife Foundation
    Oil skimmed from the water during the cleanup was recovered and 
sold. Some proceeds from the sale of the oil were granted to Audubon 
Florida by the National Fish and Wildlife Foundation (NFWF) for the 
purchase of Lanark Reef, a privately held island that hosts the largest 
Brown Pelican nesting site along Florida's Gulf coast. The island also 
provides nesting for other shorebirds and is a major stopover and 
wintering site for migrating birds. NFWF is also responsible for 
distributing funds from a settlement under criminal litigation between 
the U.S. Department of Justice and BP. Lanark Reef is just one example 
of beneficial projects that can be funded through NFWF to restore the 
Gulf. In Florida, NFWF is working closely with our trustees and 
particularly the Florida Fish and Wildlife Conservation commission when 
setting priorities for funding.
(4). The RESTORE Act
    The Resources and Ecosystems Sustainability, Tourist Opportunities 
and Revived Economies of the Gulf Coast States Act of 2012 (RESTORE 
Act) was signed into law on July 6, 2012.\10\ This first of its kind 
legislation establishes the Gulf Coast Ecosystem Restoration Trust Fund 
within the U.S. Treasury that will control 80 percent of Clean Water 
Act Penalties paid by BP. The funds remain until expended and they are 
not subject to appropriations. Those funds will be distributed by a 
formula set in law with:
---------------------------------------------------------------------------
    \10\ Public Law 112-141, Title 1, Subtitle F (2012).

  <bullet> 35 percent equally divided among the five States for 
        ecological restoration, economic development, and tourism 
        promotion. In Florida 75 percent of funds go to the 8 most 
        affected counties, 25 percent of funds go to other coastal 
---------------------------------------------------------------------------
        counties based on an allocation formula;

  <bullet> 30 percent plus interest managed by the Council for 
        ecosystem restoration under the Comprehensive Plan;

  <bullet> 30 percent divided among the States according to a formula 
        to implement State expenditure plans, which require approval of 
        the Council;

  <bullet> 2.5 percent plus interest for the Gulf Coast Ecosystem 
        Restoration Science, Observation, Monitoring and Technology 
        Program within the Department of Commerce's National Oceanic 
        and Atmospheric Administration (NOAA); and

  <bullet> 2.5 percent plus interest allocated to the States for 
        Centers of Excellence Research grants, which will each focus on 
        science, technology, and monitoring related to Gulf 
        restoration.

    It was through the leadership of Senator Bill Nelson and other Gulf 
state Senators that this historic legislation was passed with the goal 
of returning Clean Water Act penalties to the Gulf states for efforts 
at restoring ecosystems and making the region more resilient. A recent 
bipartisan poll conducted by FM3 and Public Opinion Strategies shows 
that three-quarters of Gulf coastal voters (76 percent) favor using the 
money collected from the RESTORE Act primarily for restoration of 
beaches, wildlife habitat, coastal areas, rivers and other waters that 
affect the Gulf Coast. Voters across every major demographic subgroup 
of the electorate indicate a strong preference for using these funds 
for restoration of the Gulf's lands and waters, including solid 
majorities in every state.
a. The Gulf Ecosystem Restoration Council

    The Gulf Ecosystem Restoration Council (Council) has been an 
excellent source of transparent public meetings about potential future 
restoration. The Council's draft plan for restoring the Gulf of Mexico 
has recently been released and is an important step in outlining 
objectives and the criteria for selecting restoration projects in the 
Gulf. Our members are participating in the field hearings. Audubon is 
grateful for the efforts of the Council in putting together this draft 
plan and we look forward to working with the Restoration Council to 
continue developing a comprehensive plan that realizes the vision of 
Congress and supports comprehensive ecosystem restoration.
b. Florida's State Trustees

    Governor Rick Scott represents Florida on the Gulf Coast Ecosystem 
Restoration Council. The Florida Department of Environmental Protection 
and the Florida Fish and Wildlife Commission are responsible for 
service as trustees and for responding to impacts of the Deepwater 
Horizon oil spill along Florida's shoreline. These trustee agencies and 
state emergency management officials continue to coordinate with 
federal, state and local partners to ensure that any continued impacts 
to Florida's coastline are removed quickly and efficiently.
c. Florida's Gulf Consortium

    In Florida, 75 percent of the equal-share allocation of funding 
from the RESTORE Act goes directly to the affected counties. And a 
consortium of local governments will recommend the use of the Impact 
Based Allocation. The Consortium is organized by the Florida 
Association of Counties and has representation from 23 affected 
counties and recently reached an agreement with Governor Rick Scott to 
allow the Governor to appoint additional members to the Consortium who 
will be able to review the final plan. The Consortium intends to 
prepare one plan that will serve as both the Consortium's plan for the 
impact-based State pot and the State plan to be used in the Council's 
decisions. The Consortium is accepting suggestions from the public to 
help develop a scope for the plan.
(D). A Vision for the Gulf
    Audubon is working closely with the Florida Wildlife Federation, 
The Nature Conservancy, the Ocean Conservancy and the National Wildlife 
Federation to support efforts by the Council and state agencies to 
implement a Gulf restoration strategy. Our groups have made the 
following recommendations for all restoration plans:
(1). Environmental Impact
  <bullet> The Florida plan should promote restoration and long-term 
        health and sustainability of coastal habitats, fisheries, 
        marine resources and vulnerable species--restoring natural 
        ecosystem function to the maximum extent possible;

  <bullet> The Florida plan should include regional projects that 
        advance state priorities toward achieving identified 
        restoration goals (e.g., water quality, land protection, living 
        shoreline, bird, sea turtle, and critical fish habitats and 
        populations) that enhance watersheds and estuaries along 
        Florida's Gulf Coast;

  <bullet> The plan should identify land acquisition projects that 
        provide ongoing benefit to the Gulf of Mexico including 
        projects that protect water quality and wildlife habitat, 
        provide the public with new or improved outdoor recreation 
        opportunities, and buffer military bases;

  <bullet> The Florida restoration plan should include a significant 
        marine resource protection focused on fisheries, habitats and 
        wildlife to complement coastal restoration priorities;

  <bullet> No project should be approved for funding that would result 
        in further damage to Gulf ecosystems; and,

  <bullet> Consideration should be given to restoration projects that 
        incorporate strategic retreat from vulnerable coastal areas 
        over those that would place additional infrastructure in 
        hazardous locations.
(2). Fisheries Management
    Strategic investments should be made in scientific efforts that 
provide for long-term sustainability of commercial and recreational 
fisheries. Marine restoration projects involving changes to fisheries 
management or investment in scientific initiatives should involve the 
input of fishermen and aim to maximize long-term sustainability of 
commercial and recreational fisheries and communities that depend on 
healthy resources. Efforts to restore coastal habitats compliment 
efforts to regulate and rebuild fish stocks.
(3). Wildlife Resource Enhancement
    In addition to habitat acquisition, Florida's coastal wildlife 
requires management to restore their populations. RESTORE provides our 
state with an unprecedented opportunity to manage these species for 
population health, buoying the nature-based economies they support 
while diminishing their degree of imperilment and reducing the need for 
regulation. These projects also help ensure the sustainability of 
coastal recreational activities among vulnerable wildlife populations.
(4). Community Resilience
    The extent to which projects reduce the vulnerability of 
communities to hurricanes and other disasters should be considered in 
project selection. Projects that restore and preserve marshes, 
wetlands, reefs and other coastal habitats can provide our best 
approach to mitigate storm surge, erosion and coastal flooding, and 
thereby help reduce insurance costs and disaster relief in the future.
(E). Gulf Restoration Project Recommendations
    For Florida's restoration program to be successful, it is critical 
that a comprehensive, integrated ecosystem approach be the focus that 
strives for results that are greater than the sum of the individual 
projects by addressing everything from the watersheds supporting our 
estuaries, to essential coastal uplands, to the offshore marine 
environment. In Florida, our ecology IS our economy, and we know that 
the integrity of the Gulf and its habitats supports our economic well-
being. Restoration efforts yield huge economic benefits. For example, a 
2010 study conducted by Mather Economics found a greater than 4 to 1 
return on investment in funding for Everglades restoration based on 
benefits that include groundwater purification, real estate, park 
visitation, open space, commercial and recreational fishing and 
hunting, and wildlife habitat.\11\ Other Gulf restoration projects 
would likely yield similar benefits.
---------------------------------------------------------------------------
    \11\ Mather Economics. 2010. Measuring the Economic Benefits of 
America's Everglades Restoration. 
---------------------------------------------------------------------------
    Audubon Florida is focused on projects that protect and restore the 
integrity of the Gulf and its bird populations. Audubon's recommended 
projects in Florida are grouped into five categories:

  <bullet> Large-scale land conservation to protect the watersheds that 
        drain to the Gulf;

  <bullet> Conservation of strategic parcels critical to the protection 
        coastal bird species;

  <bullet> Everglades restoration, to improve the quality, quantity and 
        timing of freshwater inputs to the Gulf including through the 
        Caloosahatchee Estuary and Florida Bay;

  <bullet> Habitat restoration to improve the condition of coastal 
        habitat;

  <bullet> Ongoing resource management and monitoring, because land 
        acquisition alone cannot ensure the persistence of key species 
        and habitat type.
(1). Watershed-Scale Land Conservation
    Whether full or less-than-fee, these willing-seller acquisitions 
have been assembled from the Florida Forever ecological acquisition 
list as well as Federal inholdings and acquisitions to protect the 
integrity of Florida's national wildlife refuges and seashores. In 
addition to protecting wildlife, habitat and water quality, these 
places support vibrant resource-based economies and buffer military 
operations which are of substantial importance to local Panhandle 
economies.

                       Florida Forever Projects Relevant to Gulf Conservation, by County:
----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Bay                  Bear Creek Forest (also                        Leon                 Ayavalla Plantation
                      Calhoun and Gulf)
Bay                  St. Joe Timberland (also                       Levy                 Caber Coastal Connector
                      Franklin, Gulf,
                      Jefferson, Taylor,
                      Wakulla, Walton and 4
                      others)
Bay                  West Bay Preservation                          Levy                 Gulf Hammock
                      area
Charlotte            Charlotte Harbor Estuary                       Manatee              Terra Ceia
                      (also Lee and Sarasota)
Charlotte            Charlotte Harbor                               Monroe               Coupon Bight/Key Deer
                      Flatwoods (also Lee)
Charlotte            Hall Ranch                                     Monroe               Florida Keys Ecosystem
Citrus               Annutelliga Hammock                            Monroe               North Key Largo
                                                                                          Hammocks
Citrus               Florida Springs Coastal                        Okaloosa             Shoal River Buffer
                      Greenway
Citrus               Rainbow River Corridor                         Pasco                Cross Bar/Al Bar Ranch
                      (also Marion)
Collier              Belle Meade                                    Pasco                Green Swamp-
                                                                                          Withlacoochee River
                                                                                          Headwaters (also Lake
                                                                                          and Polk)
Collier              Save Our Everglades                            Polk                 Green Swamp-Peace River
                                                                                          Headwaters
Desoto               Peace River Refuge                             Santa Rosa           Clear Creek/Whiting
                                                                                          Field
Dixie                Lower Suwannee River and                       Santa Rosa           Garcon Ecosystem
                      Gulf Watershed
Escambia             Lower Perdido River                            Santa Rosa           Wolfe Creek Forest
                      Buffer
Escambia             Perdido Pitcher Plant                          Sarasota             Myakka Ranchlands
                      Prairie
Gadsden              Neal Land & Timber                             Taylor               San Pedro Bay (also
                      Apalachicola River                                                  Madison)
                      Corridor (also Liberty
                      and Calhoun)
Gadsden              Ochlockonee River                              Wakulla              Dickerson Bay/Bald
                      Conservation Area (also                                             Point (also Franklin)
                      Leon)
Jackson              Middle Chipola River                           Wakulla              Upper Saint Marks River
                      (also Calhoun)                                                      Corridor (also Leon
                                                                                          and Jefferson)
Jackson              Apalachicola River (also                       Wakulla              Wakulla Springs
                      Gadsden, Liberty and                                                Protection Zone (also
                      Calhoun counties)                                                   Leon)
Jefferson            Wacissa/Aucilla River                          Washington           Sand Mountain Econfina
                      Sinks                                                               Creek Watershed (also
                                                                                          Bay)
Jefferson            West Aucilla River                             Walton               Seven Runs Creek
                      Buffer
Lee                  Corkscrew Regional                             Walton               South Walton County
                      Ecosystem Watershed                                                 Ecosystem
                      (also Collier)
Lee                  Estero Bay                                     Walton               Upper Shoal River
----------------------------------------------------------------------------------------------------------------

(2). Additions, Inholdings, or Complements to Federal Lands
    St Vincent National Wildlife Refuge: St. Vincent Sound to Lake 
Wimico Ecosystem (Gulf and Franklin counties): The 40,000 acres south 
of Lake Wimico known as the St. Vincent Sound to Lake Wimico Ecosystem 
would afford water quality and quantity benefits to the Lake, as well 
as Apalachicola and St. Joseph bays and St. Vincent Sound, buffering 
ABNEER, Aquatic Preserve and public landscapes.
    St. Marks National Wildlife Refuge: In addition to the Upper St. 
Marks River Corridor Florida Forever project, there are an additional 
four tracts that would help protect the Refuge and Apalachee Bay 
watershed:

  <bullet> Sam Shine Tract (Wakulla County) 8,117 acres

  <bullet> Five Smooth Stones Tract (Wakulla County) 930-acre easement

  <bullet> JLT Tract (Wakulla County) 1,230-acre easement

  <bullet> The Nature Conservancy Tract (Jefferson and Wakulla 
        Counties), 7,699 acres

    Strategic River & Bay Watersheds--DOD NW Florida Coastal Base 
Missions Knight Family Trust Choctawhatchee River and Bay Watershed 
(Washington County): This proposed 40,000-acre easement would complete 
the riparian public lands conservation corridor from Alabama to 
Choctawhatchee Bay, and preserve sandhill aquifer recharge areas 
feeding springs and major creek headwaters for both Choctawhatchee and 
St Andrews Bays.
(3). Everglades Restoration
    Tamiami Trail Next Steps project (Miami-Dade): Bridging Tamiami 
Trail will remove the barriers to sheetflow that have dissected 
Sharkriver Slough. This slough historically began north of Tamiami 
Trail and continued all the way to the 10,000 islands region along the 
Gulf coast. Reconnecting this natural pattern and hydrating this region 
of the Gulf coast will prevent further salt water intrusion and improve 
habitat in this mangrove labyrinth.
    C-43 Caloosahatchee Storage Reservoir (Lee): When Lake Okeechobee 
reaches high levels, large pulses of nutrient-rich freshwater are 
released to the east and west of the Lake and out to coastal estuaries, 
often resulting in a drought during dry years because of lack of 
storage capacity. This reservoir will provide storage in wet years to 
prevent discharges and a source of water during droughts or to be 
released during disasters. This benefits the estuary that is home to 
nearly 40 percent of Florida's rare, threatened and endangered species.
    Cape Sable Canal Filling (Monroe): Twentieth century canals dredged 
through the marl ridge of Cape Sable exposed the cape's interior 
marshes and lakes to Florida Bay and the Gulf of Mexico. Incoming tides 
now push marine waters and sediments inland, increasing salinity and 
transporting sediments to lakes and marshes. Outgoing tides drain 
freshwater from marshes north of the marl ridge and transport sediments 
toward Lake Ingraham and Florida Bay, resulting in a substantial loss 
of coastal habitat. The expansion of these canals has exacerbated 
sediment deposition in the cape's open waters and is converting Lake 
Ingraham into a tidal mud flat. Plugging House Ditch, Slagle's Ditch 
and the Raulerson Brothers Canal will restrict tidal flow into the 
interior marsh, protecting it from further erosion, and reducing open 
water sedimentation.
(4). Strategic Bird Habitat Acquisitions and Habitat Restoration 
        Projects
    A handful of private coastal sites have substantial importance to 
imperiled beach-dependent bird species. Acquisition of the following 
sites would be strategic, if willing sellers can be identified:

        Big Sabine, Escambia County: This University of West Florida 
        inholding in Gulf Islands National Seashore on Santa Rosa 
        Island has been proposed for development in the last year. Its 
        high quality habitats would be better and more economically 
        managed if conveyed or acquired and added to the National 
        Seashore.

        Shell Island, Bay County: Much of this barrier island is held 
        by Tyndall Air Force Base and St. Andrews State Park, and is of 
        vital importance to nesting, beach-dependent birds, especially 
        state threatened Snowy Plovers. Platted but undeveloped lots 
        present challenges to management of the island; their 
        acquisition would help make management more economical and 
        effective.

        Smith Island, Wakulla County: This private inholding in St. 
        Marks National Wildlife Refuge hosts substantial numbers of 
        breeding pelicans and other waterbirds. Acquisition and 
        conveyance to the National Wildlife Refuge would ensure its 
        future for these species.

        Hunter Property, Pinellas County: Acquisition of this private 
        parcel on the southern boundary of Honeymoon Island State Park 
        would help buffer the park and its beach-nesting birds from use 
        to the south.

    Habitat restoration projects include:

        Alafia Banks Restoration (Hillsborough): Storms and ship wakes 
        have eroded these waterbird rookery islands in Hillsborough 
        Bay, jeopardizing habitat for the sanctuary's thousands of 
        nesting pairs of 18 waterbird species. While 1,675 feet of 
        erosion control structures have already been installed, another 
        5,125 feet are needed to protect this Globally Important Bird 
        Area.

        Greater Tampa Bay Rookery Island Restorations (Hillsborough, 
        Pinellas and Manatee): A total of 3,250 feet of reef balls and/
        or wave attenuation devices are needed to stave off the 
        catastrophic erosion of the following waterbird rookeries in 
        West Central Florida: Dogleg Key, Sand Key Dune on West Bird 
        Island, Dot Dash Bird Islands and Cortez Key Bird Sanctuary.
(5). Resource Monitoring and Management
    Coastal Bird Perpetual Management Fund (Gulf-wide): The 
establishment of a coastal bird adaptive management investment trust 
fund, along with an accepted safe withdrawal rate, will provide long-
term support for conservation strategies critical to long-term recovery 
of coastal bird populations. These include robust survey and monitoring 
efforts, posting nesting areas, predator control, and stewarding 
efforts to reduce disturbance. An investment trust fund of $150-$175M 
Gulf-wide could provide $4.5-$7M annually to supplement ongoing 
management and monitoring efforts.
    Panhandle Watershed Monitoring: While the bays of Florida's 
peninsular Gulf Coast have the benefit of National Estuary Programs to 
monitor their health and coordinate restoration, the bays of the 
Panhandle have less coordinated support. As a result, volunteer 
partnerships have emerged around the Pensacola Bay, Choctawhatchee and 
St. Andrews basins, to monitor and safeguard watershed health. Funding 
support for long-term, coordinated and professionalized monitoring is 
essential to not only measure restoration progress, but determine the 
baselines still lacking for many Panhandle waters.
(F). Conclusion
    Audubon is encouraging decision-makers to think like investors in 
the long-term sustainability of our coastal ecosystems. By implication 
that means investment in the economy, since the two are inextricable. 
The committee and Congress can encourage that long-term thinking. We 
will live with the impact of the spill for a long time, we need to make 
sure that penalties are used in a long-term way. A final and good 
example is Florida's Big Bend coast. The working forests between the St 
Vincent--St Marks and Lower Suwannee River National Wildlife Refuges 
have long fed our pulp and paper mills, provided jobs and been 
ecologically and hydrologically significant to fish and wildlife and 
estuarine habitats, both freshwater and estuarine. The Apalachicola, 
which suffers from reduced water flows, provides an example of why we 
should protect upstream freshwater resources. Funds spent on 
sustainable land uses upstream of our coastal estuaries may be the most 
important long-term investment. The southern pine forests that still 
inhabit so much land along the coast are part of what makes for fishing 
and ecotourism economies downstream.
    On behalf of the Audubon family and our Gulf-based members and 
conservation colleagues, I greatly appreciate your consideration of our 
views.

    Senator Nelson. Thank you, Mr. Draper.
    Dr. Polasky, we welcome your expertise.

          STATEMENT OF STEPHEN POLASKY, FESLER-LAMPERT

        PROFESSOR OF ECOLOGICAL/ENVIRONMENTAL ECONOMICS,

                    UNIVERSITY OF MINNESOTA

    Mr. Polasky. Thank you very much, Senator Nelson.
    I have recently served on a National Research Council 
committee on impacts of the oil spill on the Gulf, but just to 
make clear, the views I am going to say are my own and not 
necessarily those of the Committee. But I very much appreciate 
the opportunity to speak here today.
    The Gulf of Mexico is an asset of tremendous value. It 
supports a multibillion-dollar tourism and recreation industry, 
provides a large fraction of the Nation's seafood, oil, and 
natural gas, and many other benefits.
    However, the benefits generated by the Gulf of Mexico are 
currently at risk. Like careless investors who have failed to 
maintain vital plants and equipment, societal actions have 
degraded the natural capital of the Gulf, with negative impacts 
on the benefits it provides.
    Now we have the chance to set things right. Under the 
RESTORE Act, we can reinvest in nature to ensure the recovery 
of the Gulf of Mexico so that it continues to provide benefits 
to current and future generations.
    The Deepwater Horizon oil spill just over 3 years ago was 
the largest oil spill in U.S. history and led to fishery 
closures, oiling of coastal marshes, and declines in tourism. 
The oil spill showed in dramatic fashion the degree to which 
the health of the region, its economy, and community vitality 
are dependent on a healthy environment.
    But environmental degradation in the Gulf is also the 
result of actions spanning decades. Human actions have vastly 
increased the flow of nutrients carried by the Mississippi 
River to the Gulf, leading to the formation of a large dead 
zone with little oxygen to support fish and other marine life. 
Navigation and flood-control projects have fixed the 
Mississippi River in its current path and channel large 
sediment loads out through the delta into the relatively deep 
waters of the Gulf, depriving coastal marshes of inflow of 
sediment and leading to erosion of those marshes.
    For all of the damage and stress caused by the Deepwater 
Horizon oil spill, the oil spill has also led to an opportunity 
to reverse decades of decline in the Gulf of Mexico. The 
RESTORE Act provides much-needed capital for reinvestment in 
the Gulf. Wise investment of these funds will help ensure a 
recovery of the Gulf so that it continues to provide benefits 
to current and future generations.
    Investing in the Gulf most closely resembles investing in 
infrastructure, in that it provides basic conditions under 
which it is possible to derive multiple benefits, much like 
building roads or ports allow many businesses to thrive.
    For example, consider investments in the restoration of 
oyster reefs. Oyster reef restoration provides a number of 
benefits, including increased harvest of fish and shellfish 
that rely on oyster reefs for food or shelter, improvements in 
water quality, coastline protection from erosion and flooding 
from storms, as well as providing a harvestable supply of 
oysters and larvae that can be used to seed other areas.
    While there are sometimes data gaps and other technical 
issues, ballpark estimates of values for these benefits can be 
generated. Though it can be difficult to get a complete and 
accurate accounting of all the benefits of restoring natural 
capital, even a partial accounting can show that the benefits 
of investing in nature far outweigh the costs.
    The RESTORE Act provides a rare opportunity to invest in 
nature and revitalize the Gulf Coast, reversing decades of 
neglect and the impacts of the oil spill. Investing wisely will 
bring numerous valuable benefits to people living along the 
Gulf Coast and the American public more generally. Making wise 
investments requires clear thinking, good science, evidence on 
what works, clear rules to guide investments, and strong 
leadership.
    Investing in nature is not simply about making the 
environment whole; it is also about making the American public 
whole. Wise investments in nature will result in repayment many 
times over for current and future generations. And we need to 
do everything we can to ensure that we make wise investments on 
behalf of the American people.
    Thank you very much.
    [The prepared statement of Mr. Polasky follows:]

  Prepared Statement of Stephen Polasky, Fesler-Lampert Professor of 
      Ecological/Environmental Economics, University of Minnesota
     ``Restoring Nature's Benefits provided by the Gulf of Mexico''

    For the past several years, I have had the privilege of serving on 
a National Research Council Committee analyzing the Effects of the 
Deepwater Horizon Mississippi Canyon-252 Oil Spill on Ecosystem 
Services in the Gulf of Mexico. My views on restoration in the Gulf 
have been shaped by the rich dialog that has occurred in Committee 
deliberations. The views expressed in this testimony, however, are my 
own and do not represent the official views of the Committee.
    The Gulf of Mexico is an asset of tremendous value to the 22 
million residents of Gulf Coast and to the American public at large. 
The Gulf of Mexico supplies numerous benefits including a large 
fraction of the total value of fisheries in the US, beaches and other 
recreational opportunities that support a multi-billion dollar tourism 
and recreation industry, and approximately 30 percent of the oil and 20 
percent of the natural gas produced in the US. Intact coastal 
ecosystems, such as mangroves and coastal marshes, also provide vital 
protection for coastal communities and infrastructure from storm surge 
generated by hurricanes and tropical storms in the Gulf.
    The benefits generated by the Gulf of Mexico are currently at risk. 
Like careless investors who have failed to maintain vital plant and 
equipment and see a subsequent decline in productivity of their assets, 
societal actions have degraded the natural capital of the Gulf with 
negative impacts on the benefits it provides. Some of the degradation 
is the result of chronic long-term abuse. Human actions have vastly 
increased the flow of nutrients carried by the Mississippi River to the 
Gulf. This increase in nutrients has lead to massive algae blooms. When 
the algae die, their decomposition consumes oxygen in the water leading 
to a large hypoxic zone with too little oxygen to support fish and 
other marine life. In previous times the Mississippi River periodically 
flooded sending silt and sediment laden waters through coastal 
wetlands. But navigation and flood control projects have fixed the 
Mississippi River in its current path to the sea and channeled the 
large sediment load of the river out through the Mississippi River 
Delta into relatively deep waters of the Gulf. Deprived of the inflow 
of sediments, the coastal wetlands of Louisiana have receded. It is 
estimated that there has been a net loss of approximately 1,850 square 
miles of wetlands. To put this loss in context, there are currently 
less than 10,000 square miles of coastal wetlands remaining so this 
represents a relatively large percentage loss of wetlands.
    The Deepwater Horizon oil spill in April 2010, the largest oil 
spill in U.S. history, occurred on top of these chronic long-term 
impacts. The oil spill led to fishery closures, the oiling of 1100 
linear miles of coastal marshes, and a major decline in tourism. The 
oil spill caused severe stress both on the environment and on Gulf 
Coast communities reliant on fisheries and tourism. The oil spill 
showed in dramatic fashion the degree to which the health of the 
region's economy and community vitality are dependent on a healthy 
environment.
    The worst impacts of the oil spill proved to be relatively short-
lived. After a very tough year in 2010, by 2011 fisheries had reopened 
and tourists had returned. The ecosystems of the Gulf of Mexico, like 
its people, have proven to be resilient. But the long-term toll from 
both the acute damage of the oil spill and the chronic damages of other 
environmental changes is not yet fully known.
    For all of the damage and stress caused by the Deepwater Horizon 
oil spill, the oil spill has also led to an opportunity to reverse 
decades of decline in the Gulf of Mexico. The Resources and Ecosystems 
Sustainability, Tourist Opportunities, and Revived Economies of the 
Gulf Coast States Act (RESTORE Act) passed by Congress in 2012 provides 
a once-in-a-lifetime opportunity to reinvest in the natural capital of 
the Gulf of Mexico. If we are good investors of the funds available 
under the RESTORE Act we can ensure recovery of the Gulf of Mexico so 
that it continues to provide benefits to current and future 
generations. It is important to emphasize that restoration efforts are 
good not only for environment but for lives of people who depend on a 
healthy Gulf of Mexico. Done well, these investments in restoring the 
natural capital of the Gulf will offer a high rate of return with 
benefits that far exceed the cost of investment.
    Investing in restoring nature capital is not exactly the same as 
other more common forms of investment but there are many similarities. 
As with other forms of investment, the rate of return on investment 
depends on both the increase in the value of benefits generated by the 
investment and the cost of the investment. So, for example, the rate of 
return on investing in restoring coastal marsh can be found by 
calculating the increase in value from fishery productivity, coastal 
protection, and other benefits attributable to marsh restoration, 
divided by restoration cost. Restoring a healthy functioning ecosystem, 
such as a coastal marsh, makes it possible to improve performance in 
multiple dimensions (e.g., fishery productivity, coastal protection, 
recreation). Investing in nature often most closely resembles investing 
in infrastructure in that it provides the basic conditions under which 
it is possible to derive multiple benefits, much like the building of 
roads or ports allows many businesses to thrive. In the case of 
investments in natural capital, however, it can, be difficult to link 
particular actions to particular results because of the complexity of 
large interconnected systems like the Gulf of Mexico. For example, the 
restoration of coastal marshes may have a positive influence on fishery 
productivity but this affect may be difficult to detect given changes 
in ocean conditions or freshwater inflow and nutrients caused by 
rainfall patterns hundreds of miles inland.
    Attempting to estimate rates of return on investments in natural 
capital requires knowledge about how people benefit from nature and the 
likely impacts of any investment on the performance of natural systems. 
To better understand what is involved in calculating a rate of return 
for investing in natural capital, consider the example of investing in 
oyster reef restoration. Oyster reefs have been in significant decline 
in the Gulf and around the world. Oyster reefs are estimated to have 
declined globally by 85 percent. The Nature Conservancy recently led an 
effort to restore oyster reefs along portions of the Gulf Coast 
including a major effort in Mobile Bay. Oyster reef restoration 
provides a number of benefits including increased harvest of fish and 
shellfish that rely on oyster reefs for food or shelter, improvements 
in water quality from removal of nitrogen in water that leads to algal 
blooms and hypoxia, coastline protection from erosion and flooding from 
storms, as well as providing a harvestable supply of oysters and larvae 
that can be used to seed others areas. The majority of the value of the 
benefits of oyster reef restoration in Mobile Bay is due to increased 
coastal protection. The value of increased coastal protection provided 
by oyster reefs can be estimated either by calculating what it would 
cost to build bulkheads or other infrastructure that would provide the 
same degree of protection (called ``replacement cost'') or by 
calculating the degree to which oyster reefs would lead to diminished 
erosion and flooding and the reduction in damage to coastal properties 
that would result (called ``avoided damage''). The contribution of the 
oyster reef in terms of fish and shellfish production requires 
estimating the increased productivity of various fish and shellfish 
fisheries along the net revenue from harvest. While there are sometimes 
data gaps and other technical issues, ballpark estimates of value for 
all of these benefits can be generated. Other benefits, however, such 
as the value of improved water quality, which are no doubt of great 
value to Gulf Coast communities, present more difficult challenges for 
estimating benefits in monetary terms.
    In general, it is difficult to get a complete accurate accounting 
of all of the benefits of restoring natural capital. But often a 
complete accounting is not necessary to know that investing in natural 
capital is a good idea. Even a partial accounting can show that the 
benefits of investing in nature far outweigh the costs.
    There are two other issues regarding restoring the natural capital 
in the Gulf region: a) the distribution of benefits from restoring 
natural capital, and b) restoring resiliency. First, while everyone is 
for restoring the Gulf in general, there are likely to be disagreements 
about specific investment plans (``the devil is in the details''). 
Restoration at particular locations along the Gulf Coast will generate 
benefits to specific groups and not others. For example, restoring 
oyster reefs in Mobile Bay will generate benefits for communities in 
and around Mobile Bay but may do little to help communities elsewhere. 
There is a danger that the whole restoration process could get bogged 
down in disputes over distribution of benefits. It is important for the 
restoration process to get agreement up front, before restoration 
activities begin in earnest, on rules for ranking high priority 
investments as well as transparent guidelines for carrying out 
investments.
    Second, the Gulf of Mexico is subject to natural disturbances, such 
hurricanes, as well as human-caused disturbances, such as oil spills. 
Hurricanes, oil spills and other disturbances often result in the 
disruption of the flow of benefits (e.g., loss of fishery 
productivity). Resilient systems are able to absorb disturbances and 
recover. Loss of resilience may lead to collapse of important system 
processes and make the system more susceptible to future losses of 
important benefits. Investing in restoration of natural capital will 
likely increase resilience and reduce the probability of sudden 
declines in benefits, like loss of oyster beds or fish stocks, with 
future disturbances.
    The RESTORE Act provides a rare opportunity to invest in nature and 
revitalize the Gulf Coast, reversing decades of neglect and the impacts 
of the oil spill. Investing wisely will bring numerous valuable 
benefits to people living along the Gulf and the American public more 
generally. Making wise investments requires clear thinking, good 
science and evidence on what works, clear rules to guide investment, 
and strong leadership. Investing in nature is not simply about making 
the environment whole. It is about making the American public whole. 
Wise investments in nature will result in repayment many times over for 
current and future generations. We need to do everything we can to 
insure that we make wise investments on behalf of the American people.

    Senator Nelson. Doctor, how big is that dead zone out in 
the Gulf?
    Mr. Polasky. It is a very large area. It depends year to 
year, depending on the inflow of nutrients coming down from 
states like my own. But it has in recent years been generally 
tending to be growing in size. At times it stretches most of 
the area off the state of Louisiana.
    Senator Nelson. That large?
    Mr. Polasky. It has been a large area. I wish I had the 
exact figures of the square mileage, but it is a large area.
    Senator Nelson. How far out does it go?
    Mr. Polasky. It tends to be in the, you know, kind of the 
shelf area and not go too far out into the main part of the 
Gulf. But it is a sizable area right off the coast.
    Senator Nelson. So the shrimpers in Louisiana would have to 
go out far enough to get beyond the dead zone?
    Mr. Polasky. Yes. They have to go much further from port to 
go and get the fish or the shellfish.
    Senator Nelson. How does the dead zone affect the bays and 
the food chain in the bays?
    Mr. Polasky. The dead zone is largely further out from--not 
quite so much in the bays. That tends to be where it is. But 
certainly the flow of nutrients and the change in the flow of 
sediments has clearly affected what it is going on in the bays 
in Louisiana and elsewhere.
    Senator Nelson. So when you combine the dead zone with what 
is already going on because of the oil that came into the bays 
like Barataria, then you have a double problem.
    Mr. Polasky. Yes, it really is a double whammy. And that is 
one of the things that makes it difficult--you know, the NRDA 
people have a tough task, because understanding, you know, this 
has added insult onto injury.
    And so what is the effect of the oil spill, what is the 
effect of ongoing actions that we have taken, starving the 
sediment, the flow of nutrients, and so forth. It is a combined 
problem.
    Senator Nelson. What has happened over the years with so 
much of Louisiana's coastline being eroded that would then 
throw in a triple threat on the ecology of the area off of 
Louisiana?
    Mr. Polasky. So the starving of sediment has resulted in 
approximately a 20 percent reduction in coastal wetlands in 
Louisiana, about 1,800 square miles of wetlands. That is 
obviously of great importance for fish habitat, for the 
ecology, but it is also of great importance for the people of 
Louisiana. This is an important coastal protection zone, if you 
will, for storms for people who live further inland.
    Senator Nelson. You are further in, Ms. Fisher, from this 
coastal evaporation that has occurred, but are you seeing any 
of this in Mississippi?
    Ms. Fisher. Yes, sir, absolutely. In western Mississippi, 
Hancock County, and as we go eastward, we have had coastal 
erosion. And, actually, one of our early restoration projects 
that is out for public comment now, where we are partnering 
with NOAA, is that living shoreline project that is in part to 
address some of our erosion in Hancock County.
    And to, if I could, just expand a little bit on the hypoxic 
zone, it also goes over eastward toward Mississippi. And we 
also have nutrient runoff all across the Gulf states from the 
rivers; it is not just the Mississippi River. And we will have 
hypoxic zones, little dead zones, that will come up throughout 
the summer in some years all across the Gulf of Mexico. So it 
is a compounded problem on the hypoxia, as well.
    Senator Nelson. Mr. Draper, would you state for the record 
and the Committee, when you start to influence a part of the 
food chain, how that can ripple through all the critters in the 
Gulf?
    Mr. Draper. Thank you, Senator Nelson.
    I think that your example of the killifish is an excellent 
one, which is you could have a chemical accumulate within that 
particular fish and then would be taken up by the fish that eat 
those.
    The killifish are the base of the food chain for a number 
of predatory fish, from tarpon to snook to lungfish, you know, 
the range of migratory fish that go through the Gulf of Mexico. 
And the same thing with the bird species; there are everything 
from least terns to pelicans preying on those fish.
    So, of course, what we know about chemicals, they do tend 
to store in fatty tissue of animals and can ultimately be taken 
up by humans also.
    Senator Nelson. And what might be the effect of oil that is 
still in existence down deep near the wellhead 5,000 feet 
below?
    Mr. Draper. As we know, in Florida, we continue to see on 
our beaches reports of oil washing up still. And some of that 
is of course breaking loose from the bottom, but, also, with 
erosion that occasionally happens with the dynamic shorelines, 
great mats of oil are being revealed on the beaches themselves.
    So I would expect that we will continue to see a negative 
impact from the oil on the food chain and on animals and people 
for years to come.
    Senator Nelson. Do you have any evidence that the bacteria 
in the Gulf that gobble up oil, that those bacteria are able to 
do that as deep as 5,000 feet?
    Mr. Draper. I don't have expertise on that, Senator. Sorry.
    Senator Nelson. Professor, do you have--you are an 
economics professor.
    [Laughter.]
    Mr. Polasky. I think that says it.
    [Laughter.]
    Mr. Polasky. One of the things, though, on the Committee 
is, we did look at the effects into the deep Gulf, and it is an 
area where we really don't know what the effects are.
    Senator Nelson. Mr. Mayor, are you satisfied that the money 
that is indicated that is supposed to flow through the formula 
in the RESTORE Act is going to get to the local counties as it 
was intended?
    Mr. Neugent. Thank you, Senator Nelson.
    We are never satisfied with how quickly it flows. It never 
seems to flow quick enough. And, of course, we sit in waiting 
for that money to start flowing.
    However, I have to compliment the members representing the 
23 counties of the consortium. We have worked very closely 
together and unanimously on all votes. It is amazing how 23 
Gulf Coast counties can come together and stay focused on this 
effort.
    And we have been working closely with the state, the 
Governor, and the agencies. I think just the other day a 
Memorandum of Understanding was signed by the Governor that 
makes us feel a lot more comfortable in working together with 
the state and with the Governor on addressing these issues.
    And some of the other things that concern us very much are 
the rules from Treasury that we hope will streamline the 
process and will also recognize that we are funding presently 
out of our own pockets this process. And it is expensive, and 
we have some counties who are fiscally constrained with funds 
in the state of Florida.
    So we feel good, but we could feel a lot better. And we 
certainly appreciate your focus and understanding of this 
process.
    Senator Nelson. Under the Memorandum that you just 
referenced, what is the state's role in selecting projects?
    Mr. Neugent. Well, we recently were asked to submit 
projects to DEP, the Department of Environmental Protection. 
And those projects have been submitted to address the pot 
number two, the Federal pot. And so we have established, along 
with other counties who are presently establishing local 
committees. But the funding issues certainly will remain an 
issue amongst the counties.
    And, of course, that Memorandum of Understanding with the 
state is something that is very crucial to help create that 
flow of funds and address those particular projects that we are 
submitting.
    Senator Nelson. In your consortium of 23 counties, you are 
going to put together a planning document. Is that under way, 
or what is the time?
    Mr. Neugent. It is under way. The timing, I am not exactly 
sure when that will happen. We are meeting on a regular basis. 
Approximately every 2 months, we get together and discuss the 
particular issues. Doug Darling, our executive director, and 
working through the Florida Association of Counties, has been 
very productive for us to continue moving forward. And we try 
to move forward based upon information that we get back from 
both the Federal level and the state level.
    And I would like to compliment your staff, Senator Nelson. 
They have been more than helpful working with all 23 counties 
in the state of Florida.
    Senator Nelson. Well, I want to thank all of you. I want to 
thank the first panel that is still here, and I want to thank 
the second panel.
    This is most enlightening testimony. It is necessary 
testimony as we implement the RESTORE Act to try to get to, 
ultimately, restoration of the Gulf. Thank you.
    The hearing is adjourned.
    [Whereupon, at 12:41 p.m., the hearing was adjourned.]
                            A P P E N D I X

                   Gulf Coast Ecosystem Restoration Council
                                        Washington, DC, May 1, 2013

Dear Council Members,

    On behalf of our millions of members, we thank you for your 
commitment and your considerable ongoing work to help restore the 
environment and economy of the Gulf Coast region. Our organizations 
supported enactment of the RESTORE Act because of the unprecedented 
opportunity the Act presented to build a healthy Gulf ecosystem through 
environmental restoration projects, a need that grows more urgent each 
day. Given the extent to which the region's communities, industries and 
economies rely on a clean and healthy environment, environmental 
restoration projects are vital to restoring the economy and to 
protecting and enhancing the diverse natural resources of this unique 
and irreplaceable ecosystem.
    In allocating fines paid under the Clean Water Act and specifying 
the ways in which the funds would be expended, Congress sought to 
balance the interests of the five Gulf Coast States and to ensure that 
the expenditures as a whole would address both the environment and 
economy of the region. With the trial still underway and further 
proceedings to follow, we of course do not know the total amount of 
funds that will be available to promote the goals established by 
Congress. We expect the amount to be sufficient to undertake 
significant projects in all five Gulf Coast States that should 
ultimately benefit the environment and economy of the entire region. We 
are also encouraged that the Council acknowledged in the Path Forward 
to Restoring the Gulf Coast that it will follow Congress' carefully 
crafted direction to fund these projects within the different explicit 
allocations in the statute.
    Because the Comprehensive Plan, by statute, is to focus on 
environmental restoration projects, we write to provide our suggestions 
on activities that will make the greatest difference to the Gulf 
ecosystem. As you consider how best to ``restore and protect the 
natural resources, ecosystems, fisheries, marine and wildlife habitats, 
beaches and coastal wetlands of the Gulf Coast region,'' our 
organizations believe that you should focus first and foremost on major 
restoration investments in the Mississippi River Delta. Given the 
central importance of these resources to the overall health of the 
Gulf, and to economic activity regionally and nationally, we believe 
that, using best available science, an early start on a major 
Mississippi River diversion and acceleration of barrier island renewal 
in the Delta are necessary cornerstones of an effective Gulf-wide 
response to which we can all commit. Because restoration plans for the 
Delta are well-developed, they also provide a helpful framework for 
initiatives the Council considers in the other Gulf Coast States.
    We appreciate the opportunity to provide the attached 
recommendations for consideration by the Council. Our recommendations 
focus on four areas: (1) Gulf-wide project prioritization criteria; (2) 
recommended projects in Louisiana, consistent with that State's Coastal 
Master Plan, that meet these criteria; (3) Council processes for 
project implementation; and (4) science integration.
    The people of the Gulf are counting on meaningful environmental 
restoration to safeguard the natural resources on which they depend and 
to ensure a strong and healthy economy, now and for generations to 
come. We believe the attached recommendations will advance your efforts 
to secure that positive future, and we look forward to working with the 
Council to provide further perspective and assistance.\1\
---------------------------------------------------------------------------
    \1\ Several of our groups are also members of the Gulf Renewal 
Partnership, which will also provide comments on the Path Forward and 
recommendations to the Council on the development of its Draft 
Comprehensive Plan. We wholeheartedly endorse those recommendations in 
addition to these submitted on behalf of the Mississippi River Delta 
Coalition.
---------------------------------------------------------------------------
            Sincerely,
                                   National Audubon Society
                     Coalition to Restore Coastal Louisiana
                                 Environmental Defense Fund
                        Lake Pontchartrain Basin Foundation
                               National Wildlife Federation
                                 ______
                                 
I. Introduction
    We represent a coalition of environmental groups that have worked 
for decades to restore the Mississippi River Delta. As the Gulf Coast 
Ecosystem Task Force recognized in its 2011 strategy, the Mississippi 
River is a driving force behind a sustainable Gulf Coast ecosystem. 
Sediment carried by the Mississippi River built Louisiana's productive 
wetlands, which are essential to the health of the Gulf ecosystem. 
However, river management decisions that prioritized flood protection 
and navigation have cut the river off from its delta, dooming existing 
wetlands and largely stopping the cycle of new wetlands growth. Indeed, 
Louisiana's coast, an area with great natural land building potential, 
experiences 80 percent of the Nation's annual coastal wetland loss and 
loses land at a rate comparable to a football field per hour. This 
vital and already compromised resource experienced hundreds of miles 
oiled shoreline and marsh from the Deepwater Horizon spill and, thus, a 
full environmental restoration response must be a clear and overarching 
priority.
    Given the Delta ecosystem crisis, we recommend urgent action on 
projects that will stem land loss and restore wetlands in the Louisiana 
Coastal Area and the Mississippi Delta, particularly those that use 
sediment brought in by the rivers or from offshore. Most of those 
restoration actions are already fully authorized under the Water 
Resources Development Act of 2007, enjoy broad public support, and have 
been vetted by scientists and lawmakers for decades. Now is the time to 
move beyond study of this system and provide clear guidance on 
respective state and Federal actions. Simply put, we have no time to 
spare in averting the systematic collapse of the Mississippi River 
Delta.
    Below, we provide detailed recommendations on how to advance 
restoration of the Mississippi River Delta given the RESTORE Act's 
requirements. Specifically, we recommend that the Council implement 
river reintroduction projects (i.e., diversions) that would provide 
sediment to rebuild, restore, and nourish areas where wetlands have 
been lost and will help to sustain areas where wetlands will be created 
or restored. Strategic use of sediments for land building will result 
in long-term benefits to those living in the delta by buffering storm 
impacts and increasing the resiliency of wetlands in the face of sea-
level rise. The Council should also consider wetland and barrier island 
restoration projects that provide an opportunity to increase habitat 
productivity and strengthen the overall resilience of the Gulf Coast.
II. Project Prioritization Criteria and Recommended Projects
    The RESTORE Act mandates that the Comprehensive Plan focus on 
ecosystem restoration and requires that all decisions, including 
projects funded by section (t)(3)(B)(i) of the law, must be prioritized 
based on science. As confirmed by the Senate Environment and Public 
Works
    Committee report (pages 10 and 11), the Council's 30 percent 
allocation shall be disbursed to the Council for projects to ``restore 
and protect the natural resources, ecosystems, fisheries, marine and 
wildlife habitats, beaches, and coastal wetlands of the Gulf Coast 
region.'' \2\ Under section (t)(2)(D)(ii)(IV), the initial 
Comprehensive Plan must contain certain specified contents, including 
provisions to incorporate recommendations by the President's Gulf Coast 
Ecosystem Task Force; a list of authorized Federal projects that 
advance the RESTORE Act goals; and a three year project and program 
list, including a table showing the distribution of projects and 
programs in all five Gulf Coast States.
---------------------------------------------------------------------------
    \2\ (t)(2)(D)(i)(I)
---------------------------------------------------------------------------
    We think it is important to stress that section 
(t)(2)(D)(ii)(IV)(bb) refers only to federally authorized projects, not 
previously approved state projects. By so limiting the language, 
Congress wanted to ensure that projects would be listed only if they 
had received prior Congressional approval. For example, the State of 
Louisiana and Federal partners have worked for nearly a decade 
developing federally authorized Louisiana Coastal Area projects, 
through the Water Resources Development Act of 2007. By contrast, 
Congress made clear that projects contained in Gulf Coast State 
comprehensive plans should be evaluated for inclusion on the separate 
three-year priority project and program list, subject to available 
funding.
    Under section (t)(2)(D)(iii), the Council must establish priorities 
for funding based on the best available science. The four criteria for 
project prioritization are, in summary, (1) Projects that are projected 
to make the greatest contribution to the Gulf ecosystem; (2) Large-
scale projects and programs that are projected to substantially 
contribute to the Gulf ecosystem; (3) Projects contained in existing 
Gulf Coast State comprehensive ecosystem plans; and (4) Projects that 
restore long-term resiliency of Gulf natural resources.
    It is critical to the success of the Comprehensive Plan that the 
Council has a set of transparent, science-based criteria against which 
it evaluates restoration projects and programs. Effective project 
assessment based on the statutory restoration criteria will be an 
essential step to developing a truly comprehensive Gulf wide ecosystem 
plan.
    Below we review the four statutory criteria and provide 
recommendations on how to interpret those criteria.

    (I) Projects that are projected to make the greatest contribution 
to restoring and protecting the natural resources, ecosystems, 
fisheries, marine and wildlife habitats, beaches, and coastal wetlands 
of the Gulf Coast region, without regard to geographic location within 
the Gulf Coast region. Criteria include:

    We recommend that the Council focus this criterion on projects that 
provide systemic restoration benefits to highest-priority Gulf 
ecosystem resources, benefit or improve shared or common resources 
across the Gulf region, and deliver multiple ecological benefits.

    (II) Large-scale projects and programs that are projected to 
substantially contribute to restoring and protecting the natural 
resources, ecosystems, fisheries, marine and wildlife habitats, 
beaches, and coastal wetlands of the Gulf Coast ecosystem.

    We recommend that the Council focus this criterion on projects that 
significantly increase habitat or increase net wetland acres compared 
to a no action alternative, projects that demonstrate the largest cost-
efficiency, and projects that address deltaic land loss.

    (III) Projects contained in existing Gulf Coast State comprehensive 
plans for the restoration and protection of natural resources, 
ecosystems, fisheries, marine and wildlife habitats, beaches, and 
coastal wetlands of the Gulf Coast region.

    We recommend that the Council incorporate the ecosystem restoration 
components of existing state plans, for example, the Louisiana Coastal 
Master Plan unanimously adopted by the state legislature in 2012.

    (IV) Projects that restore long-term resiliency of the natural 
resources, ecosystems, fisheries, marine and wildlife habitats, 
beaches, and coastal wetlands most impacted by the Deepwater Horizon 
oil spill.

    We recommend that the Council focus this criterion on projects that 
preserve or restore natural processes, projects that reduce recovery 
time from disturbance events with minimal human intervention or 
maintenance requirements, and projects that continue to produce long-
term results in the face of sea level rise.
III. Project Recommendations
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

IV. Comprehensive Plan and Project Implementation Recommendations
    The Council comprised of six Federal agencies and five Gulf Coast 
states, each with different areas of expertise and resources. We 
recognize that the Council structure and the statutory charge are 
complex, and that implementation therefore will be challenging. 
Fortunately the RESTORE Act arms the Council with tools to address 
those challenges. For example, the Act permits the Council and Federal 
members to develop memoranda of understanding to assist with project 
implementation. Also, the Act requires the Council to submit a report 
to Congress that includes recommendations for modifications of existing 
laws necessary to implement the Act. We offer the following 
recommendations to assist the Council in fulfilling its duties and to 
encourage the selection of comprehensive, effective and vetted projects 
that should streamline implementation processes.
Implementation Recommendations:

    We recommend that the Council establish a science-based adaptive 
management framework for implementation, both on the project-level and 
ecosystem-level, including baseline environmental data collection, and 
project monitoring to measure progress toward clear, measurable and 
achievable metrics and timelines.

    Timetables and metrics set forth a specific commitment to 
completion and provide both the Council and the public with an honest 
assessment of the progress of projects and ecosystem goals, and allow 
stakeholders to set expectations. When developing project phases and 
timetables, the Council should collect environmental data and 
scientifically monitor projects prior to, during, and following 
construction. To effectively evaluate restoration, tools and 
methodologies for restoration monitoring should be developed. The 
resulting data will be critical for adaptive management processes and 
for determining the ultimate success of each restoration goal.

    We recommend that the Council explicitly define the roles and 
responsibilities of the agencies tasked with implementing restoration 
projects.

    The Comprehensive Plan should identify and assign a clear lead 
agency or entity with the appropriate authority to implement 
recommendations and projects. Assigning an explicit agency or entity 
provides accountability and expectations to effectively implement 
restoration projects.

    We recommend that the Council outline and engage in a framework for 
resolving policy and procedural obstacles to project implementation.

    For the Council to be effective in implementing the Comprehensive 
Plan and fulfilling its statutory duty, it should recognize its role in 
resolving policy and procedural obstacles to advance authorized 
restoration projects. For example, the Comprehensive Plan should 
include a commitment to exercise the full authority of the Council 
members to resolve policy and procedural obstacles that would allow 
currently authorized restoration projects to move forward immediately. 
Where conflicts exist, the Comprehensive Plan should direct agencies to 
resolve those conflicts in favor of advancing projects to meet the goal 
of a restored ecosystem, or identify the legal, regulatory, or policy 
impediments to doing so.
    For those conflicts that arise after the completion of the initial 
Plan, the Council should be prepared to update the Plan to address 
needs, as required by statute. The Council should include recommended 
statutory changes to address obstacles that cannot be overcome through 
administrative remedies.
V. Science Integration Recommendations
    To inform the development of the Comprehensive Plan and assist the 
Council with responsibilities under the Oil Spill Impact Allocation, 
the Council must ``collect and consider scientific and other research 
associated with restoration of the Gulf Coast Ecosystem.'' \3\ We 
support the Council incorporating the best available science into 
decision processes.
---------------------------------------------------------------------------
    \3\ (t)(2)(C)(vii)(IV)
---------------------------------------------------------------------------
    The success of comprehensive ecological restoration plan and Gulf 
Coast Ecosystem Restoration Council will be driven in large part based 
on the quality of science the plan integrates and Council relies on. 
Sound science is essential to restoring this troubled ecosystem. To 
ensure the best available science is contemplated and integrated into 
all processes considered by the Council, especially during project 
prioritization, we offer the following science recommendations.
    We recommend that the Council:

  <bullet> Employ a Chief Scientist to coordinate activities and lead 
        development and implementation of a Gulf-wide monitoring, 
        modeling, and research program to support science-based 
        comprehensive restoration program across the member-entities

  <bullet> Establish a Scientific Advisory Committee

  <bullet> Adopt and incorporate by reference the Task Force Strategy 
        and the documents prepared by its Science Coordination Team, 
        including the Science Plan in the Gulf of Mexico Ecosystem 
        Science Assessment and Needs document

  <bullet> Develop a system of independent review to take place at each 
        appropriate stage of project selection; design and engineering 
        feasibility; construction award; and at intervals during 
        project implementation.

  <bullet> Ensure independent review from scientists with expertise 
        about Gulf Coast ecosystems.
                                 ______
                                 
                                Appendix
Introduction
    In this appendix, we provide a list of high priority projects with 
detailed descriptions that we believe meet the project priority 
criteria in the Restore Act, are consistent with the goals of the 
Restore Council's The Path Forward to Restoring the Gulf Coast: A 
Proposed Comprehensive Plan, and are essential to the implementation of 
the Louisiana's 2012 Master Plan for Coastal Restoration and Protection 
(SMP).
    Every one of the nineteen ecosystem restoration projects that we 
include here is also included in the SMP. The State of Louisiana 
selected these projects as part of their master plan after a model-
based and rigorous scientific review, as well as public participation. 
Given that rigor and support, the Louisiana legislature adopted the 
state's master plan unanimously. Also, Congress has authorized fifteen 
of these projects as part of the Title VII of the Water Resource 
Development Act of 2007 (WRDA). As Congress directed in WRDA 2007, the 
Army Corps of Engineers is studying the remaining four projects for 
possible authorization. Thus, scientists, engineers, economists, 
resource managers and the public have all vetted these nineteen 
projects. Indeed, with funding, these projects are ready for 
implementation.
    We highlight these projects because they address a range of 
critical restoration priorities in each coastal basin. Our guiding 
principle was to choose projects that reestablish natural deltaic and 
hydrological functions or that protect critically threatened coastal 
systems. For example, there are four proposed controlled diversions of 
Mississippi River water and sediment designed to begin building new 
sub-delta splays into the Breton and Barataria basins; two designed to 
convey water and sediment into upper basin swamp and marsh ecosystems 
to prevent wholesale habitat conversion and loss; and one of 
Atchafalaya River water and sediment to sustain and enhance existing 
wetlands. Also, there are three large-scale projects to reestablish 
marsh with pipeline sediment delivery at critical locations. There is 
one large-scale project to establish a living oyster reef for shoreline 
protection. There are four massive barrier island or barrier headland 
restoration projects, two projects to re-establish hydrological 
barriers to prevent salt water intrusion from navigation projects, one 
project to protect eroding marsh shoreline at a critical location in 
the landscape, and one project to reestablish a forested natural levee 
ridge to serve as habitat, provide structural stability for marshes, 
and reduce storm surge.
    We recognize that efforts to restore the Gulf ecosystem will be 
complex and interconnected, including those funded through the RESTORE 
Act, NRDA, and criminal plea agreements via the National Fish and 
Wildlife Foundation. All three of these efforts will require those 
administering the particular program, in partnership with the state of 
Louisiana, to identify and fund project priorities. We recommend that 
all parties work closely and flexibly together to ensure that projects 
are chosen and funded to achieve the greatest ecosystem benefits within 
the most urgent time-frame possible.
Project List
   1.  Mid-Barataria Diversion (1st Period Increment--75k cfs)--
        Establish Distributary for Sub-Delta Marsh-Building Diversion 
        of Pulsed Mississippi River Water and Sediment through Control 
        Structure

   2.  Mid-Breton Diversion-- Establish Distributary for Sub-Delta 
        Marsh-Building Diversion of Pulsed Mississippi River Water and 
        Sediment through Control Structure

   3.  Lower Breton Diversion--Establish Distributary for Sub-Delta 
        Marsh-Building Diversion of Pulsed Mississippi River Water and 
        Sediment through Control Structure, Ideally Utilizing Existing 
        Newly-formed Mardi Gras Pass

   4.  Lower Barataria Diversion--Establish Distributary for Sub-Delta 
        Marsh-Building Diversion of Pulsed Mississippi River Water and 
        Sediment through Control Structure

   5.  Increase Atchafalaya Flow to Eastern Terrebonne--Marsh and 
        Swamp-Sustaining Diversion through Hydrologic Modification of 
        the Gulf Intracoastal Waterway

   6.  West Maurepas Diversions--Swamp and Marsh Sustaining Diversion 
        of Pulsed Mississippi River Water and Sediment through Control 
        Structure

   7.  Barataria Pass to Sandy Point Barrier Island Restoration and

   8.  Belle Pass to Caminada Pass Barrier Island Restoration--Beach, 
        Dune and Back Bay Marsh Restoration with Pipeline Sand and 
        Sediment Delivery

   9.  Central Wetlands Diversion--Marsh and Swamp-Sustaining Diversion 
        Pulsing Water and Sediment through Control Structure from 
        Mississippi River

  10.  Isles Dernieres Barrier Island Restoration--Beach, Dune and Back 
        Bay Marsh Restoration with Pipeline Sand Delivery from Offshore 
        Shoal

  11.  Timbalier Islands Barrier Island Restoration--Beach, Dune and 
        Back Bay Marsh Restoration with Pipeline Sand Delivery from 
        Offshore Shoal

  12.  Houma Navigation Canal Lock Hydrologic Restoration--for Salinity 
        Control, Sustaining Marsh and Swamp while Maintaining 
        Navigation

  13.  Biloxi Marsh Oyster Reef--Living Reef for Shoreline Protection 
        and Habitat

  14.  Calcasieu Ship Channel Salinity Control Measures--Hydrologic 
        Restoration for Salinity Control, Marsh Sustaining, while 
        Maintaining Navigation

  15.  New Orleans East Land-bridge Restoration (1st Period 
        Increment)--Marsh Creation through Pipeline Sediment Delivery

  16.  Large Scale Barataria Marsh Creation-Component E (1st Period 
        Increment)--Marsh Creation through Pipeline Sediment Delivery

  17.  Golden Triangle Marsh Creation--Marsh Creation through Pipeline 
        Sediment Delivery

  18.  Bayou La Loutre Ridge Restoration--to Protect Marsh and Provide 
        Habitat, using Pipeline Sediment Delivery

  19.  Gulf Shoreline Protection (Freshwater Bayou to Southwest Pass)--
        Construct parallel offshore sand capture structures.
Project Descriptions

1. Mid-Barataria Diversion (1st Period Increment--75k cfs)--SMP 
  Barataria Basin
  Plaquemines and Jefferson Parishes

  Medium Diversion with Dedicated Dredging at Myrtle Grove--LCA

  This pulsed sediment diversion to the mid-Barataria basin, in the 
    vicinity of Myrtle Grove, is the most critical restoration project 
    for the near term in the LCA and State Master Plan. The mid-
    Barataria Basin has one of the highest land loss rates in the 
    world, is part of one of the most productive estuaries in the 
    world, and helps provide storm surge protection to over 250,000 
    people in small coastal communities and the New Orleans 
    metropolitan area. Extensive modeling of river sediment dynamics, 
    river and basin hydrology, fisheries, and water elevation effects 
    make this location an important test and proof of concept for man-
    made land building diversions. The two-step scaling of diversion 
    size (from to 75k cfs to 250k cfs) proposed in the SMP allows for 
    community transition, and the advanced planning, design, and 
    compliance of the LCA project will facilitate rapid implementation.

  The Corps/State Myrtle Grove LCA project is underway, and is 
    investigating a range of diversion sizes from 15-125k cfs, as well 
    as marsh creation through pipeline sediment delivery of river 
    sediment.

  $650m; 38,000 net acres after 50 years with 0.45 m of RSLR. (The SMP 
    modeled this at 50k cfs. Subsequent analysis has led to a decision 
    to build the project at 75k cfs. However, the net acreage estimate 
    has not been updated to reflect the increased flow. This estimate 
    is therefore very conservative.)

  75k cfs (scaled up to 250k cfs in 2nd Period Increment)

2. Mid-Breton Diversion--SMP
  Breton Basin
  Plaquemines Parish

  Medium Diversion at White Ditch--LCA

  This project is well advanced as the White Ditch LCA Medium Sediment 
    Diversion in an area long identified as a prime location for river 
    re-introduction, marsh creation, and revival of forest on natural 
    ridges. It is an important, easily executed project, in an area 
    with little intervening infrastructure.

  White Ditch is the probable location for the Mid-Breton Diversion--
    joint Corps/state LCA planning, design and compliance are well-
    advanced. The diversion has been modeled between 5-35k cfs. The 
    decision as to which flow level is appropriate should be based upon 
    continued modeling and project prioritization looking for synergies 
    with the Upper and Lower Breton Diversions, as well as sediment 
    availability on that stretch of the river.

  $123m; 20,232 net acres after 50 years with 0.45 m of RSLR.

  5,000 cfs (or up to 35k cfs in LCA)

3. Lower Breton Diversion--SMP
  Breton Basin
  Plaquemines Parish

  Delta Management Study and Comprehensive Plan--LCA

  This is a sediment diversion into lower Breton Sound in the vicinity 
    of Black Bay that will build and maintain land by creating a new 
    sub-delta lobe and sustaining existing marshes. The project will 
    also restore historic salinities in lower Breton Sound. A pre-
    engineering assessment is underway to determine optimal location 
    and size, among other questions.

  This diversion is unique in that it is planned for a segment of the 
    river along which there are no Federal river levees. Overbank 
    spring flow and several natural and man-made distributary channels,

        Mardi Gras Pass: During the 2011 flood, a new distributary, 
        named Mardi Gras Pass, formed through the Bohemia Spillway. The 
        location is within the area considered for the SMP Lower Breton 
        Diversion. It is possible that the distributary channel can 
        serve to divert some of the flow required at a fraction of the 
        cost of constructing a new one.

  $203m; 11,976 net acres after 50 years with 0.45 m of RSLR.

4. Lower Barataria Diversion--SMP
  Barataria Basin
  Plaquemines, Jefferson and Lafourche Parishes

  Delta Management Study and Comprehensive Plan--LCA

  This is a sediment diversion into lower Barataria Bay in the vicinity 
    of Empire with 50,000 cfs capacity. It will build a sub-delta lobe 
    in area where marsh loss is nearly complete, provide a sediment 
    stream to the Barataria Basin shoreline, restore historical 
    salinities, and buffer lower Plaquemines communities from storm 
    surge.

  $203m; 8,960 net acres after 50 years with 0.45 m of RSLR

5. Increase Atchafalaya Flow to Eastern Terrebonne--SMP
  Terrebonne Basin
  St. Mary, Terrebonne and Lafourche Parishes

  Convey Atchafalaya River Water to Northern Terrebonne Marshes--LCA

  East Terrebonne's marshes are rapidly disappearing in large part 
    because of relentless salinity increases. The marshes are located 
    nearly equidistant between the Mississippi and Atchafalaya rivers 
    and are blocked from the opportunity to receive significant 
    riverine input from diversions higher in the basin by settlement 
    and development in the Greater Houma area. The Gulf Intracoastal 
    Waterway (GIWW) provides a potential east west conduit for 
    Atchafalaya River water. The project would modify the GIWW to 
    convey up to 20,000 cfs to help sustain these marshes.

  $292m; 17,190 net acres after 50 years with 0.45 m of RSLR.

6. West Maurepas Diversions--SMP
  Pontchartrain Basin
  Ascension, St. John, St. James, Livingston and Tangipahoa Parishes

  Small Diversion at Convent/Blind River and/or Small Diversion at Hope 
    Canal--LCA

  These diversions will sustain a rapidly declining baldcypress swamp, 
    one of the largest in the nation, with freshwater, nutrient and 
    sediments. It will help prevent loss of forest, conversion of marsh 
    to open water, and fight rising salinities in the entire 
    Pontchartrain basin.

  $120m; 5763 net acres after 50 years with 0.45 m of RSLR.

7. Barataria Pass to Sandy Point Barrier Island Restoration--SMP
  Barataria Basin
  Jefferson and Plaquemines Parishes

  Barataria Basin Barrier Shoreline--LCA

  Despite massive marsh loss, the Barataria Basin remains a highly 
    productive and functional estuarine system, with surviving barrier 
    island and headlands, salt marshes, bays, brackish, intermediate 
    and fresh marshes, baldcypress swamps, bottomland hardwood 
    communities, and both maritime and natural levee forests. In the 
    long term, this system can only survive with river re-introduction, 
    but in the near term the barrier islands and headlands are critical 
    features necessary to prevent wholesale conversion of the lower 
    estuary to a saline marine environment, with continued massive 
    marsh loss.

  Project implementation is underway, and can be financed in smaller 
    discrete implements. Several segments have already been partially 
    constructed, or are about to be under different authorities. Costs 
    may therefore be adjusted downward. This is one of the most 
    advanced LCA projects, with a signed Chief's Report. Federal 
    appropriations are needed.

  $536m; 2,778 net acres after 50 years with 0.45 m of RSLR.

  Re-contour and nourish island and headland segments along 
    approximately 180,000 l.f. of barrier arc; beach, dune, and marsh.

  Project is scalable--that is, it does not need to be constructed in 
    one increment at full cost. A number of components are already in 
    various stages of construction.

8. Belle Pass to Caminada Pass Barrier Island Restoration--SMP
  Barataria Basin
  Lafourche and Jefferson Parishes

  Barataria Basin Barrier Shoreline--LCA

  Despite massive marsh loss, the Barataria Basin remains a highly 
    productive and functional estuarine system, with surviving barrier 
    island and headlands, salt marshes, bays, brackish, intermediate 
    and fresh marshes, baldcypress swamps, bottomland hardwood 
    communities, and both maritime and natural levee forests. In the 
    long term, this system can only survive with river re-introduction, 
    but in the near term the barrier islands and headlands are critical 
    features necessary to prevent wholesale conversion of the lower 
    estuary to a saline marine environment, with continued massive 
    marsh loss.

  Project implementation is underway, and can be financed in smaller 
    discrete implements. Several segments have already been partially 
    constructed, or are about to be under different authorities. Costs 
    may therefore be adjusted downward. This is one of the most 
    advanced LCA projects, with a signed Chief's Report. Federal 
    appropriations are needed.

  $278m; 1,447 net acres after 50 years with 0.45 m of RSLR.

  Restore island and headland beach, dune, and marsh segments along 
    approximately 175,000 l.f. of barrier island arc with sand pumped 
    from an offshore shoal.

  Project is scalable--that is, it does not need to be constructed in 
    one increment at full cost.

9. Central Wetlands Diversion--SMP
  Borgne Basin
  St. Bernard and Orleans Parish

  Mississippi River Gulf Outlet Environmental Restoration (in part)--
    LCA

  Long term sustainability of the Central Wetlands requires sediment 
    introduction to offset relative sea level rise. The project will 
    sustain remaining marsh and swamp and facilitate restoration of 
    those areas now in open water. Additionally, the freshwater passing 
    through the bayous Bienvenue and Dupree gates will help maintain 
    optimum salinities in the Lake Borgne and Biloxi marshes.

  $189m; 5,421 net acres after 50 years with 0.45 m of RSLR.

10. Isles Dernieres Barrier Island Restoration--SMP
  Terrebonne Basin
  Terrebonne Parish

  Terrebonne Basin Barrier Shoreline (in part)--LCA

  Restoration of the Isles Dernieres barrier islands will provide dune, 
    beach, and back barrier marsh habitat and enhance storm surge and 
    wave attenuation in the Terrebonne Basin.

  $343m; 2,010 net acres after 50 years with 0.45 m of RSLR.

  Re-contour and nourish island and headland segments along 
    approximately 120,000 l.f. of barrier arc; beach, dune, and marsh.

  Project is scalable--that is, it does not need to be constructed in 
    one increment at full cost.

11. Timbalier Islands Barrier Island Restoration--SMP
  Terrebonne Basin
  Terrebonne and Lafourche Parishes

  Terrebonne Basin Barrier Shoreline (in part)--LCA

  Restoration of the Timbalier barrier islands will provide dune, 
    beach, and back barrier marsh habitat and enhance storm surge and 
    wave attenuation in the Terrebonne Basin and lower Lafourche 
    Parish.

  $524m; 3,321 net acres after 50 years with 0.45 m of RSLR

  Re-contour and nourish island and headland segments along 
    approximately 90,000 l.f. of barrier arc; beach, dune, and marsh.

  Project is scalable--that is, it does not need to be constructed in 
    one increment at full cost.

12. Houma Navigation Canal Lock Hydrologic Restoration--SMP
  Terrebonne Basin
  Terrebonne Parish

  Multipurpose Operation of Houma Navigation Lock--LCA

  The Houma Navigation Canal is the single most important conduit for 
    saltwater intrusion into Terrebonne's marshes. The lock is 
    necessary to control salinities, and make the GIWW Atchafalaya 
    conveyance project as effective as possible.

  $180m; 3,452 net acres after 50 years with 0.45 m of RSLR.

13. Calcasieu Ship Channel Salinity Control Measures--SMP
  Chenier Plain
  Cameron, Vermilion, Jeff Davis and Calcasieu Parishes

  Southwest Louisiana Study--LCA

  The Chenier Plain was a stable geological platform with low 
    subsidence and a healthy mix of freshwater inputs and estuarine 
    inputs. Wholesale hydrological modification resulted from the 
    dredging of navigation canals and channels, which increased storm 
    surge threats to interior communities, and allowed saltwater 
    ingress to interior freshwater marshes, leading to widespread marsh 
    loss. Key to restoring some balance and slowing the losses is to 
    reduce saltwater and the tidal prism in the Calcasieu Ship Channel.

  $398m; 21,648 net acres after 50 years with 0.45 m of RSLR.

14. New Orleans East Land-bridge Restoration (1st Period Increment)--
SMP
  Borgne-Pontchartrain Basins
  Orleans and St. Tammany Parishes

  Mississippi River Gulf Outlet Environmental Restoration (in part)--
    LCA.

  The New Orleans east marsh land bridge is a critical feature 
    separating Lake Pontchartrain from the Gulf. It is important not 
    only as estuarine habitat, but as a crucial line of defense from 
    storm surge for over 1.5 million people in 8 parishes, including 
    New Orleans, East Jefferson, Laplace, Madisonville, Mandeville, and 
    Slidell.

  This is an important component of the New Orleans East Land Bridge 
    that can be quickly executed.

  $473m; 6,427 net acres after 50 years with 0.45 m of RSLR.

  Project is scalable--that is, it does not need to be constructed in 
    one increment at full cost.

15. Large Scale Barataria Marsh Creation-Component E (1st Period 
Increment)--SMP
  Barataria Basin
  Plaquemines, Jefferson, and Lafourche Parishes

  Medium Diversion with Dedicated Dredging at Myrtle Grove--LCA

  This marsh creation project will build upon projects already in place 
    and under construction under CWPPRA and CIAP to strengthen the so-
    called Barataria Land Bridge. It will complement the Mid-Barataria/
    Myrtle Grove Diversion, and help protect Lafitte from storm surge 
    and tidal flooding.

  $495m; 8,618 net acres after 50 years with 0.45 m of RSLR.

  Project is scalable--that is, it does not need to be constructed in 
    one increment at full cost.

16. Biloxi Marsh Oyster Reef--SMP
  Borgne-Breton Basins
  St. Bernard Parish

  Mississippi River Gulf Outlet Environmental Restoration (in part)--
    LCA

  The Biloxi Marshes are one of the most stable marsh platforms 
    remaining in coastal Louisiana, due to low subsidence rates and 
    soil platform maturation. Re-establishment of vertical oyster reefs 
    along with re-introduction of river water via West Maurepas and 
    Violet diversions, will further slow the deterioration of these 
    highly productive marshes. Oyster reefs, in addition to providing 
    wave and surge protection, also provide a host of ecosystem 
    services. Once established, they are naturally self-maintaining.

  $83m; 231 net acres after 50 years with 0.45 m of RSLR.

  Project is scalable--that is, it does not need to be constructed in 
    one increment at full cost.

17. Gulf Shoreline Protection: Freshwater Bayou to Southwest Pass--SMP
  Chenier Plain
  Vermilion Parish

  Southwest Louisiana Study--LCA

  The project will protect a critical landscape feature and highly 
    productive from erosion by constructing parallel protection along 
    the gulf shoreline. It will anchor the southwest corner of the 
    Chenier Plain. The structures will be designed to reduce wave 
    energy and trap sediments, thus slowing shoreline retreat.

  $99m; 90k l.f., 1048 net acres after 50 years with 0.45 m of RSLR.

  Project is scalable--that is, it does not need to be constructed in 
    one increment at full cost.

18. Golden Triangle Marsh Creation--SMP
  Borgne Basin
  Orleans and St. Bernard Parishes

  Mississippi River Gulf Outlet Environmental Restoration (in part)--
    LCA

  The project will restore marsh in an area badly damaged by saltwater 
    intrusion and erosion subsequent to the dredging of the MRGO. The 
    marsh here will buffer the newly constructed surge barrier and 
    provide important estuarine habitat for Lake Borgne.

  $293m; 2,442 net acres after 50 years with 0.45 m of RSLR.

  Project is scalable--that is, it does not need to be constructed in 
    one increment at full cost.

19. Bayou La Loutre Ridge Restoration--SMP
  Borgne Basin
  St. Bernard Parish

  Mississippi River Gulf Outlet Environmental Restoration (in part)--
    LCA

  Bayou la Loutre's natural levees are part of the structural 
    underpinning of the Biloxi marshes. Re-establishing the ridge will 
    improve hydrology, provide storm surge protection, decrease 
    saltwater intrusion, and provide important habitat for migratory 
    birds.

  $61m; 368 net acres after 50 years with 0.45 m of RSLR.

  Project is scalable--that is, it does not need to be constructed in 
    one increment at full cost.
Notes:
    <SUP>ii</SUP> The initial Comprehensive Plan will adopt and expand 
on the four overarching Task Force Strategy goals: (1) Restore and 
Conserve Habitat; (2) Restore Water Quality; (3) Replenish and Protect 
Living Coastal and Marine Resources; and (4) Enhance Community 
Resilience.
    <SUP>iii</SUP> The Resources and Ecosystems Sustainability, Tourist 
Opportunities, and Revived Economies of the Gulf Coast States Act of 
2012, the RESTORE Act requires the initial Comprehensive Plan include 
``. . . a list of any project or program authorized prior to July 6, 
2012, but not yet commenced, the completion of which would further the 
purposes and goals of this subsection . . .'' 33 U.S.C. 
Sec. 1321(t)(2)(D)(ii)(IV)(bb) (2013).
    <SUP>iv</SUP> Louisiana Coastal Area; Water Resources Development 
Act of 2007; Title VII, Sections 7002 Comprehensive Plan, 7006 
Construction (c)(1); (e)(3)(A), 7010 Expedited Reports (a)(2).
    <SUP>v</SUP> WRDA 2007, Section 7002 authorizes studies that could 
lead to further project authorization. The Delta Management Study is 
underway. The Comprehensive Plan is not complete.
    <SUP>vi</SUP> (see note `v' above)
    <SUP>vii</SUP> Project Ratings (see below)
    <SUP>viii</SUP> The Southwest Louisiana Study, WRDA 2007, Section 
7010 (a) (2) is underway and may lead to additional project 
authorizations.
    <SUP>ix</SUP> (see note ``viii'' above)
Project Ratings:

    The ratings are weighted x2 for statutory requirements.

        2/1 = Achieves priority or goal.
        4/2= Better achieves priority or goal.
        6/3 = Best achieves priority or goal.

    The ratings are our best collective judgment about how well each 
project meets the requirements laid out in the RESTORE Act and in the 
Restore Council's Path Forward vision for developing the Comprehensive 
Plan, based upon metrics modeled in the development of Louisiana's 2012 
Comprehensive Master Plan for a Sustainable Coast. These metrics 
include:

  <bullet> net project acreage against future without action;

  <bullet> ecosystem services provided:

    <ctr-circle> wildlife

      <bullet> hunting

      <bullet> commercial harvest

    <ctr-circle> fisheries

      <bullet> commercial

      <bullet> recreational

    <ctr-circle> nature-based tourism

    <ctr-circle> storm surge/wave attenuation

    <ctr-circle> agriculture

    <ctr-circle> carbon sequestration

    <ctr-circle> freshwater availability, and

    <ctr-circle> nutrient uptake;

  <bullet> flood risk (storm surge) reduction for coastal communities:

    <ctr-circle> sustaining cultural heritage,

    <ctr-circle> equitable distribution of risks and benefits;

  <bullet> use of natural processes;

  <bullet> long-term sustainability in the face of climate change 
        uncertainties;

  <bullet> use of a systems approach for project synergies;

  <bullet> solutions for the long-term;

  <bullet> project adaptability;

  <bullet> engineering feasibility;

  <bullet> third party review processes for project selection and 
        design; and

  <bullet> cost-effectiveness.
Comprehensive Plan ``The Path Forward'' Goals

1. Restore and Conserve Habitat;

        a. Ratings are based upon the scale of habitat restored; i.e., 
        acres of marsh created or sustained over time as measured 
        against future without project; linear miles of oyster reef and 
        the cascade of ecosystem services provided over time; cubic 
        yards of sediment moved for barrier island and marsh 
        restoration coupled with long term sustainability of the 
        project in the face of future conditions. Ancillary effects of 
        projects are also evaluated, i.e., was material obtained 
        through natural processes; is the borrow source for dredge 
        projects renewable and to what extent borrow removal causes 
        ecosystem harm or beneficially offsets harm that might 
        otherwise occur.

2. Restore Water Quality;

        a. These projects will affect highly productive estuaries 
        first, and the northern gulf thereafter. Generally, filtering 
        Mississippi River water through wetlands will reduce nutrient 
        loading in the near shore Gulf, and thereby reduce the Gulf 
        Hypoxic Zone that forms annually in the Mississippi River 
        navigation channels' plume through nutrient retention and 
        uptake. Estuarine water quality parameters include offsetting 
        saltwater intrusion from anthropogenic changes to system 
        hydrology; achieving favorable salinity gradients calculated to 
        benefit wetland vegetation, plant growth, soil accretion, marsh 
        sustainability, and estuarine productivity measured against 
        future without project. Some offsetting factors include 
        potential effects on fisheries, pathogens, and temporary 
        eutrophication in receiving water bodies.

3. Replenish and Protect Living Coastal and Marine Resources;

        a. The Mississippi River Delta and coastal Louisiana support 
        the highest biological productivity of any Gulf Coast ecosystem 
        because the river brings 85 percent of the freshwater and 90 
        percent of the sediment that enters the Gulf. As a consequence, 
        97 percent of Gulf and 40 percent of national seafood 
        production in the lower 48 states is directly supported. 
        Between five and ten million ducks and geese winter annually, 
        millions of neotropical migrants re-fuel on their way to and 
        from the tropics, and the area supports large colonies of 
        nesting wading and colonial seabirds, among many, many other 
        living resources. Projects are rated for their scale (acres of 
        habitat created or sustained against future without project) 
        and their ability to directly benefit living resources by 
        creating or sustaining breeding and foraging habitat.

4. Enhance Community Resilience

        a. Coastal Louisiana includes large metropolitan areas (Greater 
        New Orleans), mid-size cities and small towns, villages where 
        the economy is dependent primarily on commercial exploitation 
        of natural resources, and traditional communities where 
        subsistence on natural resources is important to well-being of 
        community members. Projects are rated for their effectiveness 
        in protecting communities from storm surge and on enhancing 
        natural resources that provide the widest range of economic, 
        traditional, and recreational opportunities for coastal 
        residents. All projects are measured for sustainability and for 
        net value against future without conditions.
                                 ______
                                 
                   Gulf Coast Ecosystem Restoration Council
                                      Washington, DC, July 14, 2013

Dear Council Members,

    On behalf of our millions of members and supporters, thank you for 
the ongoing opportunity to comment on the development of a plan to 
restore the Gulf Coast region. The attached comments on the Draft 
Initial Comprehensive Plan build upon and are within the framework of 
our prior recommendations, dated May 1, 2013, to advance restoration of 
the Mississippi River Delta.
    We were pleased that the Draft Initial Comprehensive Plan maintains 
and affirms the RESTORE Act's statutory requirement that the Council-
selected Restoration Component be dedicated solely to ecosystem 
restoration projects. This approach is absolutely essential to protect 
the delicate balance between varying interests that Congress considered 
in constructing the RESTORE Act, and we strongly urge that it be 
strictly maintained, as required by the Act, in the Final Initial 
Comprehensive Plan.
    The recommendations below, which reflect that and other central 
tenets of the legislation, include modifications and refinements to the 
Draft Initial Comprehensive Plan that will help optimize the Council's 
ongoing restoration decisions and actions.
    We again urge the Council to take full advantage of the 
unprecedented opportunity the RESTORE Act presents to repair the Gulf 
ecosystem and restore its natural resilience. The Council can 
effectuate meaningful, sustainable environmental restoration. Our 
organizations are prepared to continue serving as a resource to the 
Council and look forward to further discussion of our comments and 
recommendations. We have also attached our May 1 recommendations, which 
are more expansive than the scope of the Draft Initial Comprehensive 
Plan, for the record and continued consideration as the Council moves 
forward, particularly in creating a three-year priority project and 
program list.
            Sincerely,
                                   National Audubon Society
                     Coalition to Restore Coastal Louisiana
                                 Environmental Defense Fund
                        Lake Pontchartrain Basin Foundation
                               National Wildlife Federation
                                 ______
                                 
    Council-selected Restoration Component. The RESTORE Act mandates 
that the Comprehensive Plan focus on ecosystem restoration and requires 
that all decisions, including projects funded by the State Expenditure 
Plan component, must be prioritized based on the best available 
science. As confirmed by the Senate Environment and Public Works 
Committee report (pages 10 and 11), the Council-selected Restoration 
Component shall be disbursed to the Council for projects to ``restore 
and protect the natural resources, ecosystems, fisheries, marine and 
wildlife habitats, beaches, and coastal wetlands of the Gulf Coast 
region.'' We were pleased that the Draft Initial Comprehensive Plan 
maintains and affirms this statutory focus on ecosystem restoration 
projects, which underlies many of our recommendations below, and we 
urge the Council to strictly adhere to this focus in the Final Initial 
Comprehensive Plan.
    Specified Contents and Previously-authorized Projects. Under 
section (t)(2)(D)(ii)(IV), the initial Comprehensive Plan must contain 
certain specified contents to generate project lists to be screened 
through the statutory restoration priorities; including a list of 
``authorized'' Federal projects and programs that advance the RESTORE 
Act goals; a three year project and program list; and a table showing 
the distribution of projects and programs in all five Gulf Coast 
States. We believe that subsection (bb) of that section, which calls 
for the list of projects and programs ``authorized prior to the date of 
enactment,'' refers only to projects included in previously enacted 
federal authorizing legislation, and not to state or other projects 
simply approved outside the Federal authorization process. By so 
limiting the language, we believe Congress specifically intended to 
restrict this list to projects that have received prior Congressional 
approval. For example, the State of Louisiana and Federal partners have 
worked for nearly a decade developing federally authorized Louisiana 
Coastal Area projects, through the Water Resources Development Act of 
2007.
    Congress provided for other mechanisms through which state-approved 
projects could be considered, including explicit direction, in the 
project selection criteria, that projects contained in Gulf Coast State 
comprehensive plans can be evaluated for possible inclusion on the 
three-year priority project and program list.
    Appendix A to the Draft Initial Comprehensive Plan, subtitled 
``Background Information,'' is referenced as a preliminary version of 
the required list of authorized but not yet commenced projects. For 
reasons stated above, we recommend that the Council confine the 
appendix list only to projects authorized by Congress. As discussed 
below, projects on this revised list, along with state-approved 
projects and all other projects considered by the Council, need to be 
evaluated by the Council based on the restoration priorities criteria 
outlined in the legislation.
    Time-span of Priority Project-selection Criteria. Under section 
(t)(2)(D)(iii), the Council must establish priorities for funding based 
on the best available science according to four required restoration 
priorities criteria. Those are, in summary, (1) Projects that are 
projected to make the greatest contribution to the Gulf ecosystem; (2) 
Large-scale projects and programs that are projected to substantially 
contribute to the Gulf ecosystem; (3) Projects contained in existing 
Gulf Coast State comprehensive ecosystem plans; and (4) Projects that 
restore long-term resiliency of Gulf natural resources. The Draft 
Initial Comprehensive Plan suggests that the RESTORE Act criteria and 
the requirement of best available science might only bind the Council 
for the first three years. We find no reference in the statute or the 
legislative history to indicate this temporal limitation. We believe 
the Council must adhere to the express statutory requirement to use the 
best available science and the four prioritization criteria throughout 
implementation of the Act, and we recommend that any language 
suggesting otherwise be removed from the Comprehensive Plan.
    Prioritization Criteria. We strongly recommend against adoption of 
additional criteria not specifically provided for in the statute. The 
RESTORE Act legislates the criteria to be used for project selection. 
We believe it is beyond the scope of the implementation process to 
alter that statutory framework by developing ``other criteria as 
necessary to refine the selection process'' as considered on page 14 of 
the Draft Initial Comprehensive Plan. We also believe that an 
effective, implementable three-year priority project and program list 
can be developed without the addition of new criteria. To ensure 
optimal results using the existing legislated criteria, we do support 
further explanation of how the existing statutory criteria will be 
implemented and provide our recommendations below.

  1.  ``Projects that are projected to make the greatest contribution 
    to restoring and protecting the natural resources, ecosystems, 
    fisheries, marine and wildlife habitats, beaches, and coastal 
    wetlands of the Gulf Coast region, without regard to geographic 
    location within the Gulf Coast region.'' We recommend that the 
    Council interpret this criterion to include ecosystem restoration 
    projects or programs that:

      <bullet>  Provide systemic restoration benefits to highest-
            priority Gulf ecosystem resources,

      <bullet>  Restore, protect, or improve shared or common resources 
            across the Gulf region, irrespective of state lines, or

      <bullet>  Deliver multiple ecological benefits.

    <ctr-circle> Restoration of the Mississippi River Delta will 
            deliver multiple ecological benefits to shared highest-
            priority resources by restoring degrading coastal wetlands 
            of Mississippi and Louisiana, while also providing water 
            quality benefits to the Gulf of Mexico.

  2.  ``Large-scale projects and programs that are projected to 
    substantially contribute to restoring and protecting the natural 
    resources, ecosystems, fisheries, marine and wildlife habitats, 
    beaches, and coastal wetlands of the Gulf Coast ecosystem.'' We 
    recommend that the Council interpret this criterion to include 
    ecosystem restoration projects or programs that:

      <bullet>  Significantly increase important Gulf Coast habitat,

      <bullet>  Increase net wetland acres compared to a no action 
            alternative, or

      <bullet>  Address deltaic land loss.

    <ctr-circle> The Louisiana Coastal Master Plan ecosystem 
            restoration projects were developed specifically to halt 
            deltaic land loss and increase wetland acres. 
            Implementation of Mississippi River diversions consistent 
            with the Master Plan will have the effect of significantly 
            increasing Gulf Coast habitat.

  3.  ``Projects contained in existing Gulf Coast State comprehensive 
    plans for the restoration and protection of natural resources, 
    ecosystems, fisheries, marine and wildlife habitats, beaches, and 
    coastal wetlands of the Gulf Coast region.''

    <ctr-circle> Consistent with this legislative direction, we 
            recommend that the Council fully consider and place high 
            priority on the ecosystem restoration components of the 
            existing Louisiana Coastal Master Plan, unanimously adopted 
            by the state legislature in 2012. The Comprehensive 
            Everglades Restoration Plan and the Mississippi Coastal 
            Improvements Program are also relevant ecosystem 
            restoration plans for purposes of this criterion.

  4.  ``Projects that restore long-term resiliency of the natural 
    resources, ecosystems, fisheries, marine and wildlife habitats, 
    beaches, and coastal wetlands most impacted by the Deepwater 
    Horizon oil spill.'' This statutory criterion sets the RESTORE Act 
    Comprehensive Plan apart from other restoration plans because it 
    prioritizes increased resilience for the future. We recommend that 
    the Council interpret this criterion to include ecosystem 
    restoration projects or programs that:

      <bullet>  Increase the health and lessen vulnerability of the 
            types of resources, habitat, fish and wildlife that were 
            impacted by the Deepwater Horizon disaster,

      <bullet>  Preserve or restore natural processes or functionality,

      <bullet>  Reduce recovery time from disturbance events with 
            minimal human intervention or maintenance requirements, or

      <bullet>  Continue to produce long-term results in the face of 
            sea level rise.

    <ctr-circle> The Louisiana Coastal Master Plan was crafted 
            specifically to stabilize and ensure a more resilient and 
            sustainable Gulf Coast and Mississippi River Delta.

    Geographic Scope of the Gulf Coast Region. The RESTORE Act 
geographically restricts spending from the Gulf Coast Restoration Trust 
Fund to: (1) the coastal zones (including Federal land) of the Gulf 
states (2) adjacent land, water, and watersheds within 25 miles of the 
coastal zones and (3) Federal waters. The Act does not define 
``adjacent land, water, and watersheds.'' We recommend that the Council 
define those terms, and provide for public consideration, a map 
depicting the areas that fall under these definitions.
    Objectives. The Draft Initial Comprehensive Plan included seven 
objectives to further define the types of projects and programs the 
Council intends to select for funding. We support the Council's efforts 
to meet the full spectrum of natural resource, science, and community 
needs outlined in these objectives. We also recognize that each of 
these objectives, like the broader goals carried over from the 
Council's earlier Path Forward document, can be fully addressed through 
strict adherence to the four statutory criteria for Council-selected 
Restoration Component projects and programs, and through development of 
effective State Restoration Expenditure Plans as discussed below.
    The criteria mandated in the RESTORE Act for the Council-selected 
Restoration Component are based solely on meeting environmental 
restoration needs. This statutory directive recognizes that the 
components of the Gulf ecosystem are intrinsically linked; that 
instituting a comprehensive ecosystem restoration plan will create jobs 
and sustain a robust economy; and that using economic or other non-
environmental screens to select ecosystem projects would undermine the 
holistic environmental and economic goals of the Act. By excluding 
economic considerations from the Restoration Component criteria, the 
Act ensures an appropriate Council focus on individual restoration 
projects that may in themselves have varying impacts on community and 
economic needs, but taken together will have the greatest impact on the 
natural systems on which those communities and economies depend.
    We recommend that the Plan clarify that the stated objectives 
support and do not supersede the project selection criteria; that the 
Council will meet these objectives in the Restoration Component through 
projects selected solely on the basis of those criteria; and that the 
objectives are not intended, and will not be used, to factor economic 
or other non-environmental implications into the selection of 
Restoration Component projects or programs.
    We appreciate the acknowledgement that efforts funded under the 
Council-selected allocation may achieve multiple objectives at once; 
and also may not (and should not) be equally distributed among 
objectives. We recommend that the Council refine the Objectives in the 
Plan as follows:

    Primary Objectives. Any project or program that meets the 
restoration priorities project selection criteria and is subsequently 
selected by the Council for funding should accomplish at least one of 
the following primary objectives:

  1.  Restore, Enhance, and Protect Habitats

  2.  Restore, Improve, and Protect Water Quality

  3.  Protect and Restore Living Coastal and Marine Resources

  4.  Restore and Enhance Natural Processes and Shorelines

    Secondary Objectives. Secondary objectives, though important, must 
be viewed as co-occurring objectives that may be integrated in projects 
that achieve the primary objectives first. Any project or program that 
meets restoration priorities project selection criteria, is selected by 
the Council for funding, and accomplishes at least one primary 
restoration objective may include the following secondary objectives:

  5.  Promote Community Resilience

  6.  Promote Natural Resource Stewardship and Environmental Education

    We recommend that Objective 7 in the Draft Initial Plan'' ``Improve 
Science-Based Decision-Making Processes'' be a fully integrated and 
required overarching component both of plan development and project and 
program selection rather than an Objective. We believe this is 
supported by the statutory requirement that projects and programs be 
selected based on the best available science. We also believe that this 
statutory requirement merits both project and Gulf-wide monitoring to 
inform and improve science-based decision-making and adaptive 
management, and evaluate effectiveness and measure progress towards 
restoration goals.
    State Expenditure Plans are required to be ``consistent with the 
goals and objectives'' of the Comprehensive Plan (t)(3)(B)(i)(III). The 
Plan should clarify that any State Expenditure Plan that undermines or 
is inconsistent with either primary or secondary objectives will be 
ineligible for funding by the Council.
    Council Role in State-specific Restoration Expenditure Plans. As 
the Draft Initial Comprehensive Plan notes, the RESTORE Act also 
requires the Council to oversee and approve development of state-
specific restoration expenditure plans, which will guide 30 percent of 
the spending from the Gulf Coast Restoration Trust Fund, determined 
according to an impact formula. State Restoration Expenditure Plans 
must be consistent with the goals and objectives of the Comprehensive 
Plan.
    Congress intended that the various allocations from the Gulf Coast 
Restoration Trust Fund be invested in the region for distinct, but not 
inconsistent, purposes by various coordinated local, state, and Federal 
Government entities. In requiring Council oversight of the Spill Impact 
Component, Congress intended that State Restoration Expenditure Plans 
protect and enhance the ecosystem restoration objectives of the 
Council-selected allocation. The Act confirms this nexus between the 
state plans and the Council plan by limiting spending on infrastructure 
in state plans. A state plan may only exceed the infrastructure 
spending limitation if there are no remaining environmental restoration 
needs.
    The Draft Initial Comprehensive Plan outlines permissive elements 
that may be included in a State Restoration Expenditure Plan. The 
Council is required to evaluate each State Restoration Expenditure Plan 
for consistency with the goals and objectives of the Comprehensive 
Plan. While we agree that each Gulf Coast state is unique, there must 
be a solid base set of requirements for State Restoration Expenditure 
Plans.
    We recommend that the Council revise the Draft Initial 
Comprehensive Plan to more clearly delineate required elements of state 
plans, criteria and process for a consistency determination, and the 
method for evaluating sufficiency of a state-certification of 
environmental health.
    Specifically, the following elements should be mandatory:

  <bullet> The amount of funding needed for each project, program, and 
        activity selected by the State for planning and implementation; 
        the proposed start and completion dates; and specific 
        mechanisms that will be used to monitor and evaluate the 
        outcomes and impacts of each project, program, and activity.

  <bullet> A description of how the best available science, as 
        applicable, informed the State's project, program, and activity 
        selection.

  <bullet> A justification statement of how all included projects, 
        programs, and activities are eligible activities under the 
        RESTORE Act.

  <bullet> A description of how each included project, program, and 
        activity contributes to the overall economic or ecosystem 
        recovery of the Gulf Coast.

  <bullet> A certification that all included projects, programs, and 
        activities do not exceed the 25 percent funding limit for 
        infrastructure.

    <ctr-circle> If the state intends to claim an exception to this 
            limitation in accordance with the RESTORE Act, the state 
            must provide the percentage to be spent on infrastructure, 
            evidence that the environmental restoration needs of the 
            state have been met, and whether the state has provided 
            public notice of its intent to claim an exception.

  <bullet> A description of how each project, program, and activity is 
        consistent with the Goals and Objectives of this Plan. The 
        Council views ``consistent'' to mean

    <ctr-circle> Each eligible project, program, and activity will 
            further one or more of the five Goals; and

    <ctr-circle> will not negatively impact the Gulf Coast ecosystem.

  <bullet> A description of the process the State will use or has used 
        to ensure appropriate public and tribal participation and 
        transparency in the project, program, and activity selection 
        process.

  <bullet> A description of the financial controls and other financial 
        integrity mechanisms to be used to assure the public and 
        Congress that funds have been managed appropriately to further 
        the purposes of the RESTORE Act.

  <bullet> A description of the methods the State will use to measure, 
        monitor, and evaluate the outcomes and impacts of funded 
        projects, programs, and activities.

    The following elements may be included and will be useful to the 
Council in evaluation and approval or disapproval of State Restoration 
Expenditure Plans:

  <bullet> To the extent known, a description of any certain or 
        prospective collaborations or partnerships to be used or 
        created through the selection process.

  <bullet> To the extent known, a description of any additional 
        resources that will be leveraged to meet the goals of the State 
        Expenditure Plan.

    Additionally, the Council should delineate a process by which it 
will evaluate the sufficiency of a submitted State Restoration 
Expenditure Plan, including guidelines for which elements that the 
Council will consider favorably and unfavorably.
    Project Recommendations. We previously provided specific, detailed 
project recommendations for inclusion in a three-year priority project 
and program list. Though we acknowledge the Council's reasons for not 
producing the three-year priority project and program list on the 
timeline set forth in the statute, we recommend that the Draft Initial 
Comprehensive Plan acknowledge that an early start on a major 
Mississippi River diversion and acceleration of barrier island renewal 
in the Delta are necessary cornerstones of an effective Gulf-wide 
response to which we can all commit. As the Council develops the three-
year priority project and program list, we urge the Council to 
incorporate our project recommendations.
    Project Sponsorship. We appreciate that the Draft Initial 
Comprehensive Plan specifies a process for Council members to sponsor 
projects and programs. While we recognize that many decisions will be 
project-specific, we recommend that the Council further define the 
roles and responsibilities of the sponsor agencies tasked with 
implementing restoration projects. We also recommend that the Council 
develop a process to ensure coordination between sponsoring entities 
and projects.
    We recommend that future project lists identify the sponsor agency 
or entity for public consideration, transparency, and accountability.
    In addition, we recommend that the Council retain and provide 
guidance and oversight during planning, design, construction, 
completion, and management of sponsored projects.
    Advisory Committees. The Draft Initial Comprehensive Plan lists 
establishment of one or more advisory committees as a near-term next-
step. We believe the RESTORE Act contemplates that the Council will 
establish advisory committees on an as-needed basis. We recommend, 
however, that the advisory council process be structured in a way that 
ensures no interference or undue delay to restoring the ecosystem.
    Science must guide Comprehensive Plan development; project 
selection, prioritization, implementation, monitoring, and adaptive 
management; and State-specific Restoration Plan evaluation. We 
recommend that the Council establish an external, independent Science 
Advisory Committee as soon as practicable to review restoration plans 
after providing the public an opportunity to consider and comment on 
the charge and makeup of such a Committee. We also recommend that the 
Council further establish procedures and methods for ensuring that 
implementation decisions are made based on the best available science. 
We encourage the Council to develop framework for the scientific 
process for project and program selection and provide the public an 
opportunity to consider, commend, and expand upon the framework.
    Science Integration. To inform the development of the Comprehensive 
Plan and assist the Council with responsibilities under the State 
Restoration Expenditure Plan Component, the Council must ``collect and 
consider scientific and other research associated with restoration of 
the Gulf Coast Ecosystem.'' We support the provisions in the Draft 
Initial Comprehensive Plan indicating the inclusion of science-based 
decision making to select projects and programs based on the best-
available science.
    As the restoration projects and programs are implemented, it will 
be critical that scientists are engaged throughout project planning and 
design with project engineers and managers to ensure that projects 
succeed and goals are met. We previously provided specific science 
integration recommendations and urge that they be adopted as the 
Council moves forward.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Lois Schiffer
    Question 1. Apalachicola Bay Oyster Fishery Collapse--The 
Apalachicola Bay oyster fishery collapsed in 2012 as a result of the 
long-term drought and illegal harvesting, and over 2,500 jobs were 
impacted as a result of this disaster.
    It is my understanding that NOAA needs additional information to 
document a fishery failure before it can declare an emergency. Can you 
update me on the status of this declaration? Would a declaration make 
oyster recovery projects a higher priority for RESTORE or Natural 
Resources Damages funding?
    Answer. On September 6, 2012, Florida Governor Scott asked the 
Secretary of Commerce to determine whether the Florida oyster fishery 
suffered a commercial fishery failure in response to excessive drought 
conditions in Apalachicola Bay and elsewhere in the Florida Panhandle. 
On August 5, 2013, the state of Florida provided NOAA with a report 
that included landings and revenue data from the 2012-2013 winter 
fishing season, which showed that within the last year, landings on the 
Florida west coast oyster fishery had declined nearly 60 percent, with 
a 44 percent reduction in revenues. This decline in revenues was an 
unusual occurrence in this fishery and is not part of a cyclical 
downturn in revenues. On August 12, 2013, Secretary Pritzker declared a 
commercial fishery failure for the oyster fishery along the west coast 
of Florida. The fishery resource disaster resulted from excessive 
drought conditions in Apalachicola Bay and elsewhere in the Florida 
panhandle during the 2012-2013 winter fishing season.
    The Trustees continue to evaluate injuries to oysters as a result 
of the Deepwater Horizon oil spill and the appropriate restoration 
approaches to restore for those injuries. Depending on the outcomes of 
these OPA evaluations, NOAA and our co-Trustees will assess which 
oyster recovery projects can compensate the public for those injuries. 
Since NOAA and our co-Trustees must make NRDA project selection 
decisions based on OPA and the NRDA regulations, a declaration for a 
commercial fishery failure does not by itself make oyster recovery 
projects a higher priority for Deepwater Horizon NRDA funding.

    Question 2. Florida Centers of Excellence--The RESTORE Act allows 
2.5 percent of the funds to be awarded for research, which we named the 
Centers of Excellence. It was the intent of the RESTORE Act to define 
Florida's Center of Excellence as the Florida Institute of 
Oceanography. Here is how it is described in statute:

        ``a consortium of public and private research institutions 
        within the state, which shall include the Florida Department of 
        Environmental Protection and the Florida Fish and Wildlife 
        Conservation Commission, for that Gulf Coast State (Sec. 1605 
        (b)).

    Is it your understanding the statute define FIO as Florida's Center 
of Excellence?
    Answer. In Section 1605, the RESTORE Act states that ``the duties 
of a Gulf Coast State under this section shall be carried out . . . for 
the State of Florida, a consortium of public and private research 
institutions within the state, which shall include the Florida 
Department of Environmental Protection and the Florida Fish and 
Wildlife Conservation Commission, for that Gulf Coast State.'' NOAA 
does not have a role in the selection of Centers of Excellence under 
Section 1605. Once the Treasury regulations are finalized, it is NOAA's 
understanding that an announcement will be made regarding which Florida 
institution will ultimately receive funding for the Center of 
Excellence.

    Question 3. Fisheries Data Enhancement--How is NOAA currently 
contemplating using funds from either the RESTORE Act or Natural 
Resources Damages payments to enhance and expand fisheries data 
collection and fisheries science in the Gulf?
    Answer. NOAA is restricted from using the RESTORE Science Program 
funds to support any current or planned research led by NOAA, unless 
agreed to by the grant recipient. Consultations with the Gulf of Mexico 
Fishery Management Council and the Gulf States Marine Fisheries 
Commission and other key constituents will help determine if exceptions 
to this are appropriate; however, NOAA will continue to support its 
fisheries stock assessment activities through annual appropriations. 
NOAA recognizes the need to advance our current understanding of 
fisheries in the Gulf of Mexico. The Program is shaped such that it 
considers the ecosystem in a holistic manner, of which fisheries are 
considered an integral component.
    In addition to the draft goals described for the program, which 
include supporting healthy, diverse and sustainable living coastal and 
marine resources, the Program's focus areas will incorporate elements 
that will address unique fisheries needs:

  <bullet> Conducting periodic ``state of health'' assessments for the 
        Gulf will require development, monitoring, and modeling of 
        ecosystem indicators, including those specifically related to 
        fisheries in both state and Federal waters, to inform regular 
        assessment activities and evaluate success of restoration 
        project.

  <bullet> Studies examining ecosystem processes, functioning and 
        connectivity a combination of laboratory and at sea approaches 
        will help provide foundational information to support fisheries 
        science as well as restoration activities.

  <bullet> Investment in the next generation of observing and 
        monitoring technologies, and data integration tools will 
        support development of tools to monitor resources, including 
        fisheries and protected species, and enhance and improve 
        fishery management in the Gulf.

    In accordance with the Oil Pollution Act (OPA) and NRDA 
regulations, NOAA and our co-Trustees will need to carefully evaluate 
the extent to which enhancing and expanding fisheries data collection 
and fisheries science in the Gulf can compensate the public for 
specific oil spill injuries. The NRDA process for the Deepwater Horizon 
oil spill is ongoing, and, as such, the Trustees continue to evaluate 
the nature and extent of the injuries to natural resources from the 
release of the oil, quantify injuries, including those to marine fish, 
and identify possible approaches to restore for those injuries. OPA 
gives the Trustees a mandate to restore, rehabilitate, replace, or 
acquire the equivalent of the damaged natural resources. To meet this 
mandate, the Trustees seek to restore injured resources and services to 
the condition they would have been in had the spill not occurred, and 
to compensate the public for the losses that occur during the time it 
takes the resources to recover to conditions at the time of the spill. 
The Trustees must select projects that produce benefits that are 
related, or have a nexus, to natural resources injured, and associated 
service losses resulting from the oil spill.
    Through the Trustee's solicitation of public input, we have 
received a range of proposals to address injuries to marine fish. Those 
proposals range from funding for modified gear, to temporary fishing 
responses, to marine protected areas, to expanded science to support 
management decisions. Some of these proposals are more complex than 
others and have various levels of benefits to injured natural 
resources. The Trustees continue to evaluate injuries to fish and their 
habitats and the appropriate restoration approaches to restore for 
those injuries. Depending on the outcomes of these OPA evaluations, 
NOAA and our co-Trustees will assess the extent to which enhanced or 
expanded fisheries data collection and fisheries science in the Gulf 
can compensate the public for those injuries.

    Question 4. Restoration Project Selection Process--The Gulf 
Restoration Council recently released its plan for ecosystem 
restoration. However, the plan does not indicate how projects will be 
selected. Can you describe how the selection process will work and how 
priorities will be weighted?
    Answer. The Gulf Restoration Council adopted its Initial 
Comprehensive Plan on August 28, 2013. The Plan sets out a project and 
program selection process for the Council-Selected Restoration 
Component. The Plan outlines the following process:
    The Council will periodically request proposals from its eleven 
State and Federal members. Individual Council Members may solicit and 
then choose to submit projects and/or programs to the Council for 
consideration. The Council will provide opportunities for the public to 
offer ecosystem restoration ideas through its website and public 
meetings, and Council Members will consider these ideas when developing 
their proposals. The Council will encourage coordination and 
collaboration with other regional efforts.
    Proposals submitted to the Council from its Members will be 
evaluated according to a three-step process:

  a.  Eligibility Verification--The Council will verify the eligibility 
        of each proposal (i.e., determine whether the proposal is 
        complete and meets the minimum set of requirements under 
        applicable law).

  b.  Coordination Review--In order to avoid duplication and maximize 
        benefits from collaboration, the Council will review eligible 
        proposals for potential coordination opportunities, both within 
        other RESTORE Act components and across the other Gulf Coast 
        restoration efforts.

  c.  Evaluation--The Council Members will cooperatively evaluate 
        proposals against the Evaluation Criteria and will draw on 
        experts as needed. Following this evaluation, recommended 
        proposals will be forwarded to the full Council for further 
        consideration.

    The Council will review the recommendations made through the 
evaluation process and select proposals for funding--the Funded 
Priorities List. The Council will publish the Funded Priorities List as 
an addendum to the Plan and provide opportunity for public comment. 
This list will assign primary authority and responsibility for each of 
the projects and programs to one of the eleven Council Members.

    Question 5. Bluewater Ecosystem Restoration--NOAA is actively 
involved in the NRDA process, and has supported a number of coastal 
restoration projects using early restoration funds. However, the spill 
impacted a large amount of the open Gulf, or bluewater, ecosystem.
    What is NOAA doing to improve bluewater ecosystem health, 
specifically valuable commercial and recreational species like tunas, 
swordfish, and billfish and their habitats?
    Answer. The NRDA process for the Deepwater Horizon oil spill is 
ongoing, and, as such, the Trustees continue to evaluate the oil spill 
injuries, including those to bluewater resources, and possible 
approaches to restore for those injuries. The NRDA injury assessment is 
evaluating injuries to bluewater resources like marine fish, 
invertebrates, marine mammals, sea turtles, deepwater corals, and 
others. The results of the injury assessment for these bluewater 
resources will help guide the selection of appropriate restoration 
projects to restore for these injuries. The OPA gives the Trustees a 
mandate to restore, rehabilitate, replace, or acquire the equivalent of 
the damaged natural resources. To meet this mandate, the Trustees seek 
to restore injured resources and services to the condition they would 
have been had the spill not occurred and to compensate the public for 
the losses that occur during the time it takes the resources to recover 
to conditions at the time of the spill.
    Over the course of the NRDA process, the Trustees assess the nature 
and extent of the injuries to natural resources from the release of the 
oil, quantify injuries, and identify possible restoration projects. The 
Trustees must select projects that produce benefits that are related, 
or have a nexus, to natural resources injured and associated service 
losses resulting from the oil spill.
    Through the Trustee's solicitation of public input, we have 
received a range of proposals to address injuries to bluewater 
resources, including marine fish like tunas, swordfish, and billfish. 
Those proposals range from funding for modified gear, to temporary 
fishing reposes, to marine protected areas, to expanded science to 
support management decisions. Some of these proposals are more complex 
than others and have various levels of benefits to injured natural 
resources. The Trustees continue to evaluate injuries to fish and their 
habitats and the appropriate restoration approaches to restore for 
those injuries. Depending on the outcomes of these OPA evaluations, 
NOAA and our co-Trustees will assess which bluewater restoration 
projects can compensate the public for those injuries.

    Question 6. Pilot Program Funding--I have learned of an innovative 
pilot program to test alternatives to surface longlines in the Gulf 
that could help preserve iconic Atlantic Bluefin tuna while allowing 
continued fishing for other tunas and swordfish. If funded by NOAA 
through the NRDA process, this type of project could provide immediate 
ecosystem benefits to the Gulf of Mexico and help recover depleted 
bluefin tuna and billfish populations.
    Can you comment on this pilot project, in particular how it could 
produce a win-win solution that would restore these depleted species 
while allowing coastal businesses to prosper?
    Answer. Outside of the Deepwater Horizon NRDA, NOAA is cooperating 
with researchers working with the Pew Environmental Group, National 
Fish and Wildlife Foundation, NOVA Southeastern University, and others 
to demonstrate the effectiveness of fishing gears such as greenstick 
(used for tunas) and buoy gear (used for swordfish) in the Gulf of 
Mexico. NOAA is also collaborating with the Louisiana Department of 
Wildlife and Fisheries on similar research, funded under the Bycatch 
Reduction Engineering Program, to investigate the effectiveness of 
greenstick gear. Both greenstick and buoy gear may be legally used by 
fishermen under current regulations; however, the gears have not 
``caught on'' with fishermen in the Gulf of Mexico. A purpose of the 
research projects is to demonstrate to fishermen that the gears can be 
effective and how to use them. Word about these projects has spread 
among Gulf of Mexico fishermen generating additional interest in using 
the gears, especially if monetary assistance is available to fishermen.
    One of the potential benefits of fishing with greenstick and buoy 
gear is that there is lower bycatch mortality when compared to pelagic 
longline fishing, meaning that fish that are not kept are more likely 
to be released alive when fishing with greenstick and buoy gear.
    The Trustees continue to evaluate the oil spill injuries to pelagic 
finfish, including bluefin tuna, and possible approaches to restore for 
those injuries. Projects which include gear alternatives to surface 
longlines have been submitted to the Gulf Spill Restoration Project 
Database, which solicits NRDA projects from the public to help restore 
the Gulf of Mexico from damages that occurred due to the Deepwater 
Horizon oil spill. These projects are being evaluated for applicability 
for NRDA funding, including Early Restoration, and are subject to 
review and vetting by all NRDA Trustees. Restoration projects must be 
consistent with criteria included in Section 1006 of the OPA (33 U.S.C. 
Sec. 2706) and the OPA NRDA Regulations (15 CFR Sec. Sec. 990 et seq.) 
to ensure projects adequately restore for injuries caused by the DWH 
oil spill in a cost effective manner. Projects advanced for Early 
Restoration consideration must be negotiated with BP for approval of 
project scope, costs, and crediting of injury. NOAA considers the 
advancement of alternative gear in the Gulf of Mexico to be important 
for evaluation for NRDA funding applicability and continues to work to 
develop and refine potential alternative gear efforts.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                             Lois Schiffer
    Question. Based on the progress to date on the natural resources 
damage assessment, what has NOAA learned about the environmental 
impacts of the dispersant used in response to the Deepwater Horizon 
spill?
    Answer. In order to determine the environmental impacts of the 
dispersant used in response to the Deepwater Horizon oil spill, the 
Natural Resource Trustees have engaged a combination of field, 
laboratory, and numerical modeling approaches as a critical part of the 
Deepwater Horizon Oil Spill Natural Resource Damage Assessment (NRDA). 
Field studies were performed to document environmental conditions, 
evaluate exposure by measuring in situ contaminant concentrations, and 
assess the condition of biological resources through a comprehensive 
biota sampling program that included multiple life stages of fish and 
crustaceans, phytoplankton, and zooplankton. Combining these field 
studies with controlled laboratory studies designed to assess the 
effects of oil and dispersants on Gulf of Mexico biota allow the 
Trustees to interpret and quantify injury impacts at the broad spatial 
and ecological scale necessary for this assessment. In addition, the 
Trustees are evaluating and incorporating relevant environmental and 
exposure data from non-NRDA sources including data from other agencies 
and academic research.
    Immediately following the spill, the Trustees collected and 
evaluated over 6,000 samples throughout the water column for presence 
and concentration of dispersants. These data were collected to 
characterize the extent of the dispersant contamination across the Gulf 
of Mexico, and results of this NRDA effort are displayed in the figure 
below. The vast majority of the dispersants applied at depth (at the 
blowout) remained at depth in a plume between 900-1,300 m, that 
extended for up to or beyond 300 km to the SW of the wellhead, with 
limited data demonstrating it extending 10-15 km to the N-NE. 
Dispersant components were also detected in sediments up to 50 miles 
away from the wellhead. Some of the dispersants applied at the surface 
were transported across the Gulf of Mexico into the nearshore 
environment, but those concentrations are considerably lower than those 
in the offshore environment (largely at depth) as shown in the figure.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   The Trustees have also undertaken a comprehensive toxicity testing 
program designed to evaluate the adverse effects of both the oil and 
dispersants on marine organisms in the Gulf of Mexico. These toxicity 
tests involved exposing test organisms to samples of the released oil, 
dispersants, and dispersed oil, alone and in various combinations, 
across a range of concentrations. A wide variety of representative 
marine and estuarine species have been tested as part of this program. 
To date, this portion of the testing program includes 10 species of 
fish, invertebrates, and shellfish (eastern oyster, blue crab, fiddler 
crab, grass shrimp, gulf killifish, inland silverside, mahi-mahi, red 
drum, sheepshead minnow, and speckled sea trout), a wide range of life 
stages (gametes, larvae, juveniles, and adults) and as many as 10 
different private, government and university laboratories. The 
dispersant Corexit 9500 has been tested alone and in combination with 
Deepwater Horizon oils ranging from ``neat'' unweathered oil to highly 
weathered slick oil.
    In addition to toxicity testing, Trustees have also conducted 
extensive chemical and physical characterizations of dispersant and 
dispersed oil mixtures to determine chemical composition and droplet 
size and/or frequency in the exposure solutions or water accommodated 
fractions used in these tests. Finally, Trustees are also investigating 
the toxicity of dispersant and dispersed oil in the presence of 
ultraviolet light (sunlight).
    Preliminary results from toxicity testing with dispersant alone 
indicates that the dispersants themselves are less toxic than the oils 
they are dispersing. For many of the tests, the Trustees have tested 
the effects of oil without dispersant and chemically dispersed oil on 
the same species and life stage. Generally, the dispersant causes the 
oil to break into small droplets, which theoretically results in 
enhanced dissolution of polycyclic aromatic hydrocarbons (PAHs) from 
the oil droplets into the water. This can result in increased exposure 
of the organisms to the toxic components of the oil. Our preliminary 
results indicate that the effects of the dispersant are not consistent 
across different species, life stages, and oils. In some tests, adding 
dispersant to the oil results in no apparent increase in the toxicity. 
In others, oil toxicity increases as much as 10-fold when it is 
dispersed. Tests are ongoing to determine the variables controlling 
toxicity and to determine the likelihood that the application of 
dispersant will increase the toxicity of the oil.
    Overall, the results of the ongoing toxicity testing program 
provide a means to infer the nature and extent of different types of 
adverse impacts to aquatic organisms based on measured and modeled 
concentrations of oil and dispersants in the water column. Because of 
the enormous spatial scale affected by the presence of oil and 
dispersants, and over which studies were performed, detecting changes 
in natural resources by observing or counting organisms in the field is 
extremely difficult and often impractical. To effectively deal with 
this issue, the Trustees are using numerical models that combine 
results of these field and laboratory studies, using estimated and 
measured water column concentrations in comparison to laboratory and 
field toxicity test results to quantify the extent of toxicity and 
resultant effects on the natural resources found throughout the 
northern Gulf of Mexico. Using computer modeling enables interpretation 
and quantification of injuries at the broader spatial and ecological 
scale necessary for this extensive NRDA.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                             Lois Schiffer
    Question 1. When will the Gulf Coast Ecosystem Restoration Science, 
Observation, Monitoring, and Technology Program be fully established?
    Answer. As required by the RESTORE Act, NOAA established a Gulf 
Coast Ecosystem Restoration Science, Observation, Monitoring, and 
Technology Program, commonly known as the NOAA RESTORE Act Science 
Program, in January 2013. Since January, NOAA has established an 
Executive Oversight Board, selected a Gulf of Mexico-based Director for 
the Program, and established a cross-NOAA science support team, with 
U.S. Fish and Wildlife Service representatives. This team is working 
diligently on developing and implementing engagement opportunities for 
Gulf of Mexico partners and developing a science plan for the Program. 
Initial input to the science plan will inform the first Request for 
Proposals, anticipated this fall, pending completion of the Treasury 
regulations for the RESTORE Act and the release of funds. In the 
meantime, NOAA continues to build internal operating policies and 
procedures to manage the program.

    Question 2. What is NOAA currently contemplating in terms of using 
funds from either the RESTORE Act or NRDA to enhance and expand 
fisheries data collection and fisheries science in the Gulf?
    Answer. Per the RESTORE Act, NOAA is restricted from using the 
RESTORE Act Science Program funds to support any current or planned 
research unless agreed to in writing by the grant recipient; however, 
NOAA will continue to support its fisheries stock assessment activities 
through annual appropriations.
    NOAA recognizes the need to advance our current understanding of 
fisheries in the Gulf of Mexico. The RESTORE Act Science Program is 
shaped such that it considers the ecosystem in a holistic manner, of 
which fisheries are considered an integral component. In addition to 
the draft goals described for the program, which include supporting 
healthy, diverse, and sustainable living coastal and marine resources, 
the Program's focus areas will incorporate elements that will address 
unique fisheries needs. For example, conducting periodic ``state of 
health'' assessments for the Gulf will require development, monitoring, 
and modeling of ecosystem indicators, including those specifically 
related to fisheries in both state and Federal waters, to inform 
regular assessment activities and evaluate success of restoration 
projects.
    In accordance with the Oil Pollution Act (OPA) and NRDA 
regulations, NOAA and our co-Trustees will need to carefully evaluate 
the extent to which enhancing and expanding fisheries data collection 
and fisheries science in the Gulf can compensate the public for 
specific oil spill injuries. The NRDA process for the Deepwater Horizon 
oil spill is ongoing, and, as such, the Trustees continue to evaluate 
the nature and extent of the injuries to natural resources from the 
release of the oil, quantify injuries, including those to marine fish, 
and identify possible approaches to restore for those injuries. OPA 
gives the Trustees a mandate to restore, rehabilitate, replace, or 
acquire the equivalent of the damaged natural resources. To meet this 
mandate, the Trustees seek to restore injured resources and services to 
the condition they would have been in had the spill not occurred, and 
to compensate the public for the losses that occur during the time it 
takes the resources to recover to conditions at the time of the spill. 
The Trustees must select projects that produce benefits that are 
related, or have a nexus, to natural resources injured, and associated 
service losses resulting from the oil spill.
    Through the solicitation of public input, the Trustees have 
received a range of proposals to address injuries to marine fish. Those 
proposals range from funding for modified gear, to temporary fishing 
reposes, to marine protected areas, to expanded science to support 
management decisions. Some of these proposals are more complex than 
others and have various levels of benefits to injured natural 
resources. The Trustees continue to evaluate injuries to fish and their 
habitats and the appropriate restoration approaches to restore for 
those injuries. Depending on the outcomes of these OPA evaluations, 
NOAA and our co-Trustees will assess the extent to which enhanced or 
expanded fisheries data collection and fisheries science in the Gulf 
can compensate the public for those injuries.

    Question 3. Fisheries biologists in the Gulf have said it is 
difficult for them to judge the difference in Gulf fish from before the 
spill with fish after the spill because they had so little fishery data 
when the spill happened. What kind of investments is NOAA prepared to 
make in fisheries research in the Gulf to help establish better 
baseline data on fish with spill recovery funds?
    Answer. For the RESTORE Act Science Program, we anticipate 
supporting studies examining ecosystem processes, functioning, and 
connectivity using integrative field and laboratory efforts, which will 
help provide foundational information to support fisheries science as 
well as restoration activities. Additionally, conducting periodic 
``state of health'' assessments for the Gulf of Mexico will require 
development, monitoring, and modeling of ecosystem indicators, 
including those specifically related to fisheries in both state and 
Federal waters, and will help inform regular assessment activities.
    NOAA recognizes the need to enhance its ``rapid response'' 
capability and enable computer-intensive analyses, which depend on data 
from a variety of platforms, including satellites, planes, ships, and 
buoys. NOAA is committed to improving its capability to detect, track, 
and measure the impact of unexpected, episodic disturbances, especially 
large oil spills. This capability requires that: (1) each disturbance 
location of origin is pinpointed and its subsequent path and potency 
are monitored over time; and (2) water conditions (e.g., contaminant 
levels) and organism health and abundance are measured before 
(baseline), during and after the disturbance.

    Question 4. NOAA collects most of its data on fish stocks by 
analyzing what a very small percentage of fishermen are catching. 
Biologists say that is giving us an extremely limited picture of the 
fish stocks in the Gulf and that more ``fisheries independent'' data is 
needed. Is NOAA planning to use oil spill recovery money to expand 
analysis of fish stocks by examining where the fish live rather than 
just relying on what fishermen are catching?
    Answer. NOAA recognizes that more fishery-independent surveys and 
studies are needed and plans to pursue these activities, to the extent 
allowed under our RESTORE Act and OPA authorities, as described in 
question (3) above.
    NOAA, in partnership with other federal, state, and academic 
entities has a Gulf of Mexico fishery-independent sampling program that 
has been in operation for over 30 years. NOAA is keenly aware of the 
strengths and weaknesses of fishery-dependent and fishery-independent 
data and the challenges associated with their collection. For example, 
to be useful in stock assessments, the latter are typically far more 
expensive than the former. Simultaneous collection of fish and habitat 
information is optimal, regardless of whether data are derived from 
fishing vessels or gathered by fishery scientists using their own 
equipment.
    NOAA anticipates supporting studies examining ecosystem processes, 
functioning, and connectivity using a combination of laboratory and at 
sea approaches, which will help provide foundational information to 
support fisheries science as well as restoration activities. 
Furthermore, investing in the next generation of observing and 
monitoring technologies will enhance our ability to monitor resources, 
including fisheries and protected species.

    Question 5. What steps are being taken to expedite project 
construction and to make sure these projects don't get caught up in 
unnecessary delays?
    Answer. The Endangered Species Act (ESA) and Magnuson-Stevens 
Fishery Conservation and Management Act require NOAA to evaluate the 
impacts of restoration projects on protected species and essential fish 
habitat. In future years, we expect substantial increases in 
consultation requests as a result of restoration projects initiated 
through the RESTORE Act, the NRDA process, and criminal settlements 
with the responsible parties, and we are actively working to develop 
guidelines and processes aimed at frontloading and streamlining such 
consultations so they can be completed in a timely manner. 
Specifically, we are looking for ways to provide more transparency and 
predictability about our protected species and habitat conservation 
needs so project applicants can strategically avoid proposing projects 
in important conservation areas or during times that may be 
unnecessarily harmful to our trust resources. For example, we aim to 
provide project applicants and permitting agencies a standardized 
process to address consultation requirements and best management 
practices for each project type, and will identify conservation 
priority areas, mitigation, and criteria for ESA determinations. Also, 
we are looking for ways to increase our efficiency in conducting 
consultations; for example, by evaluating multiple related projects in 
single, programmatic-level consultations and/or by developing a 
framework for expediting project-specific consultations if appropriate.
    NOAA is proactively engaged in state-specific RESTORE Act 
regulatory planning work groups, in which state and Federal regulatory 
agencies are discussing project types and potential sites for 
restoration projects. During this early planning stage, we are 
providing technical assistance and advising of issues that should be 
considered in project design to help ensure the project construction 
application is as complete as possible to initiate ESA and essential 
fish habitat consultations, as appropriate. These issues include what 
NOAA trust species may be in the project area, what types of habitat 
may be impacted, best management practices, potential mitigation 
options, and adaptive management and monitoring recommendations.
    NOAA is currently evaluating the workforce requirements to be able 
to engage fully with the states, Federal permitting agencies, and other 
partners to implement these streamlining measures. With the anticipated 
number and complexity of projects to be proposed under the RESTORE Act, 
NRDA, criminal settlement funding, and other existing programs targeted 
for coastal restoration.

    Question 6. What are the fishery data collection projects the 
agency is considering under NRDA?
    Answer. As described in the response to Question 3 (above), NRDA 
Trustees continue to evaluate injuries to fish and their habitats and 
the appropriate restoration approaches to restore for those injuries. 
Depending on the outcomes of these OPA evaluations, NOAA and our co-
Trustees will assess the extent to which fisheries data collection 
projects can compensate the public for those injuries.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Hon. Rachel Jacobson
    Question 1. Coordinating Restoration Efforts--The Natural Resources 
Damages Assessment (NRDA) process, RESTORE Act, and the criminal 
settlement are all happening concurrently. In addition, there are other 
ecosystem restoration efforts in these states that began long before 
the disaster. How are your respective entities coordinating to avoid 
duplication?
    Answer. The Department of the Interior, along with NOAA, EPA, USDA 
and Alabama, Florida, Louisiana, Mississippi and Texas are members of 
both the RESTORE Council and the Trustee Council, which is established 
pursuant to the Oil Pollution Act to conduct the NRDA for the Deepwater 
Horizon oil spill. As a result, there is shared knowledge and close 
coordination among the members of the RESTORE Council and the Trustee 
Council on the work that is being undertaken in these two forums to 
address the restoration needs of the Gulf of Mexico. Many scientists 
from these agencies who have worked on the BP Oil Spill NRDA process 
are also engaged at some level with RESTORE Act restoration efforts. 
Overall, there is a high degree of coordination among the Gulf Coast 
States and the Federal agencies to coordinate the work so as to avoid 
duplication and ensure that we achieve maximum benefits from the fiscal 
resources that are allocated to the restoration of the Gulf from among 
the various funding sources.

    Question 2. Restoration Project Selection Process--For the RESTORE 
Act, the draft comprehensive plan lists over 60 pages of potential 
projects, but the planning document says that ``this list does not 
represent a list of projects and programs that the Council will 
prioritize or necessarily fund.'' How can we ensure the project 
selection process is transparent and is open to the public?
    Answer. The Department of the Interior is working within the 
RESTORE Council to ensure that the projects and programs that are 
funded by the Council will be selected through a transparent process 
with opportunities for public input. The RESTORE Act requires the 
Initial Comprehensive Plan (Plan) to include ``a list of projects and 
programs authorized prior to the date of enactment of [the Act] but not 
yet commenced, the completion of which would further the purposes and 
goals of [the Act].'' In accordance with the Act, Council Members have 
developed a list of projects and programs. In general, Council Members 
put forward projects and programs that have either been federally 
authorized by Congress or approved under a State program, plan, or 
action. This information will enable the Council and the public to have 
better awareness of projects and programs that have already been 
authorized in the region. The list does not represent a list of 
projects and programs that the Council will prioritize or necessarily 
fund.

    Question 3. Will we have to have another public comment period?
    Answer. Yes. Consistent with the Council's commitment and efforts 
to date in ensuring robust public input throughout the entire Plan 
development process, the Department of the Interior fully supports the 
Council's commitment to ensure that all projects that the Council 
proposes to fund be subject to extensive public review and comment.

    Question 4. What will the RESTORE Council be looking for when 
evaluating State-specific Restoration Plans?
    Answer. The Council is in the process of establishing the criteria 
that it will use to evaluate state plans. Interior will recommend that 
the Council ensure consistency between State-specific Restoration Plans 
and the overall goals and objectives of the Council's Initial 
Comprehensive Plan. In our view, we would look to see if the proposals 
and projects in the State-specific Restoration Plans further the 
achievement of the goals of the Council's Initial Comprehensive Plan. 
As set forth in the Council's Draft Initial Comprehensive Plan, these 
goals include:

  <bullet> Restore and Conserve Habitat

  <bullet> Restore Water Quality

  <bullet> Replenish and Protect Living Coastal and Marine Resources

  <bullet> Enhance Community Resilience

  <bullet> Restore and Revitalize the Gulf Economy

    Question 5. Assessing Ecosystem Restoration Progress--As you know, 
the National Academy of Sciences (NAS) convenes an Independent Science 
Review Panel composed of experts in restoration science for Everglades 
Restoration. The panel produces reports to Congress every 2 years, 
which will include an assessment of ecosystem health and other measures 
of progress in restoration of the Everglades. These reports are 
integral in selecting future restoration projects because scientists 
examine changes to the ecosystem based on progress and changes in the 
ecosystem. Do you think the RESTORE Council should adopt a similar 
reporting mechanism that updates the status of restoration with the new 
developments within the ecosystem?
    Answer. The Department of the Interior places considerable value on 
the biannual review conducted by the National Academy of Sciences (NAS) 
of the Everglades restoration program. The NAS review has assisted 
Federal and state restoration managers in adaptively managing the 
Everglades restoration program and in addressing some of the highest 
priority resource needs. Interior would support Council consideration a 
similar approach in the Gulf Coast restoration effort as an NAS review 
could provide independent scientific review of the restoration of the 
Gulf of Mexico ecosystem.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                          Hon. Rachel Jacobson
    Question. Restoration of Public Waters and Lands--Coming from 
Minnesota, where tourism is our 5th largest industry and the source of 
nearly 11 percent of our total private sector employment, I've seen 
first-hand the positive economic impact of this industry. The Boundary 
Waters Canoe Area and Voyageurs National Park in Minnesota draw 
visitors from across the country and around the world, both are 
protected waterways and lands.
    The Department of the Interior maintains many scenic areas, 
including the National Seashores on the Gulf Coast which were affected 
by the Gulf oil spill, many of which are tourist destinations 
supporting local economies. Could you talk about the progress of the 
restoration and the importance of our public waters and lands to local 
tourism economies?
    Answer. The Department of the Interior manages 3.5 million acres in 
the Gulf region, on 45 national wildlife refuges and nine national 
parks in all five Gulf Coast States that are critical to the long-term 
health, economy and resiliency of Gulf Coast communities, including 
local tourism. The lands we manage support an array of culturally and 
biologically diverse habitats, including barrier islands, coastal 
marshes and estuaries, wetlands and beaches which collectively provide 
important habitat, as well as recreational and tourism opportunities. 
Hunting, fishing, bird watching and other wildlife-dependent recreation 
contribute more than $25 billion annually to the Gulf Coast region's 
economy. According to the Bureau of Labor Statistics, the leisure and 
hospitality sector of the region's economy provides 8 percent of all 
the region's jobs. Beach visitors, campers, and day visitors to 
National Parks and National Wildlife Refuges throughout the Gulf of 
Mexico contribute tourism dollars. On any given day, hundreds of boats 
are recorded visiting Gulf Islands National Seashore also contributing 
to local economies in terms of launch fees, boat fuel, food and 
beverages purchased.
    In the three years since the Deepwater Horizon oil spill, Interior, 
together with our Deepwater Horizon Natural Resource Damage Assessment 
(DWH NRDA) co-trustee agencies in the Federal and state governments, 
has made significant progress to address injuries to the natural 
resources resulting from the spill.
    A NRDA requires that as the DWH NRDA trustees seek to make the 
public whole after an oil spill, that they assess both the type and 
quantity of natural resources lost as well as the lost use of those 
resources. Via early restoration, which was made possible by an 
unprecedented agreement through which BP is providing $1 billion for 
restoration projects prior to completion of the injury assessment, many 
of the first NRDA-derived restoration projects will enhance tourism and 
provide a boost to the Gulf Region's economy.
    The Trustees have approved ten early restoration projects, a number 
of which address lost use or will indirectly enhance tourism and other 
recreational activities. For example, the Department of the Interior 
has partnered with the state of Alabama to implement a dune restoration 
project that extends along Bon Secour National Wildlife Refuge and 
other publicly and privately-owned land in Alabama. The Department has 
also partnered with Florida, Alabama and Mississippi to implement 
projects that restore and/or enhance habitat for beach-nesting birds 
and sea turtles. Functional dunes and wildlife nesting areas help 
preserve tracts and habitat that are important not only to wildlife but 
also to tourists and other recreationalist who engage in wildlife 
watching and other nature-based activities.
    Most recently, the DWH NRDA Trustees have announced a list of 
projects to be considered in future phases of early restoration. This 
list includes two National Park Service projects that will directly and 
significantly improve visitor use at Gulf Islands National Seashore. 
The Beach Enhancement Project at Gulf Islands National Seashore would 
remove tens of thousands of cubic yards of asphalt fragments and road 
base material that has been scattered over hundreds of acres and 
approximately eleven miles of the park. The Ferry Boat Access to Ft. 
Pickens, Gulf Island National Seashore project would provide new ferry 
service from downtown Pensacola, Florida to Fort Pickens. Both the 
asphalt removal project and the ferry projects would significantly 
enhance visitor access and the quality of the visitor experience within 
the parks. Other tourism and recreation-oriented projects have been 
proposed by each of the five Gulf States. Examples of these projects 
include boat ramp, boardwalk, and pier construction and restoration in 
Florida; and in Mississippi construction of a science education center, 
ferry and beach-front promenade
    The Department of the Interior is working with its co-trustees to 
ensure restoration of the natural resources we are responsible for 
managing as well as restoration of the lost use of those resources 
caused by the oil spill.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                          Hon. Rachel Jacobson
    Question. What are the priorities that your agency and NOAA have 
identified under the Gulf Coast Ecosystem Restoration Science, 
Observation, Monitoring and Technology Program?
    Answer. The Gulf Coast Ecosystem Restoration Science, Observation, 
Monitoring and Technology Program (Program) team recently produced a 
Science Plan Framework document which is built upon the research 
priorities identified in section 1604 of the RESTORE Act. The Framework 
lays out the vision, goals, guiding principles, and focus areas to 
guide the development of a Science Plan. The Science Plan Framework 
document is available at http://restoreactscienceprogram.noaa.gov/. 
Building upon the Framework Plan, the Program team will consult with 
the Regional Gulf of Mexico Fishery Management Council and Gulf State 
Marine Fisheries Commission and seek input from the public, 
universities, and various other relevant organizations to produce a 
detailed Science Plan. This Plan will be the basis upon which Gulf 
science research proposals will be evaluated and recommended for 
funding. To support the Plan, we are building upon extensive research, 
monitoring and modeling plans that exist for the Gulf of Mexico and 
coordinating with nascent science efforts, including the State Centers 
of Excellence and other science components of RESTORE, the National 
Academies of Science Gulf Program, NRDA, and existing Federal and state 
science and technology programs. As new science refines our 
understanding of the Gulf, these priorities are expected to evolve to 
lead the agencies closer to our vision--the long-term sustainability of 
the Gulf of Mexico ecosystem and the communities that depend on it.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Jeff Trandahl
    Question 1. Restoration Project Funding--The criminal settlement 
agreements with BP and Transocean clearly indicated that states will 
receives a certain percentage of funding for restoration projects. But, 
it's unclear how NFWF will meet the project funding needs that benefit 
the Gulf as whole. More specifically, what are you anticipating trying 
to do by way of addressing habitat and fish and wildlife impacts 
offshore?
    Answer. Under the BP and Transocean criminal plea agreements, 
payments to NFWF (into what NFWF calls its ``Gulf Environmental Benefit 
Fund'' or ``GEBF'') are allocated by a formula established within the 
plea agreements and may only be used to support projects benefitting 
natural resources in the Gulf Coast states and waters. While NFWF must 
adhere strictly to the terms of the plea, doing so does not preclude 
supporting projects that contribute to Gulf-wide ecosystem restoration 
efforts. NFWF is required to consult with State resource agencies and 
with NOAA and FWS in identifying projects to receive funding. Through 
this consultation process, and based on the agencies' respective roles 
on both the RESTORE Council and Deepwater Horizon Natural Resource 
Damage (NRD) Trustee Council, the agencies may recommend projects that 
advance emerging natural resource priorities for the Gulf as a whole. 
As and when the agencies recommend these types of projects, NFWF will 
be amenable to considering them for funding from the GEBF.

    Question 2. At NFWF are you seeing ideas for blue water projects 
that will deal with damage in the deep water?
    Answer. NOAA is the lead Federal agency with regulatory and 
programmatic authority offshore in the Gulf. Thus it is expected that 
NOAA, as part of its consultation with NFWF, will be recommending 
certain projects that remedy harm to resources adversely affected by 
the Deepwater Horizon oil spill in these environments. NOAA will likely 
focus on projects that provide both direct and indirect benefit to 
marine species (e.g., marine fish, sea turtles) throughout their 
lifecycle.

    Question 3. Restoration Project Selection--How is NFWF coordinating 
project selection with other funds, state, and local governments?
    Answer. Under the plea agreements, NFWF is required to consult with 
the appropriate resource agencies in each state and with NOAA and FWS 
in identifying projects. This required consultation is the primary 
means by which NFWF will coordinate its funding decisions with other 
related activities such as funding decisions made in accordance with 
the RESTORE Act and those made by the NRD Trustee Council. NFWF itself 
does not have a formal role under the RESTORE Act or the NRD Trustee 
Council and therefore must necessarily rely for purposes of 
coordination on the state and Federal agencies with authority under 
these programs. The natural resource management plans required under 
RESTORE and NRD, which will be developed with significant public input 
and communicated to NFWF by the agencies that created them, will inform 
NFWF project decisions under the GEBF.

    Question 4. Alternative Fishing Gear Pilot Program--NFWF is funding 
a pilot program to test alternative fishing gears to long lining in the 
Gulf of Mexico. Based on your evaluation of this project, could it be 
scaled up so that it could become an alternative to surface longline 
fishing to protect spawning bluefin tuna?
    Answer. NFWF has initiated a cooperative fisheries research project 
to use four current commercial fishing vessels in three locations 
around the northern and eastern Gulf of Mexico to evaluate green stick 
and swordfish buoy gears as potential environmentally-friendly 
alternatives to the current pelagic longline fishery, potentially 
maximizing net economic returns in local waters while reducing bycatch 
of depleted species such as bluefin tuna. To date, these technologies 
have shown significant progress in reducing unwanted bycatch in the 
bluefin tuna fishery. NFWF has recently awarded additional funding to 
continue this potentially important gear alternative to further test 
its effectiveness in reducing bycatch.
    Preliminary bycatch and economic results from the study fleet 
suggest that this has potential to be scaled up to become an 
alternative to surface longline fishing. The economic viability of this 
gear is dependent on the experience of the captain and the cost of fuel 
per fishing trip. The cost of fuel is a function of the size of the 
vessel and, therefore, the economic performance is improved on smaller 
vessels.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                             Jeff Trandahl
    Question. How is the National Fish and Wildlife Foundation planning 
to manage financing for larger multi-year projects that will depend on 
year 4 and 5 payments from BP, given that the Foundation cannot award 
grants for funds that are not in hand?
    Answer. As noted in the question, the National Fish and Wildlife 
Foundation (NFWF) will only obligate funds to projects once funds have 
been actually received from either BP or Transocean in accordance with 
the payment schedule set forth in the plea agreements. This payment 
schedule will not preclude NFWF from supporting larger, multi-year 
projects, however. For such projects, NFWF anticipates awarding funds 
for discrete phases of these projects as funds become available, with 
payments tied to the achievement of project milestones.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                             Jeff Trandahl
    Question 1. Will you be obligating funds on annual basis? If so, 
why?
    Answer. The plea agreements set forth an annual payment schedule 
from BP over a five-year period and from Transocean over a two-year 
period. NFWF will not obligate funds to projects until those funds have 
actually been received. However, NFWF seeks to obligate funds in a 
timely manner once they have been received to satisfy the terms of the 
plea that these funds help remedy harm to Gulf Coast natural resources 
that were impacted by the Deepwater Horizon spill. NFWF anticipates 
obligating funds on a rolling and project-by-project basis, which will 
vary as appropriate based on conservation need and opportunity, and to 
reflect different project types. All recipients awarded project funds 
through NFWF's Gulf Environmental Benefit Fund will adhere to strict 
reporting requirements and monitoring and oversight by NFWF to ensure 
all funds are spent in an expeditious and effective manner and to 
provide certainty that conservation milestones are being achieved on 
schedule.

    Question 2. For folks or organizations interested in submitting 
projects for funding, what is the best way for them to offer their 
projects for funding consideration by NFWF?
    Answer. Under the plea agreements, NFWF is required to consult with 
state resource agencies of the Gulf Coast states, as well as with NOAA 
and FWS, in identifying projects that meet the terms of the plea 
agreements. As part of the consultation requirement, each state has 
agreed to establish a process to individually solicit project ideas, 
and public input to the extent desired or required, directly through 
newly-established websites. These sites are being designed to accept 
project ideas from local governments and other public agencies, non-
governmental organizations, and others. Individual state project 
portals can be found at www/nfwf.org/gulf.

    Question 3. How does your organization plan to coordinate with the 
other activities occurring for example under the Council or in the 
states? Do you feel confident that the proper coordination will occur?
    Answer. To the extent practical, NFWF will coordinate projects 
under the Gulf Environmental Benefit Fund with emerging priorities and 
identified needs under RESTORE and the NRD Assessment. The 
representatives from the state and Federal resource agencies with whom 
NFWF is required to consult under the plea are in most cases the same 
individuals appointed by their respective Governors or agency directors 
to serve on both the RESTORE Council and NRD Trustee Council. In this 
regard, NFWF is confident that its activities under the Gulf 
Environmental Benefit Fund will be sufficiently coordinated with and 
informed by other important Gulf restoration efforts. That said, 
because NFWF itself does not have a formal role under the RESTORE Act 
or the NRD Trustee Council, NFWF must necessarily rely for purposes of 
coordination on the state and Federal agencies with authority under 
these programs.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                            Trudy D. Fisher
    Question. What assistance do the state agencies need from Federal 
entities to ensure that state needs are met?
    Answer. Thank you for the opportunity to share our ideas about the 
states need to ensure that restoration activities in the aftermath of 
the Deepwater Horizon oil spill are executed in an effective and timely 
manner. As you know, the Oil Pollution Act, which governs the Natural 
Resources Damage Assessment (NRDA) process following an oil spill, has 
never been used in circumstances of the magnitude the Gulf States face. 
We are learning firsthand how Federal agencies' procedures and 
approaches, considered routine for them, can be cumbersome hurdle s 
that threaten the success of our timely restoration efforts.
    One example is how the Federal National Environmental Policy Act 
(NEPA) is being interpreted. When project s are exclusively within 
state borders, we believe that State laws more than adequately protect 
the environment and address the same issues as NEPA but without the 
cumbersome Federal steps. In fact, if the Federal NEPA requirements for 
state projects were removed, Mississippi would have numerous inland 
projects already underway. At the very least there could be a 
categorical exclusion for restoration projects under the Oil Pollution 
Act. These projects are directly related to environmental restoration 
and are thus inherently beneficial to the environment, not adverse 
impacts.
    Thank you again for seeking our input about the challenges the 
states face in completing our restoration duties. The Deepwater Horizon 
spill was an unprecedented event and offers us all, both Federal and 
state entities, an opportunity to improve how we get our jobs done.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Hon. George Neugent
    Question 1. Restore Implementation--How can the Federal Government 
be more helpful to Florida's counties for RESTORE implementation?
    Answer. The witness did not respond.

    Question 2. State Role in Project Selection--In your testimony you 
spoke about the Memorandum of Understanding with the state government. 
Can you please describe the state's role in the Consortium for project 
selection?
    Answer. The witness did not respond.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                          Hon. George Neugent
    Question 1. Has the consortium created auditing procedures for the 
money they will be responsible for disbursing?
    Answer. The Consortium has not created formal rules and procedures 
such auditing yet. The Florida Auditor General has developed Draft 
rules for auditing procedures related to the distribution of funds from 
the Deepwater Horizon Oil spill. The deadline for comments on these 
rules is August 26, 2013. See Chapter 10.550, F.A.C. Proposed Rules.\1\ 
An example of what these rules address includes:
---------------------------------------------------------------------------
    \1\ Rules can be found at: www.myflorida.com/audgen/pages/
whatsnew.htm

  <bullet> A requirement for a statement of compliance with relevant 
        State and Federal rules and laws as well as consistency with 
---------------------------------------------------------------------------
        any relevant grant agreement.

  <bullet> These rules also define this type of reporting to be related 
        to funds received directly by BP or state/local grants.

  <bullet> Describing any additional activities necessary for preparing 
        financial audit reports.

  <bullet> For any year Deepwater funds are received or expended, an 
        opinion that those receipts and expenditures are presented 
        fairly.

  <bullet> A schedule of receipts and expenditures that are not Federal 
        awards or State financial assistance.

    As the Consortium progresses, it will adhere to, develop or adopt 
any necessary rules that fully comply with appropriate Federal and 
State laws, rules and regulations (many of which are likely 
forthcoming).

    Question 2. Recently, the Council released their draft 
implementation plan. Did you have any thoughts or comments on their 
draft?
    Answer. Monroe County, as well as several other local governments 
and the Consortium, submitted formal comments on the Council's Draft 
Comprehensive Plan.\2\ The Consortium's comments explained the role of 
the Consortium and additionally raised the following issues:
---------------------------------------------------------------------------
    \2\ Consortium comments can be found at: www.fl-counties.com/
advocacy/gulf-consortium

---------------------------------------------------------------------------
  <bullet> Establish the comprehensive plan based on sound science.

  <bullet> Recognize the benefits of regionalism in project selection.

  <bullet> Identify economic restoration as a clearly stated plan 
        Objective.

  <bullet> Prioritize the Objectives consistent with the RESTORE Act.

  <bullet> Clarify the Council's decision-making process for 
        evaluating, prioritizing and selecting ecosystem restoration 
        projects.

  <bullet> Clarify the weighting for each criterion identified within 
        the Priority Criteria.

  <bullet> Streamline Federal regulatory requirements to ensure 
        unhindered planning, project and program implementation; 
        Clarify National Environmental Policy Act (NEPA) analysis 
        requirements.

  <bullet> For Appendix A, define ``authorized but not yet commenced.''

  <bullet> Work with State and local officials to coordinate project 
        selection and refine Appendix A.

  <bullet> Allow for infrastructure projects and structural 
        enhancements to mitigate risks to coastal resiliency.

  <bullet> Provide for Administrative and Planning Expense 
        Reimbursement

  <bullet> Revise the Draft Initial Plan to allow expenditures from 
        Florida's allocation of the Spill Impact Component for the 
        Consortium's administrative and planning costs associated with 
        the development of the State Expenditure Plan.

    In addition to many of these same points, Monroe County's comments 
highlighted the following comments:

  <bullet> Outline project submittal and assignment procedures.

  <bullet> Create one set of streamlined project documentation 
        requirements.

  <bullet> Establish a multi-disciplined Project Review Team for review 
        of Council projects.

  <bullet> Clarify and establish rolling timeframes for project 
        submittals (example quarterly or twice per year).

  <bullet> Define how responsible parties for Council projects will be 
        accountable for their implementation.

  <bullet> Develop timeline for Council Comprehensive Plan Update and 
        the update of the 3-Year Prioritized Project List.

    <ctr-circle> For the first 3-Year pipeline of projects rely on the 
            certainty of funding amounts already available.

    <ctr-circle> Build upon previous project submittals.

    <ctr-circle> Sort projects by type.

  <bullet> Clarify approach to NEPA analysis at the project and program 
        levels.

  <bullet> Develop clear time-oriented reimbursement and advance 
        payment procedures.

  <bullet> Explain the timeline and process for planning consistency 
        determinations (amongst the Council, State and local planning 
        processes).

  <bullet> Provide more guidance on the State Expenditure Plan 
        development and approval process by the Council.

    It will be difficult to embark on those planning efforts 
expediently without knowing what projects and process the Council will 
be following. Finalizing a clear Council Comprehensive Plan is 
extremely important because the State Expenditure Plans and the local 
government multi-year implementation plans will be required to be 
consistent with it.

    Question 3. For folks or organizations interested in submitting 
projects for funding, who is the best point of contact at the 
consortium?
    Answer. While the Consortium is not yet at the point that is 
accepting project submissions directly, the Florida Department of 
Environmental Protection is actively accepting project submittals 
through their website. The Consortium's contact is Doug Darling.

    Question 4. At this point, do you see any roadblocks in the 
implementation process? If so, what are they?
    Answer. While it is early in the implementation process after the 
passage of the RESTORE Act, there is the potential for some challenges. 
We have shared some of these concerns with the Department of Commerce 
staff and Senator Nelson's office on a recent visit to Washington D.C. 
For local governments, several aspects of RESTORE Act implementation 
have the potential to be complex, convoluted, and ultimately, costly to 
local governments in terms of staff time, local government resources 
and administrative costs. Several of these ``roadblocks'' were outlined 
in our comments on the Council's Draft Comprehensive Plan, but in 
summary our concerns largely relate to the following:

  <bullet> Process for projects and plans. Processes that are to 
        developed for project approval including multi-year 
        implementation plan development (and approval of them), NEPA 
        review and analysis (and categorical exclusions from NEPA), 
        requirements of the ``certification'' process for local plans 
        outlined in the RESTORE Act, requirements for funding 
        ``previously approved projects and programs'';

  <bullet> Reimbursement and project documentation. Expense 
        reimbursement issues including wage and procurement 
        requirements, timeframes and review process for either advance 
        payments or reimbursement, better defining planning assistance 
        and administrative expenses outlined in the RESTORE Act; and,

  <bullet> Post-project requirements. Requirements for post project 
        monitoring, performance measures or milestones and reporting of 
        pre and post project benefits.

    We anticipate that many of these issues may be resolved in the 
Treasury Regulations, which were just released and which we are still 
digesting. Our view is that the process to be established must be 
sensitive to the fiscal and staffing constraints that local governments 
have, and that the easier the process is, the more expeditiously we 
will be able to start restoring the Gulf of Mexico.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                              Eric Draper
    Question 1. Early Restoration Funding--Former Senator Bob Graham 
and William Riley wrote an op-ed in the Washington Post where they 
criticized the rate at which early restoration money is being spent. 
Since you have been awarded monies for early restoration projects, can 
you speak to how they early money is being spent?
    Answer. The witness did not respond.

    Question 2. State Restoration Plans--In your testimony you say that 
the state plans should promote restoration and long-term health and 
sustainability to the maximum extent possible. Determining the maximum 
extent will require sound science. How is the environmental community 
working to ensure the best possible science is involved in the state 
restoration plans?
    Answer. The witness did not respond.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Hon. Bill Nelson to 
                          Dr. Stephen Polasky
    Question. Restoration Project Prioritization--Can you provide us 
with recommendations on how the Council should prioritize investments 
for ecosystem restoration and the long-term health of the gulf?
    Answer. The witness did not respond.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                          Dr. Stephen Polasky
    Question. What specific resiliency efforts do you think would 
benefit states such as Mississippi?
    Answer. Coastal communities are subject to many types of 
disturbances, both natural (tropical storms and hurricanes), as well as 
human-caused (economic recessions and oil spills). Resilience of 
communities refers to how quickly and how completely communities 
recover from disturbances.
    When the specific type of disturbance facing a community is well 
known, such as when communities are known to face the risk of flooding 
from storm surge association with hurricanes, there often are specific 
measures that can be taken to increase community resilience. In the 
face of risk of damage from waves or flooding from tropical storms and 
hurricanes, a coastal community can increase resilience by:

  <bullet> Protecting oyster reefs, coastal marshes, mangroves, and 
        other ecosystems that can absorb wave energy and reduce flood 
        height;

  <bullet> Investing in infrastructure such as seawalls or levees;

  <bullet> Redesign and relocate infrastructure and buildings to reduce 
        the risk of wave damage or flooding;

  <bullet> Improving communications and early warning systems to 
        provide information to people of impending danger;

  <bullet> Investing in disaster preparedness and planning that allow 
        for more rapid recovery following a damaging storm event.

    Similarly, if the risk arises from an oil spill, the resilience of 
a coastal community can be enhanced by:

  <bullet> Investing in safety procedures and engineering to reduce the 
        risk of catastrophic accidents;

  <bullet> Investing in oil spill emergency response capabilities so 
        that both equipment and trained personnel are readily available 
        to quickly respond to any spill that does occur in order to 
        reduce the amount of oil that reaches shore;

  <bullet> Maintaining healthy coastal ecosystems that recover from oil 
        spills more quickly and completely;

  <bullet> Investing in disaster preparedness and planning that allow 
        for more rapid recovery following a spill.

    In some cases, a disturbance to a coastal community will come as 
more of a ``surprise'' (an unexpected event that is difficult to 
foresee ahead of time). Certain attributes of coastal communities can 
increase resilience in a wide range of potential disturbances:

  <bullet> Maintaining diversity: financial investors know that 
        diversification of their portfolio reduces risk. Coastal 
        communities that have more diverse economies not reliant on one 
        or two industries will typically be more resilient to economic 
        downturns or disturbances to a particular industry (e.g., a 
        disruption of transportation that affects tourism). Similarly, 
        greater biodiversity in ecosystems typically makes such 
        ecosystems more resilient.

  <bullet> Investing in general emergency response capability: having 
        highly trained and professional police, fire, and medical 
        personnel allows more rapid response to disasters. Having 
        savings to build up adequate financial resources allows ability 
        to respond to many unexpected events.

  <bullet> Investing in adaptive capacity and ability to learn: 
        effectively responding to some disturbances may require gaining 
        knowledge of the disturbance prior to crafting an effective 
        response. For example, emergence of a new disease requires 
        understanding the bacteria or virus that causes the disease 
        before methods to prevent its spread, treat victims, and 
        develop a vaccine, can occur.

  <bullet> Improving governance and social cohesion: help to coastal 
        communities from state and Federal Government is often 
        essential to provide relief in the immediate aftermath of a 
        disaster. Long-term recovery depends on the resourcefulness of 
        the local community affected by the disaster. Communities where 
        people share a sense of commitment and local pride, and have 
        trust in their neighbors and local institutions, typically 
        recover more quickly and more completely to disasters.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
